                SPECTOR G
              IN          E
          L
      A
                           N
   CI




                              ER
SPE




                                LA
AFG




                                IO N
                              CT
 HA




      IS
                           TR
                           U




           TA
  N




                N RECONS
                                                                                                          EXECUTIVE SUMMARY




                         MESSAGE FROM THE SPECIAL INSPECTOR GENERAL FOR
                                  AFGHANISTAN RECONSTRUCTION

                  This is the ¿rst formal quarterly report of the Special Inspector General for Afghanistan Reconstruction
                  (SIGAR) as required by Section 1229 of the National Defense Authorization Act (NDAA) of Fiscal Year
                  2008 (PL 110-181). Since being sworn in as Special Inspector General on July 22, 2008, I have worked
                  to build the organization and to initiate relationships necessary for SIGAR to perform the mission
                  presented by the United States Congress. This report discusses my understanding of the mission, the
                  current situation in Afghanistan, and my plans for how the Of¿ce of the SIGAR will accomplish the
                  mission in the days ahead.

                  In ful¿lling one of my ¿rst priorities, I visited Afghanistan in September 2008. My discussions with
                  senior civilian and military leaders were both informative and very revealing. The views they shared
                  with me made clear that the task of reconstruction in Afghanistan is an exceedingly dif¿cult and complex
                  issue. It occurs in a country with no substantial natural resources, a population devastated by decades
                  of war, and an ongoing insurgency. To deal with this challenge, I have developed a strategic concept
                  that will serve to ensure independent and objective fact-¿nding in order to account for and ensure
                  the ef¿ciency of appropriated funds and amounts otherwise made available for the reconstruction of
                  Afghanistan. All indications are that SIGAR will require a robust and highly skilled staff in order to
                  accomplish its mission, and we are on our way to achieving this goal.

                  Our dialogue with Congressional members and staff has been particularly helpful in understanding the
                  mandate and in securing initial funding to begin staf¿ng the organization and to commence work on what
                  is clearly a demanding mission. Some funding issues for SIGAR remain unresolved, but I am con¿dent
                  they will eventually be addressed. I wish to thank the Congress for being receptive and responsive to our
                  requests for assistance. Section 1229 of the NDAA is the basis upon which SIGAR exists and we are
                  now poised to carry out the necessary audits, inspections, investigations, and assessments.

                  The reconstruction of Afghanistan is crucial to the interests of the United States and I respectfully solicit
                  any observations by which the Of¿ce of the SIGAR might bene¿t and better serve the people.

                  Very respectfully submitted October 30, 2008,




                  Arnold Fields
                  Major General, USMC (Ret.)
                  Special Inspector General for Afghanistan Reconstruction



                                                                Of¿ce of the SIGAR | October 30, 2008 Report To Congress I i



SIGAR gpo WW.indd i                                                                                                               10/22/2008 4:49:24 PM
SIGAR gpo WW.indd ii   10/22/2008 4:49:25 PM
                                                                                                                      EXECUTIVE
                                                                                                                       TABLE OF CONTENTS
                                                                                                                                SUMMARY




                                                                Table of Contents


                   1. EXECUTIVE SUMMARY.............................................................................................1

                   2. SIGAR STRATEGIC OVERVIEW................................................................................5

                   3. AFGHANISTAN RECONSTRUCTION INITIATIVES.................................................12

                   4. AFGHANISTAN RECONSTRUCTION FUNDS SUMMARY 2001-2008....................17

                   5. ACRONYMS AND DEFINITIONS..............................................................................44

                   6. APPENDICES............................................................................................................45

                   7. REFERENCES........................................................................................................141




                                                                     Of¿ce of the SIGAR | October 30, 2008 Report To Congress I III
                                                                                                                                iii



SIGAR gpo WW.indd Sec1:iii                                                                                                                       10/22/2008 4:49:25 PM
              EXECUTIVE
              TABLE OF CONTENTS
                        SUMMARY




                                                          List of Tables and Figures

                   Figure 1: SIGAR Strategic Concept ............................................................................................2

                   Figure 2: SIGAR Organizational Chart ........................................................................................6

                   Figure 3: SIGAR Strategic Concept ............................................................................................9

                   Table 1: Program and Objective Funding by Fiscal Year ..........................................................12

                   Table 2: General Overview Sources of Funds (in millions) .......................................................19

                   Table 3: Afghanistan Program Funding Chart ......................................................................21

                   Figure 4: Afghan Funding Based on Program Objectives, FY01 ..............................................22

                   Figure 5: Afghan Funding Based on Program Objectives, FY02 ..............................................22

                   Figure 6: Afghan Funding Based on Program Objectives, FY03 ..............................................23

                   Figure 7: Afghan Funding Based on Program Objectives, FY04 ..............................................23

                   Figure 8: Afghan Funding Based on Program Objectives, FY05 ..............................................24

                   Figure 9: Afghan Funding Based on Program Objectives, FY06 ..............................................24

                   Figure 10: Afghan Funding Based on Program Objectives, FY07 ............................................25

                   Figure 11: Afghan Funding Based on Program Objectives, FY08 .............................................25

                   Figure 12: Afghan Freedom Support Act of 2002 Funding ........................................................26

                   Figure 13: Afghan National Police Funding ..............................................................................26

                   Figure 14: Counter-Narcotics Funding ......................................................................................27

                   Figure 15: Afghan National Army Funding ................................................................................27

                   Figure 16: Afghanistan Security Forces Fund Funding .............................................................28

                   Figure 17: Presidential Protection Services ..............................................................................28

                   Figure 18: Demilitarization, Demobilization, and Reintegration Funding ..................................29

                   Figure 19: Detainee Operations Funding ..................................................................................29

                   Figure 20: Man-Portable Air Defense Systems Destruction Funding ........................................30

                   Figure 21: Small Arms Control Funding ....................................................................................30




              iv | Of¿ce of the SIGAR | October 30, 2008 Report To Congress
              IV



SIGAR gpo WW.indd Sec1:iv                                                                                                                            10/22/2008 4:49:25 PM
                                                                                                                            EXECUTIVE
                                                                                                                             TABLE OF CONTENTS
                                                                                                                                      SUMMARY




                  Figure 22: Terrorist Interdiction Program Funding .....................................................................31

                  Figure 23: Counter-Terrorism Program Funding .......................................................................31

                  Figure 24: Border Control (WMD) Funding ...............................................................................32

                  Figure 25: Bilateral Debt Relief Funding ...................................................................................32

                  Figure 26: Support to the Government of Afghanistan Funding ................................................33

                  Figure 27: Good Governance Funding ......................................................................................33

                  Figure 28: Afghanistan Trust Fund Funding ..............................................................................34

                  Figure 29: Political Competition and Consensus-Building Funding ..........................................34

                  Figure 30: Civil Society Funding ...............................................................................................35

                  Figure 31: Rule of Law and Human Rights Funding .................................................................35

                  Figure 32: Roads Funding ........................................................................................................36

                  Figure 33: Humanitarian Response Funding ............................................................................36

                  Figure 34: Afghan-Tajik Bridge Funding ....................................................................................37

                  Figure 35: Education/Schools Funding .....................................................................................37

                  Figure 36: Health Clinics Funding .............................................................................................38

                  Figure 37: Power Funding .........................................................................................................38

                  Figure 38: Provincial Reconstruction Teams Funding ...............................................................39

                  Figure 39: CERP Funding .........................................................................................................39

                  Figure 40: Civil Aviation Funding ...............................................................................................40

                  Figure 41: Private Sector/Economy/Government Development Funding .................................40

                  Figure 42: Water Projects Funding ...........................................................................................41

                  Figure 43: Agriculture Funding…...............................................................................................41

                  Figure 44: Refugee/Internationally Displaced Persons Assistance Funding .............................42

                  Figure 45: Food Assistance Funding .........................................................................................42

                  Figure 46: Demining Funding ....................................................................................................43

                  Figure 47: State-USAID Program Support Funding ..................................................................43




                                                                        Of¿ce of the SIGAR | October 30, 2008 Report To Congress I Vv



SIGAR gpo WW.indd Sec1:v                                                                                                                                 10/22/2008 4:49:25 PM
SIGAR gpo WW.indd Sec1:vi   10/22/2008 4:49:25 PM
                                                                                                    EXECUTIVE SUMMARY




                                                      EXECUTIVE SUMMARY
                  Overview

                  Since 2001, the U.S. has provided approximately $32 billion in humanitarian and reconstruction
                  assistance to Afghanistan. In addition, the international community has provided a further $25.3
                  billion for the rebuilding of Afghanistan. To provide for the independent and objective conduct
                  and supervision of audits, inspections, and investigations relating to these funds, Congress
                  created the Of¿ce of the Special Inspector General for Afghanistan Reconstruction (SIGAR)
                  under authority of Section 1229 of the National Defense Authorization Act for Fiscal Year 2008
                  (PL 110-181), which was signed into law on January 28, 2008. Major General Arnold Fields
                  (Ret.), U.S. Marine Corps, was appointed by President George W. Bush on June 12, 2008 to
                  be the ¿rst Inspector General (IG) and was subsequently sworn into of¿ce on July 22, 2008.

                  SIGAR Funding

                  PL 110-181 authorized a $20 million drawdown from the Afghanistan Security Forces Fund
                  (ASFF) for the standup of SIGAR during 2008. However, these funds were never disbursed to
                  SIGAR. Actual appropriations from the Supplemental approved on June 30, 2008 resulted in
                  $2 million being available through September 2008, with an additional $5 million made available
                  on October 1, 2008. Congress subsequently appropriated $9 million from the Consolidated
                  Security, Disaster Assistance, and Continuing Appropriations Act of 2009, which was signed
                  by the President on September 30, 2008. With these funds, hiring has begun and conditions
                  set for resourcing SIGAR’s long-term personnel, facilities, and logistics requirements. SIGAR
                  has entered into a Memorandum of Agreement with the Of¿ce of the Special Inspector General
                  for Iraq Reconstruction (SIGIR) to provide temporary budget, contract, and other speci¿ed
                  resource support on a reimbursable basis. This arrangement is short term in nature, does not
                  compromise the independence of SIGAR, and is consistent with the Congressional mandate.

                  SIGAR Initial Activities

                  Since commencing operations, the SIGAR has been fully engaged in a wide range of activities
                  including:

                           •   Conferring with Congressional Members and staff to ensure full understanding of their
                               intent

                           •   Conducting over 60 meetings with key stakeholders who directly deal with Afghanistan
                               reconstruction issues

                           •   Meeting with senior UN leaders in New York regarding the role of international
                               organizations participating in Afghanistan reconstruction




                                                              Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 1



SIGAR gpo WW.indd Sec2:1                                                                                               10/22/2008 4:49:25 PM
              EXECUTIVE SUMMARY




                       •      Consulting with NATO senior leadership in Mons, Brunssum, and Kabul, regarding their
                              perspectives on building a free and stable Afghanistan

                       •      Meeting with key combat component commanders to understand how they see the
                              security situation in relationship to development priorities

                       •      Visiting Provincial Reconstruction Teams in Afghanistan to understand the security,
                              cultural, and ¿nancial challenges they face

                       •      Setting conditions for a forward presence in Afghanistan

                       •      Growing the organization from 1 to 21 people since July 22, 2008

                  Strategic Concept

                  Based on these intensive preparations and activities, the magnitude of the SIGAR mission is
                  clear; development in Afghanistan is an exceedingly dif¿cult and complex issue. It occurs in a
                  country with no substantial natural resources, a population devastated by decades of war, and
                  an ongoing insurgency. The U.S. participates as a partner with NATO, which has been active in
                  and responsible for some aspects of the reconstruction process since 2003. To deal with these
                  complexities, SIGAR has developed a strategic concept (illustrated in Figure 1) that will serve
                  as a guide to independent and objective fact-¿nding to account for and ensure the ef¿cient
                  utilization of appropriated funds and amounts otherwise made available for the rebuilding of
                  Afghanistan. In this way, SIGAR will contribute to the further development of an integrated and
                  effective international reconstruction strategy for Afghanistan.



                                                           SIGAR Strategic Concept

                           Data Collection    Evaluation &                 Prioritization              Deployment                        Results
                                                                           - Organizational                                     - Quarterly Congressional
                           - Assessments       Analysis                                                - Auditors
                                                                             Direction                                            Report
                           - Data Review      - Audits/Reviews                                         - Inspectors
                                                                           - High Risk/High                                     - Investigative Referrals
                           - Interviews       - Financial Information                                  - Investigators
                                                                             Payback Tasks                                      - Afghan Reconstruction
                           - Hotline Leads    - Inspections                                            - Coordination Teams
                                                                           - Financial Audit/Reviews                              Improvements
                                              - Investigations
                                                                            - Resources, Funding
                                                                             & Support
                      Phase I Establishment                             Phase II Initial Operational Capability                         Phase IV
                                                                                                                                       Findings &
                                                                                   Phase III      Full Operational Capability       Recommendations

                                                         Figure 1: SIGAR Strategic Concept




              2 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:2                                                                                                                                    10/22/2008 4:49:25 PM
                                                                                                    EXECUTIVE SUMMARY




                  Deliverables

                  Initial reports will focus on four critical areas:

                       1. A comprehensive list of U.S. funds appropriated or otherwise made available for
                          reconstruction

                       2. The initiatives for which reconstruction funds were approved

                       3. The status of reconstruction initiatives

                       4. Evidence of waste, fraud, abuse, and corruption

                  Inspections, investigations, and audits will examine the full spectrum of the reconstruction
                  efforts with speci¿c interest in the following programs and initiatives:

                       •   Contract execution

                       •   Security sector development

                       •   Infrastructure development

                       •   Military equipment procurement

                       •   Training programs

                       •   Counter-Narcotics

                       •   Judicial system reform

                       •   Commanders’ Emergency Response Program (CERP)

                       •   Emergency humanitarian food assistance

                       •   Programs and issues identi¿ed through the SIGAR hotline and other means

                  Results of audits and investigations will be published and made available online at
                  http://www.sigar.mil.




                                                              Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 3



SIGAR gpo WW.indd Sec2:3                                                                                               10/22/2008 4:49:25 PM
              EXECUTIVE SUMMARY




                  Near-Term Outlook

                  An initial operations and assessment team will deploy to Afghanistan in November 2008 to
                  establish working and living arrangements for follow-on SIGAR personnel. A functional forward
                  headquarters in Afghanistan will be in place by January 2009.

                  Due to current funding restraints, SIGAR does not expect to reach full operational capability
                  until the 4th quarter of FY2009. A minimum staff of 90 employees will be needed for SIGAR
                  to accomplish its mission and of which it is anticipated that 58 will be located in the greater
                  Washington, D.C. area; 32 will be forward-located in Afghanistan for tours of up to 13 months.
                  SIGAR will continue to re¿ne its resource requirements as the dynamics of the mission may
                  dictate.




              4 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:4                                                                                            10/22/2008 4:49:25 PM
                                                                                            SIGAR STRATEGIC
                                                                                                   EXECUTIVEOVERVIEW
                                                                                                            SUMMARY




                                              SIGAR STRATEGIC OVERVIEW

                  Congressional Mandate

                  The United States has committed almost $32 billion in humanitarian and other aid to
                  Afghanistan since 2001. This amount constitutes the largest single contribution of any nation
                  supporting the reconstruction effort in Afghanistan. When paired with the $25 billion provided
                  by 60 other countries since the fall of the Taliban regime, the total international non-military
                  investment in the rebuilding of Afghanistan exceeds $57 billion. To provide for the independent
                  and objective conduct and supervision of audits, inspections, and investigations relating to
                  these funds, Congress created the Of¿ce of the Special Inspector General for Afghanistan
                  Reconstruction (SIGAR). As such, the Of¿ce of the SIGAR is charged with overseeing the
                  accounting for monies expended for the effective reconstruction of Afghanistan, so that it is
                  internally and externally secure, democratic, and inhospitable to terrorism, drug traf¿cking, and
                  narcotic cultivation.

                  The appointment of the Special Inspector General for Afghanistan Reconstruction, endowed
                  with broad investigative powers and underpinned by independence and collegiality, constitutes
                  a formidable and compelling instrument to make oversight of reconstruction efforts in
                  Afghanistan a reality.

                  SIGAR Mission

                  The Inspector General’s mission is to develop and maintain an independent, focused,
                  and reliable oversight system that ensures all U.S. funds for Afghanistan reconstruction are
                  properly, effectively, and ef¿ciently applied as intended. To this end, the Of¿ce will prevent
                  waste, fraud, and abuse in U.S. funded reconstruction programs; conduct independent and
                  objective fact ¿nding initiatives to account for and ensure the ef¿cient utilization of appropriated
                  funds and amounts otherwise made available for rebuilding Afghanistan; and contribute to the
                  further development of an integrated and effective international reconstruction strategy for
                  Afghanistan.

                  As de¿ned in PL 110-181, Afghanistan reconstruction consists of all activities and efforts “to
                  build or rebuild the physical infrastructure of Afghanistan; to establish or reestablish the political
                  and societal institutions of Afghanistan; and to provide goods or services to the people of
                  Afghanistan.” SIGAR will conduct oversight of reconstruction activities to include, but not limited
                  to, the following:

                       •   Support to Afghan Security Forces train and equip programs

                       •   Support to international security forces

                       •   Support to counter-narcotics initiatives



                                                            Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 5



SIGAR gpo WW.indd Sec2:5                                                                                                   10/22/2008 4:49:25 PM
              EXECUTIVE
              SIGAR STRATEGIC
                        SUMMARY
                              OVERVIEW




                       •         Support to judicial reform and capacity-building

                       •         Physical infrastructure projects (electrical grid, water and irrigation systems, energy,
                                 etc.)

                       •         Initiation of local employment projects and programs

                       •         Roadway construction and improvement programs

                       •         School, clinic, and hospital construction and rehabilitation projects

                  Organizational Development and Initial Coordination

                  Planned SIGAR Organization

                  The stand-up of the Of¿ce of the SIGAR began with the naming of the Inspector General on
                  May 29, 2008. As of October 30, 2008, the staf¿ng level has reached 8 government employees
                  and 13 contractor personnel assigned in the Washington, D.C. area. Below is a chart illustrating
                  the planned organization of the Of¿ce of the SIGAR.


                                                                               CONGRESS
                                              Secretary of State                                               Secretary of Defense




                                     Senior Advisor
                                     for Afghanistan
                                                                                SIGAR IG                            Congressional
                                                                                                                       Affairs
                                        General                             Principal Deputy IG
                                        Counsel




                                                                                             Forward Deployed                           AIG Inspections        AIG
                                       Chief of Staff                                         SIGAR Element                AIG Audits    & Evaluations    Investigations
                                                                                                                                            Hotline




                       Public           Information          Executive             Audit          Inspection         Investigation
                       Affairs            Services         Staff Services          Team              Team                Team



                                                                   Figure 2: SIGAR Organizational Chart




              6 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:6                                                                                                                                                   10/22/2008 4:49:25 PM
                                                                                         SIGAR STRATEGIC
                                                                                                EXECUTIVEOVERVIEW
                                                                                                         SUMMARY




                  SIGAR Funding Initiatives

                  PL 110-181 authorized a $20 million drawdown from the Afghanistan Security Forces Fund
                  (ASFF) for the standup of SIGAR during 2008. However, these funds were never disbursed to
                  SIGAR. Actual appropriations from the Supplemental approved on June 30, 2008 resulted in
                  $2 million being available through September 2008, with an additional $5 million made available
                  on October 1, 2008. Congress subsequently appropriated $9 million from the Consolidated
                  Security, Disaster Assistance, and Continuing Appropriations Act of 2009 (September 30,
                  2008). With these funds, hiring has begun and conditions set for resourcing SIGAR’s long-term
                  personnel, facilities, and logistics requirements. Consistent with the Congressional mandate,
                  SIGAR has signed a Memorandum of Agreement with the Of¿ce of the Special Inspector
                  General for Iraq Reconstruction (SIGIR) to provide temporary budget, human resources,
                  contract, and other speci¿ed resource support on a reimbursable basis.


                  Initial Coordination

                  Since commencing operations, SIGAR has been fully engaged in a wide range of activities
                  including:

                       •   Conferring with Congressional Members and staff to ensure full understanding of their
                           intent

                       •   Consultations and meetings with:

                              ʱ   NATO: General Bantz J. Craddock, Supreme Allied Commander Europe
                                  (SACEUR) and the Deputy SACEUR (Mons, Belgium)

                              ʱ   Afghanistan: General David D. McKiernan, Commander of U.S. Forces-
                                  Afghanistan and International Security Assistance Force

                              ʱ   UN: Ambassador Kai Eide, UN Special Representative in Afghanistan

                              ʱ   Senior NATO leaders in Brunssum and Kabul

                              ʱ   Other senior leadership within the Department of Defense (DoD) and the
                                  Department of State (DoS), including United States Agency for International
                                  Development (USAID) and the Bureau of International Counter-Narcotics and
                                  Law Enforcement

                              ʱ   Lieutenant General Frank H. Kearney, Deputy Commander of the U.S. Special
                                  Operations Command




                                                          Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 7



SIGAR gpo WW.indd Sec2:7                                                                                            10/22/2008 4:49:25 PM
              EXECUTIVE
              SIGAR STRATEGIC
                        SUMMARY
                              OVERVIEW




                              ʱ   Major General John R. Allen, Deputy Commander and Major General Jay W.
                                  Hood, Chief of Staff of the U.S. Central Command, along with other principal
                                  staff of¿cers

                              ʱ   Other Inspectors General with responsibilities for Afghanistan reconstruction
                                  issues, including Government Oversight and Accountability Of¿ce (GAO), DoD
                                  IG, DoS IG, USAID IG

                       •   Visiting the Dutch Provincial Reconstruction Team in Uruzgan Province and the U.S.
                           Provincial Reconstruction Team in Paktia Province, including meetings with the
                           provincial Governors and Ministers, PRT leaders and members, inspecting local
                           projects, to include hospitals, police barracks, and roadways. All visits were intended
                           to illuminate the security, cultural, and ¿nancial challenges of the PRT as a principal
                           mechanism of the reconstruction effort.

                       •   Setting conditions for a forward presence in Afghanistan, including preparing
                           memorandums of agreement to establish lines of support

                       •   Growing the organization from 1 to 21 people since July 22, 2008, including procuring
                           facilities, supplies, transportation, and other support

                  Initial assessments of the efforts of various USG agencies suggest that although much
                  important work has been performed, a more detailed accounting of resources committed to the
                  reconstruction of Afghanistan is necessary.


                  Opportunities

                  The Of¿ce of the SIGAR will:

                       •   Make maximum use of the Congressional mandate of PL 110-181 in order to fully
                           execute all tasks and missions required of SIGAR.

                       •   Leverage lessons learned and build upon the experience and accomplishments of
                           existing oversight institutions, with special focus on the work of the Inspectors General
                           of DoD, DoS, USAID, as well as reports compiled by the GAO.

                       •   Identify various streams of funding data sources that track monies expended for
                           Afghanistan reconstruction efforts in order to assess where and when funds were
                           committed, for what purpose, and the results of such funding.




              8 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:8                                                                                               10/22/2008 4:49:25 PM
                                                                                                                        SIGAR STRATEGIC
                                                                                                                               EXECUTIVEOVERVIEW
                                                                                                                                        SUMMARY




                  Challenges

                  SIGAR acknowledges that:

                       •       Development in Afghanistan is an exceedingly dif¿cult and complex issue. It occurs in
                               a country with no substantial natural resources, a population devastated by decades of
                               war, and an ongoing insurgency. Other complicating factors are its tribal culture, history
                               of foreign domination, high illiteracy rate, and porous borders.

                       •       Since 2003, the NATO coalition has been active in and contributed to the reconstruction
                               process; however, the evolving political and security dynamics of the Afghan
                               reconstruction agenda has challenged the implementation of a coherent and enduring
                               strategy. As a result, clear lines of command and control appear to be lacking, setting
                               the conditions for diffused responsibility and accountability.

                       •       Successful reconstruction relies on a secure environment, effective governance,
                               and economic development. Adversely affecting all three of these pillars is the
                               illegal cultivation of poppies, which serves as a destabilizing social force both within
                               Afghanistan and outside its borders.

                  SIGAR Processes, Priorities, and Controls

                  SIGAR Strategic Concept

                  The initial focus of the SIGAR strategic concept will be to leverage existing information,
                  investigations, assessments and audits completed by other organizations. Key to prioritizing
                  resources and funding support will be the evaluation and analysis of data collected by SIGAR
                  audit, inspection, and investigation teams. Together, the information gained will be used to
                  produce effective and timely ¿ndings, evaluations, and recommendations.



                                                           SIGAR Strategic Concept

                           Data Collection    Evaluation &                 Prioritization              Deployment                        Results
                                                                           - Organizational                                     - Quarterly Congressional
                           - Assessments       Analysis                                                - Auditors
                                                                             Direction                                            Report
                           - Data Review      - Audits/Reviews                                         - Inspectors
                                                                           - High Risk/High                                     - Investigative Referrals
                           - Interviews       - Financial Information                                  - Investigators
                                                                             Payback Tasks                                      - Afghan Reconstruction
                           - Hotline Leads    - Inspections                                            - Coordination Teams
                                                                           - Financial Audit/Reviews                              Improvements
                                              - Investigations
                                                                            - Resources, Funding
                                                                             & Support
                     Phase I Establishment                              Phase II Initial Operational Capability                         Phase IV
                                                                                                                                       Findings &
                                                                                   Phase III      Full Operational Capability       Recommendations



                                                         Figure 3: SIGAR Strategic Concept


                                                                          Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 9



SIGAR gpo WW.indd Sec2:9                                                                                                                                    10/22/2008 4:49:25 PM
              EXECUTIVE
              SIGAR STRATEGIC
                        SUMMARY
                              OVERVIEW




                  Processes

                  This ¿rst report is not robust in funding data; however, future reports will provide greater and
                  more comprehensive information and analyses based on the ¿ndings of deployed auditors,
                  inspectors, and investigators who will review the expenditures of U.S. funds. The Of¿ce of
                  the SIGAR will examine the initiatives for which funds were intended and report their status,
                  measured against a pre-determined set of metrics.

                  Audits will cover the full spectrum of reconstruction, to include counternarcotics, judicial system
                  reform, infrastructure development, security, CERP spending, Afghan institutional training,
                  emergency food assistance, military equipment procurement, contract execution, and emerging
                  issues that offer sanctioned audit opportunities. The results of these audits will be published
                  and made available on the SIGAR website.


                  SIGAR Initial Priorities

                  Confer with Congressional Members: Meet with Congressional leaders and staff to facilitate
                  full understanding of the mandate and intent of Congress.
                  Status: Ongoing

                  Conduct visits to Afghanistan and NATO: Assess the current status of reconstruction efforts
                  ¿rst-hand.
                  Status: Complete

                  Conduct meetings with key stakeholders: Establish working relationships and partnerships
                  with relevant agencies and organizations.
                  Status: Ongoing

                  Conduct meetings with senior UN leaders: Discuss the role of international organizations
                  participating in Afghanistan reconstruction.
                  Status: Complete

                  Conduct meetings with key Combat Component Commanders: Solicit views on how they
                  balance security with development priorities.
                  Status: Complete

                  Visit Provincial Reconstruction Teams in Afghanistan: Understand the security, cultural,
                  and ¿nancial challenges they face at the tactical level.
                  Status: Completed 2 of 26 projected PRT Visits




              10 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:10                                                                                               10/22/2008 4:49:25 PM
                                                                                      SIGAR STRATEGIC
                                                                                             EXECUTIVEOVERVIEW
                                                                                                      SUMMARY




                  Support the preparation of the Joint DoD-DoS Announcement Memo: To be signed by
                  Deputy Secretary Gordon England and Deputy Secretary John Negroponte to announce the
                  Congressional establishment of SIGAR and the support both departments will render.
                  Status: In progress

                  Grow the organization and establish operational of¿ces: Fill key staff vacancies and
                  establish facilities in order to achieve full operational capability by October 1, 2009.
                  Status: In progress

                  Set conditions for a forward presence in Afghanistan: Deploy an advance team in
                  November 2008 to prepare for the establishment of a long-term SIGAR forward of¿ce not later
                  than January 2009.
                  Status: In progress

                  Report Resource Requirements to Congress, DoD, and DoS: Determine personnel and
                  support requirements needed to provide timely and responsive sustainment for staff and
                  operations in Washington, D.C. and Afghanistan.
                  Status: Ongoing

                  Develop and implement a SIGAR Training and Indoctrination Program for Newly Hired
                  Personnel: All new SIGAR staff will undergo and complete a comprehensive training program
                  that ensures they fully understand the parameters of the SIGAR mission and mandate.
                  Status: In progress




                                                      Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 11



SIGAR gpo WW.indd Sec2:11                                                                                       10/22/2008 4:49:26 PM
              EXECUTIVE SUMMARY
              AFGHANISTAN RECONSTRUCTION INITIATIVES




                                     AFGHANISTAN RECONSTRUCTION INITIATIVES

                  Framework for Current U.S. Funding

                  Current U.S. support to Afghanistan reconstruction is based on the Foreign Assistance
                  Framework as set forth in the Department of State’s most recent Congressional Budget
                  Justi¿cation for 2008 and is guided by the following ¿ve funding objectives:

                        •    Peace and Security

                        •    Governing Justly and Democratically

                        •    Investing in People

                        •    Economic Growth

                        •    Humanitarian Assistance

                  The Framework supports the goal of aiding in the development of “democratic, well-governed
                  states that respond to the needs of their people, reduce widespread poverty and conduct
                  themselves responsibly in the international system.”1 An illustrative matrix detailing the
                  Framework can be found at Appendix E.

                  Table 1, provided below, illustrates U.S. funds appropriated to Afghanistan reconstruction
                  efforts per year as they pertain to the ¿ve fundamental objectives of the Foreign Assistance
                  Framework. Each major program is listed by its funding program and its corresponding program
                  objective.

                                       Program and Objective Funding by Fiscal Year (in millions)




                                                                       Table 1
                  1
                      Foreign Assistance Framework, Department of State. Congressional Budget Justi¿cation 2008



              12 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:12                                                                                         10/22/2008 4:49:26 PM
                                                                                   AFGHANISTAN RECONSTRUCTION
                                                                                                      EXECUTIVE
                                                                                                              INITIATIVES
                                                                                                                SUMMARY




                  Principal Documents Guiding Afghanistan Reconstruction Efforts

                  In addition to the Department of State Framework, four principal documents are guiding
                  reconstruction efforts in Afghanistan: The Bonn Agreement, The Afghanistan Freedom Support
                  Act (2002), The Afghanistan Compact, and The Afghanistan National Development Strategy.
                  These documents represent the architecture for a comprehensive Afghanistan reconstruction
                  strategy and will be utilized by SIGAR as part of its assessment of how effective that strategy
                  has been.

                  The Bonn Agreement

                  In late 2001, the Bonn Conference resulted in the establishment of a process for Afghanistan
                  political reconstruction that included the adoption of a new constitution and called for democratic
                  elections as part of an overarching agreement between various factions of the polity of
                  Afghanistan.2 The Agreement called for an Afghan Interim Authority (AIA) to be created, which
                  was tasked with representing Afghanistan in its external relations and occupying the seat of
                  Afghanistan at the United Nations and all other international institutions and conferences. The
                  Bonn Agreement also stipulated that an Emergency Loya Jirga be called within six months to
                  establish a Transitional Authority (TA), which would lead Afghanistan until a fully representative
                  government could be elected through free and fair elections to be held no later than two years
                  from the date of the convening of the Emergency Loya Jirga. The AIA was set to terminate
                  at such time that the TA was created. The International Security Assistance Force (ISAF) was
                  also created to help ensure stability and peace during the creation of the TA. After the creation
                  of the TA, a constitutional Loya Jirga was convened in order to adopt a new constitution for
                  Afghanistan, which was rati¿ed on January 26, 2004.3 On December 7, 2004, Hamid Karzai
                  became the ¿rst democratically elected President of Afghanistan. The Bonn Agreement was
                  one of the ¿rst steps to restoring Afghanistan as an independent state.4

                  To further facilitate the implementation of the Bonn Agreement, the United Nations Assistance
                  Mission in Afghanistan (UNAMA) was established on March 28, 2002. The Mission mandate
                  provided for direction of all United Nations humanitarian, relief, recovery and reconstruction
                  activities. Its mandate includes the promotion of peace and stability in Afghanistan by leading
                  efforts of the international community in conjunction with the Government of Afghanistan
                  in rebuilding the country and strengthening the foundations of peace and constitutional
                  democracy.5 The mandate for UNAMA is reviewed annually and has grown to encompass
                  aiding the government in implementing the Afghanistan Compact, the Afghanistan National
                  2
                    Government Accountability Of¿ce (2005). Afghanistan Reconstruction: Despite Some Progress, Deteriorating
                  Security and Other Obstacles Continue to Threaten Achievement of U.S. Goals (GAO Publication No. 05-742).
                  Washington, DC: U.S. Government Printing Of¿ce
                  3
                    Of¿ce of the President of Afghanistan. (2004). The Constitution of the Islamic Republic of Afghanistan. Retrieved
                  October 7, 2008, from the Of¿ce of the President of Afghanistan.
                  Web Site: http://president.gov.af/english/constitution.mspx
                  4
                    Text of Bonn agreement at [http://www.ag-afghanistan.de/¿les/petersberg.htm].
                  5
                    United Nations Assistance Mission in Afghanistan. (2002). Overview of UNAMA. Retrieved October 7, 2008, from
                  the UNAMA website. Web Site: http://www.unama-afg.org/about/overview.htm



                                                                 Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 13



SIGAR gpo WW.indd Sec2:13                                                                                                               10/22/2008 4:49:26 PM
              EXECUTIVE SUMMARY
              AFGHANISTAN RECONSTRUCTION INITIATIVES




                  Development Strategy and the National Drugs Control Strategy. Since 2002, UNAMA has
                  assisted in everything from the initial public elections, to humanitarian aid activities ranging
                  from refugee reparations to increasing the number of children attending schools.

                  Afghanistan Freedom Support Act of 2002

                  In December 2002, Congress passed P.L. 107-327, which enacted the Afghanistan Freedom
                  Support Act of 2002 (AFSA).6 The AFSA substantially increased the United States’ economic,
                  democratic, and military assistance to Afghanistan. The AFSA also established provisions
                  for U.S. support to the objectives outlined in the Bonn Agreement. In broad terms, the AFSA
                  outlines the U.S. Government’s goals in Afghanistan to be the establishment of a democratic
                  state inhospitable to international terrorism, drug traf¿cking and narcotics cultivation, at
                  peace with its neighbors; and able to provide its own internal and external security. U.S.
                  efforts in support of this goal are intended to help create national security institutions,
                  provide humanitarian and reconstruction assistance, and reinforce the primacy of the central
                  government over Afghanistan’s provinces.

                  The Afghanistan Compact

                  In 2005, of¿cial development assistance (foreign grants and concessional loans) from
                  international donors totaled $2.8 billion. In January, 2006, 64 countries and 11 international
                  organizations attended the London Conference on Afghanistan and approved the Afghanistan
                  Compact,7      a political commitment that prescribed how the international community
                  should contribute to Afghanistan’s reconstruction. The Compact was the next step in the
                  reconstruction process following the Bonn Agreement. The Compact established the
                  framework for international cooperation with Afghanistan for the next ¿ve years.8 The intent
                  of the Compact was to enable Afghanistan to become more self-reliant, by cooperating with
                  the international community to create conditions ideal for economic and social development.
                  Three critical and interdependent pillars of activity were identi¿ed by the Compact: Security,
                  Governance (Rule of Law and Human Rights), and Economic and Social Development. A
                  further cross-cutting component identi¿ed the necessity for the elimination of the growing
                  narcotics industry. The Compact urged that the international community needed to increase
                  the proportion of donor assistance channeled directly through the core budget, as well as
                  through other more predictable core budget funding systems in which the Afghan Government
                  participates, such as the Afghanistan Reconstruction Trust Fund (ARTF), the Law and Order
                  Trust Fund for Afghanistan and the Counter-Narcotics Trust Fund. This would allow for the
                  Afghan government to assume a larger role in the reconstruction of the state.

                  Each of the three critical pillars identi¿ed by the Compact contains specialized goals. Under
                  Security, terms and conditions were established for the completion of the ANA training program,

                  6
                     Text of the Afghanistan Freedom Support Act at [http://www.govtrack.us/congress/billtext.xpd?bill=s107-2712]
                  7
                    For a complete list of participants, see Annex IV of the Afghanistan Compact, found in Appendix G of this report.
                  8
                    Text of the Afghanistan Compact at [http://www.nato.int/isaf/docu/epub/pdf/afghanistan_compact.pdf]



              14 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:14                                                                                                               10/22/2008 4:49:26 PM
                                                                                  AFGHANISTAN RECONSTRUCTION
                                                                                                     EXECUTIVE
                                                                                                             INITIATIVES
                                                                                                               SUMMARY




                  increasing troop levels to 70,000 by the end of 2010. As of June 2008, DoS reports that the
                  ANA now totals about 60,000 soldiers.9 The pillar of Governance requires that the Afghan
                  Independent Human Rights Commission (AIHRC) monitor for any violations of human rights.
                  DoS reports that the U.S. helped establish the AIHRC to strengthen the local government,
                  and foster the development of civil society.10 The Economic and Social Development pillar
                  required the Ring Road, which circles the mountains and connects Afghanistan’s largest
                  cities, including Kabul, Kandahar, and Herat, to be fully upgraded and maintained by the end
                  of 2008. According to DoS, the U.S. has built approximately 715 kilometers (444 miles) of
                  the Ring Road as of June 2008.11 These are examples of various projects and activities the
                  U.S. has committed funds and resources to in support of both the Afghanistan Compact and
                  reconstruction efforts.

                  Afghanistan National Development Strategy (ANDS)

                  The most recent addition to the plans outlined in the Afghanistan Compact is the Afghanistan
                  National Development Strategy. Signed by President Hamid Karzai on April 21, 2008, the
                  ANDS is Afghanistan’s “blueprint for the development of Afghanistan;”12 it contains strategies
                  for improvements in security, governance, economic growth, and poverty reduction. This policy
                  paper was created by the Afghan government and is based on both the UN’s Millennium
                  Development Goals and the Afghanistan Compact; it also serves as Afghanistan’s Poverty
                  Reduction Strategy Paper.13 The ANDS presents the government’s vision for Afghanistan in
                  the year 2020 and outlines speci¿c goals within the three pillars outlined in the Afghanistan
                  Compact to be accomplished in the years 2008-2013.

                  Afghanistan presented the ANDS to the international community at the June 2008 International
                  Conference in Support of Afghanistan held in Paris. Included in the paper was a budget for the
                  cost of the ANDS in the next ¿ve years; in total, an estimated $50 billion will be necessary for
                  implementation. These funds are expected to come from both international donations and the
                  Afghan national budget, with approximately $6.8 billion coming directly from Afghanistan.14
                  9
                    Of¿ce of the Spokesman. (2008). Summary of U.S. Assistance: International Conference in Support of Afghanistan.
                  Retrieved October 8, 2008, from U.S. Department of State’s web site. Web site: http://www.state.gov/r/pa/prs/
                  ps/2008/jun/105847.htm
                  10
                     Of¿ce of the Spokesman. (2008). Summary of U.S. Assistance: International Conference in Support of Afghani-
                  stan. Retrieved October 8, 2008, from U.S. Department of State’s web site. Web site: http://www.state.gov/r/pa/prs/
                  ps/2008/jun/105847.htm
                  11
                     Of¿ce of the Spokesman. (2008). Summary of U.S. Assistance: International Conference in Support of Afghani-
                  stan. Retrieved October 8, 2008, from U.S. Department of State’s web site. Web site: http://www.state.gov/r/pa/prs/
                  ps/2008/jun/105847.htm
                  12
                     French Ministry of Foreign and European Affairs. (n.d.). Retrieved October 8, 2008, from http://www.diplomatie.
                  gouv.fr/en/country-¿les_156/afghanistan_498/international-conference-in-support-of-afghanistan-paris-12th-june-
                  2008_6366/index.html
                  13
                     Poverty Reduction Strategy Papers are policy papers created by governments of low-income countries with input
                  from the IMF and the World Bank. They explain the macroeconomic, structural and social policies and programs
                  that a country will pursue over several years to promote broad-based growth and reduce poverty, as well as external
                  ¿nancing needs and the associated sources of ¿nancing.
                  14
                     Text of ANDS Executive Summary available at Full text of the executive summary available at http://www.embas-
                  syofafghanistan.org/documents/resume_ANDS.pdf



                                                                Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 15



SIGAR gpo WW.indd Sec2:15                                                                                                               10/22/2008 4:49:26 PM
              EXECUTIVE SUMMARY
              AFGHANISTAN RECONSTRUCTION INITIATIVES




                  The ANDS warns that its goals cannot be implemented without improvements in aid
                  effectiveness. The document outlines such a strategy, including a directive to disperse the
                  majority of aid through the Afghan national budget. According to the ANDS, channeling funds
                  through the central government will result in a “greater impact at lower cost.”15 The World Bank
                  has stated that allowing the central government to disburse these funds will also help establish
                  the government’s legitimacy, as it will make connections between the Afghan government and
                  tangible improvements in the lives of individual citizens; in the same report, however, the World
                  Bank discusses dif¿culties the Afghan government faces in distributing these funds effectively
                  and ef¿ciently.16

                  On June 12, 2008, representatives from 66 countries and 10 international organizations
                  attended the Paris Conference; this conference resulted in 20 donors agreeing to pledge a
                  total of more than $21 billion in additional funds for Afghanistan reconstruction. Donor countries
                  and organizations also agreed to deliver these funds in a more coordinated manner than in
                  previous years to prevent waste and duplication of efforts.17 Of note, the U.S. pledged $10.2
                  billion over 2 years, thus funding more than one-¿fth of the $50 billion required to implement
                  the ANDS. Other large donors include the Asian Development Bank ($1.3 billion), the World
                  Bank ($1.1 billion), the United Kingdom ($1.2 billion), and the European Union ($770 million).18
                  The conference’s declaration stated the international community’s pledges to “give priority to
                  strengthening institutions and economic growth, particularly in agriculture and energy” and to
                  make increased, more effective donations.19




                  15
                     Text of ANDS Executive Summary available at
                  http://www.embassyofafghanistan.org/documents/resume_ANDS.pdf
                  16
                     Anderson, John Ward. (2008, June 13). International Donors Pledge Additional $21 Billion for Afghanistan.
                  The Washington Post. Retrieved from
                  http://www.washingtonpost.com/wp-dyn/content/article/2008/06/12/AR2008061200269_pf.html
                  17
                     Text of the Declaration of the International Conference in Support of Afghanistan available at
                  http://unama-afg.org/_latestnews/2008/Paris-con-Declaration-june12.pdf
                  18
                     The World Bank. (May 30, 2008). Improving the Effectiveness of Aid to Afghanistan. Retrieved from
                  www.worldbank.org
                  19
                     Text of the Declaration of the International Conference in Support of Afghanistan available at
                  http://unama-afg.org/_latestnews/2008/Paris-con-Declaration-june12.pdf



              16 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:16                                                                                                        10/22/2008 4:49:26 PM
                                                        AFGHANISTAN RECONSTRUCTION FUNDS EXECUTIVE
                                                                                         SUMMARY 2001-2008
                                                                                                   SUMMARY




                      AFGHANISTAN RECONSTRUCTION FUNDS SUMMARY 2001-2008

                  Measures of Effectiveness

                  Clearly, Congressional intent, as articulated in the appropriations legislation, is a key metric
                  SIGAR will use to ensure resources are utilized as intended.

                  Additionally, in order to carry out its oversight responsibilities, the Of¿ce of the SIGAR will
                  develop its measures of effectiveness in part from the three critical and interdependent pillars
                  that are identi¿ed in both the Afghanistan Compact and the Afghanistan National Development
                  Strategy (ANDS):

                       1. Security

                       2. Governance, Rule of Law Economic and Human Rights

                       3. Economic and Social Development

                  The ANDS establishes targets and priorities in areas of development that serve as baselines
                  by which to determine progress in key sectors of the Afghanistan infrastructure. The three
                  pillars are at the core of the reconstruction architecture. As signatories to the ANDS and the
                  Afghanistan Compact, the international community has committed itself to provide a level of
                  support necessary to accomplish the desired goals.

                  The measures of effectiveness outlined in both the Afghanistan Compact and the ANDS will
                  be one tool that SIGAR will use to determine the degree of success achieved by resources
                  committed to various reconstruction projects, programs, and initiatives from FY2001-FY2008.




                                                        Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 17



SIGAR gpo WW.indd Sec2:17                                                                                            10/22/2008 4:49:26 PM
              EXECUTIVE SUMMARY
              AFGHANISTAN RECONSTRUCTION FUNDS SUMMARY 2001-2008




                  SIGAR Internal Metrics

                  Auditing

                  U.S. dollars saved or recovered, number of challenged payments, number of audit ¿ndings,
                  audit recommendations, and number of concurrent actions to mediate ¿ndings.

                  Inspections and Hotline

                  Number of allegations processed, audit referrals, inspections conducted, investigation referrals,
                  evaluations conducted, assessments conducted, and number of concurrent actions to mediate
                  ¿ndings.

                  Investigations

                  Number of investigations initiated, investigations closed or referred, open investigations,
                  arrests, indictments, convictions, and court ordered restitutions/forfeitures.

                  Other

                  Number of requests for SIGAR reports, number of hits on SIGAR website, and other requests
                  for relevant information.




              18 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:18                                                                                             10/22/2008 4:49:26 PM
                                                       AFGHANISTAN RECONSTRUCTION FUNDS EXECUTIVE
                                                                                        SUMMARY 2001-2008
                                                                                                  SUMMARY




                  Afghanistan Reconstruction Funds Summary 2001-2008

                  The following chart illustrates major funding provided by the international donor community
                  to Afghanistan reconstruction efforts from 2001-2009. The donations shown include funds
                  provided by major donor countries and organizations, such as the UN, World Bank, European
                  Commission, Asian Development Bank, and other institutions.

                            General Overview Sources of Funds (in millions) as of September 30, 2008




                                                            Table 2




                                                       Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 19



SIGAR gpo WW.indd Sec2:19                                                                                        10/22/2008 4:49:26 PM
              EXECUTIVE SUMMARY
              AFGHANISTAN RECONSTRUCTION FUNDS SUMMARY 2001-2008




                  The charts and tables illustrated on the following pages will focus on the funding provided to
                  Afghanistan reconstruction efforts by ¿scal year by the program objectives established by the
                  Department of State’s Foreign Assistance Framework. The primary organizations charged with
                  providing these funds include USAID, the Department of Defense, and the State Department.,
                  The Departments of Agriculture, Commerce, Health and Human Services, the Interior, Justice,
                  Transportation, and the Treasury, the Broadcasting Board of Governors, and the General
                  Services Administration have also made substantial funding contributions to reconstruction
                  efforts in Afghanistan. The charts provide a review of funding trends for FY2001-2008.

                  As an initial product, the Of¿ce of the SIGAR has created an Afghanistan Program Funding
                  Chart to serve as a master list of program dollars by the amounts appropriated, obligated, and
                  disbursed within each year. Each program is categorized to reÀect the objectives as outlined
                  in the Foreign Assistance Framework (Appendix E). Programs have been listed under the
                  correlating Foreign Assistance Framework Objective. The objectives are as follows:

                       •    Peace and Security

                       •    Governing Justly and Democratically

                       •    Investing in People

                       •    Economic Growth

                       •    Humanitarian Assistance

                  Many of the programs are designed to address more than one objective. Such programs have
                  therefore been designated Reconstruction Programs. For example, programs whose initiative
                  is road construction can be described as supporting any of the ¿ve objectives. In such cases,
                  the programs have been listed under the broader term “Reconstruction Programs”.

                  The information in the following charts and tables will serve as a basis for comprehensive
                  analysis by the Of¿ce of the SIGAR to ensure a detailed list of USG funds appropriated or
                  otherwise made available are accounted for and that the initiatives for which these funds were
                  intended were actually executed. The status of those initiatives will also be veri¿ed to ensure
                  all USG funds allocated for Afghanistan reconstruction have been and are applied as intended.
                  Data for these charts was provided by the Afghanistan Interagency Bi-monthly Fund Status
                  Review Group.201



                  20
                    The Afghanistan Interagency Bi-monthly Fund Status Review Group is chaired by the National Security Council
                  and consists of fund managers from DoS,( Bureau of South and Central Asian Affairs, Bureau of International
                  Narcotics and Law Enforcement Affairs, Of¿ce of Foreign Affairs, IG), USAID, USAID IG, DoD, DoD IG, Treasury,
                  U.S. Army Corps of Engineers, Department of Agriculture, Of¿ce of the Secretary of Defense Comptroller, and Drug
                  Enforcement Administration.



              20 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:20                                                                                                            10/22/2008 4:49:27 PM
                                      AFGHANISTAN RECONSTRUCTION FUNDS EXECUTIVE
                                                                       SUMMARY 2001-2008
                                                                                 SUMMARY




                            Afghanistan Program Funding chart
                                       ( millions))
                                       (in




                                           Table 3



                                      Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 21



SIGAR gpo WW.indd Sec2:21                                                                       10/22/2008 4:49:27 PM
              EXECUTIVE SUMMARY
              AFGHANISTAN RECONSTRUCTION FUNDS SUMMARY 2001-2008




                                                             Figure 4

                  As shown by ¿gure above, Humanitarian Assistance dominated the support for FY 2001.




                                                             Figure 5

                  FY 2002 saw a dramatic increase in overall funding, providing funds for the Foreign Assistance
                  Framework Objectives.



              22 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:22                                                                                          10/22/2008 4:49:28 PM
                                                       AFGHANISTAN RECONSTRUCTION FUNDS EXECUTIVE
                                                                                        SUMMARY 2001-2008
                                                                                                  SUMMARY




                                                            Figure 6

                  FY 2003 saw an increased signi¿cance placed on the Peace and Security Objective. Efforts
                  in the Economic Growth and Investing in People Objectives also grew signi¿cantly during this
                  period.




                                                            Figure 7

                  Exponential growth occurred in all program objective areas with the exception of Humanitarian
                  Assistance which remained consistent in FY 2004.



                                                       Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 23



SIGAR gpo WW.indd Sec2:23                                                                                         10/22/2008 4:49:28 PM
              EXECUTIVE SUMMARY
              AFGHANISTAN RECONSTRUCTION FUNDS SUMMARY 2001-2008




                                                             Figure 8

                  Growth spikes occurred in Security, Investing in People and Economic Growth during FY 2005,
                  with the remaining programs displaying consistency in appropriations.




                                                             Figure 9

                  In FY 2006 all programs experienced a decrease in appropriations, leaving the majority of
                  funds allocated towards Peace and Security.



              24 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:24                                                                                       10/22/2008 4:49:28 PM
                                                      AFGHANISTAN RECONSTRUCTION FUNDS EXECUTIVE
                                                                                       SUMMARY 2001-2008
                                                                                                 SUMMARY




                                                          Figure 10

                  In FY 2007 Security experienced an exponential increase, while the remaining program
                  objectives continued to decline in appropriations.




                                                           Figure 11

                  During FY 2008 Security and Humanitarian Assistance experienced negative growth, while
                  increases were received in Governing Justly and Democratically, and Investing in People and
                  Economic Growth.



                                                      Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 25



SIGAR gpo WW.indd Sec2:25                                                                                       10/22/2008 4:49:29 PM
              EXECUTIVE SUMMARY
              AFGHANISTAN RECONSTRUCTION FUNDS SUMMARY 2001-2008




                                                             Figure 12




                                                             Figure 13



              26 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:26                                                     10/22/2008 4:49:29 PM
                            AFGHANISTAN RECONSTRUCTION FUNDS EXECUTIVE
                                                             SUMMARY 2001-2008
                                                                       SUMMARY




                                Figure 14




                                Figure 15



                            Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 27



SIGAR gpo WW.indd Sec2:27                                                             10/22/2008 4:49:30 PM
              EXECUTIVE SUMMARY
              AFGHANISTAN RECONSTRUCTION FUNDS SUMMARY 2001-2008




                                                             Figure 16




                                                             Figure 17



              28 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:28                                                     10/22/2008 4:49:31 PM
                            AFGHANISTAN RECONSTRUCTION FUNDS EXECUTIVE
                                                             SUMMARY 2001-2008
                                                                       SUMMARY




                                Figure 18




                                Figure 19



                            Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 29



SIGAR gpo WW.indd Sec2:29                                                             10/22/2008 4:49:32 PM
              EXECUTIVE SUMMARY
              AFGHANISTAN RECONSTRUCTION FUNDS SUMMARY 2001-2008




                                                             Figure 20




                                                             Figure 21



              30 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:30                                                     10/22/2008 4:49:33 PM
                            AFGHANISTAN RECONSTRUCTION FUNDS EXECUTIVE
                                                             SUMMARY 2001-2008
                                                                       SUMMARY




                                Figure 22




                                Figure 23



                            Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 31



SIGAR gpo WW.indd Sec2:31                                                             10/22/2008 4:49:34 PM
              EXECUTIVE SUMMARY
              AFGHANISTAN RECONSTRUCTION FUNDS SUMMARY 2001-2008




                                                             Figure 24




                                                             Figure 25



              32 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:32                                                     10/22/2008 4:49:34 PM
                            AFGHANISTAN RECONSTRUCTION FUNDS EXECUTIVE
                                                             SUMMARY 2001-2008
                                                                       SUMMARY




                               Figure 26




                               Figure 27



                            Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 33



SIGAR gpo WW.indd Sec2:33                                                             10/22/2008 4:49:36 PM
              EXECUTIVE SUMMARY
              AFGHANISTAN RECONSTRUCTION FUNDS SUMMARY 2001-2008




                                                             Figure 28




                                                             Figure 29



              34 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:34                                                     10/22/2008 4:49:37 PM
                            AFGHANISTAN RECONSTRUCTION FUNDS EXECUTIVE
                                                             SUMMARY 2001-2008
                                                                       SUMMARY




                                 Figure 30




                                 Figure 31



                            Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 35



SIGAR gpo WW.indd Sec2:35                                                             10/22/2008 4:49:39 PM
              EXECUTIVE SUMMARY
              AFGHANISTAN RECONSTRUCTION FUNDS SUMMARY 2001-2008




                                                             Figure 32




                                                             Figure 33



              36 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:36                                                     10/22/2008 4:49:41 PM
                            AFGHANISTAN RECONSTRUCTION FUNDS EXECUTIVE
                                                             SUMMARY 2001-2008
                                                                       SUMMARY




                                Figure 34




                                Figure 35



                            Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 37



SIGAR gpo WW.indd Sec2:37                                                             10/22/2008 4:49:42 PM
              EXECUTIVE SUMMARY
              AFGHANISTAN RECONSTRUCTION FUNDS SUMMARY 2001-2008




                                                             Figure 36




                                                             Figure 37



              38 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:38                                                     10/22/2008 4:49:43 PM
                            AFGHANISTAN RECONSTRUCTION FUNDS EXECUTIVE
                                                             SUMMARY 2001-2008
                                                                       SUMMARY




                                Figure 38




                                Figure 39



                            Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 39



SIGAR gpo WW.indd Sec2:39                                                             10/22/2008 4:49:45 PM
              EXECUTIVE SUMMARY
              AFGHANISTAN RECONSTRUCTION FUNDS SUMMARY 2001-2008




                                                             Figure 40




                                                             Figure 41



              40 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:40                                                     10/22/2008 4:49:47 PM
                            AFGHANISTAN RECONSTRUCTION FUNDS EXECUTIVE
                                                             SUMMARY 2001-2008
                                                                       SUMMARY




                                Figure 42




                                Figure 43



                            Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 41



SIGAR gpo WW.indd Sec2:41                                                             10/22/2008 4:49:48 PM
              EXECUTIVE SUMMARY
              AFGHANISTAN RECONSTRUCTION FUNDS SUMMARY 2001-2008




                                                             Figure 44




                                                             Figure 45




              42 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:42                                                     10/22/2008 4:49:50 PM
                            AFGHANISTAN RECONSTRUCTION FUNDS EXECUTIVE
                                                             SUMMARY 2001-2008
                                                                       SUMMARY




                                Figure 46




                                Figure 47




                            Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 43



SIGAR gpo WW.indd Sec2:43                                                             10/22/2008 4:49:51 PM
              EXECUTIVE SUMMARY
              ACRONYMS  AND DEFINITIONS




                                            ACRONYMS AND DEFINITIONS




              44 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:44                                                     10/22/2008 4:49:53 PM
                                                                                           EXECUTIVE
                                                                                                  APPENDICIES
                                                                                                     SUMMARY




                                                    APPENDICES

                  Appendix A – Government Institutions of Afghanistan
                  Appendix B – Map of Afghanistan
                  Appendix C – Comparative Country Statistics and Information
                  Appendix D – Historical Perspective
                  Appendix E – The Department of State’s Foreign Assistance Framework
                  Appendix F – PL 110-181 – 2008 National Defense Authorization Act
                  Appendix G – PL 107-327 – Afghanistan Freedom Support Act of 2002
                  Appendix H – The Bonn Agreement
                  Appendix I – The Afghanistan Compact
                  Appendix J – Afghanistan National Development Strategy Executive Summary
                  Appendix K – Afghanistan International Community Donors List




                                                    Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 45



SIGAR gpo WW.indd Sec2:45                                                                                     10/22/2008 4:49:54 PM
              EXECUTIVEASUMMARY
              APPENDIX   – GOVERNMENT INSTITUTIONS OF AFGHANISTAN




                                                      Appendix A
                                         Government Institutions of Afghanistan211




                  21
                     Central Intelligence Agency. (October 2, 2008). CIA World Factbook – Afghanistan. Retrieved October 7, 2008,
                  from https://www.cia.gov/library/publications/the-world-factbook/geos/af.html



              46 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:46                                                                                                           10/22/2008 4:49:54 PM
                                                                 APPENDIUX B – MAP
                                                                               EXECUTIVE
                                                                                   OF AFGHANISTAN
                                                                                         SUMMARY




                                            Appendix B
                            Map of the Islamic Republic of Afghanistan




                                          Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 47



SIGAR gpo WW.indd Sec2:47                                                                           10/22/2008 4:50:00 PM
              EXECUTIVECSUMMARY
              APPENDIX   – COMPARITIVE COUNTRY STATISTICS AND INFORMATION




                                                   Appendix C
                                  Comparative Country Statistics and Information221




                  22
                     Central Intelligence Agency. (October 2, 2008). CIA World Factbook – Afghanistan. Retrieved October 7, 2008,
                  from https://www.cia.gov/library/publications/the-world-factbook/geos/af.html



              48 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:48                                                                                                           10/22/2008 4:50:00 PM
                            APPENDIX C – COMPARITIVE COUNTRY STATISTICS
                                                                      EXECUTIVE
                                                                        AND INFORMATION
                                                                                SUMMARY




                                   Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 49



SIGAR gpo WW.indd Sec2:49                                                                    10/22/2008 4:50:07 PM
              EXECUTIVECSUMMARY
              APPENDIX   – COMPARITIVE COUNTRY STATISTICS AND INFORMATION




              50 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:50                                                     10/22/2008 4:50:12 PM
                            APPENDIX C – COMPARITIVE COUNTRY STATISTICS
                                                                      EXECUTIVE
                                                                        AND INFORMATION
                                                                                SUMMARY




                                   Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 51



SIGAR gpo WW.indd Sec2:51                                                                    10/22/2008 4:50:20 PM
              EXECUTIVEDSUMMARY
              APPENDIX   – AFGHANISTAN HISTORICAL PERSPECTIVE




                                                         Appendix D
                                              Afghanistan Historical Perspective

                  Afghanistan is at the crossroads of East and West and has been historically a central point
                  for migration and trade. It holds an important geostrategic location as a connector between
                  South, Central and Southwest Asia, and as such, Afghanistan has seen numerous invasions
                  throughout its history. During the late 19th century, at the height of the “Great Game,”
                  Afghanistan became a buffer state in the competition between the British Indian Empire and
                  the Russian Empire for strategic supremacy in Central Asia. Afghanistan gained independence
                  from notional British control in 1919.231 Afghanistan experienced its longest period of stability
                  between 1933 and 1973 under the rule of King Zahir Shah. During that period, the U.S. was a
                  large contributor of development aid, helping to build roads, dams, airports, schools, and other
                  public services.

                  The history of Afghanistan is best understood in the context of its tribes and religious
                  groups. The largest and historically strongest ethnic group is the Pashtuns, who compose
                  approximately 42 percent of the Afghan population. The ¿rst Afghan state was established
                  in 1747 when Ahmad Shah Durrani united the Pashtun tribes.242 Other ethnic groups include
                  Tajiks (27 percent), Hazaras (9 percent), Uzbeks (7 percent), Aimak (4 percent), Turkmen (3
                  percent), Baloch (2 percent), and other (1 percent).253 Afghanistan is 99 percent Muslim. Within
                  the Muslim community, 80 percent are Sunni and 19 percent are Shi’a.264

                  Over the last three decades, political conÀicts have ravaged Afghanistan. King Shah was
                  deposed by his cousin Mohammad Daud in 1973, and the Daud government ruled until 1978
                  when Soviet-backed Communists overthrew the government once more. The Soviet Union
                  exerted more control over the country and invaded in December 1979. The next 10 years
                  resulted in a bitter ¿ght for control of the country, with Afghan Muslim holy warriors called
                  the mujahedeen ¿ghting against the Soviet army. Though the mujahedeen received no troop
                  support from the international community, they were well ¿nanced by the United States and
                  Saudi Arabia, other nations.275 Factional control of the country following the withdrawal of Soviet
                  troops in 1989, added to the population’s weariness with ¿ghting, and allowed a fundamentalist
                  Islamic group, the Taliban, to gain control of the country.




                  23
                     CIA World Factbook. (2008). Afghanistan. Retrieved October 7, 2008, from The CIA World Factbook. Web Site:
                  https://www.cia.gov/library/publications/the-world-factbook/geos/af.html
                  24
                     CIA World Factbook. (2008). Afghanistan. Retrieved October 7, 2008, from The CIA World Factbook. Web Site:
                  https://www.cia.gov/library/publications/the-world-factbook/geos/af.html
                  25
                     CIA World Factbook. (2008). Afghanistan. Retrieved October 7, 2008, from The CIA World Factbook. Web Site:
                  https://www.cia.gov/library/publications/the-world-factbook/geos/af.html
                  26
                     CIA World Factbook. (2008). Afghanistan. Retrieved October 7, 2008, from The CIA World Factbook. Web Site:
                  https://www.cia.gov/library/publications/the-world-factbook/geos/af.html
                  27
                     Crossette, Barbara. (2001, September 18). “A Nation Challenged: Afghanistan, for Ages an AfÀiction to Mighty Em-
                  pires, Is Not Easily Subdued.” New York Times.



              52 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:52                                                                                                               10/22/2008 4:50:21 PM
                                                                       APPENDIX D – AFGHANISTAN HISTORICAL
                                                                                                    EXECUTIVE
                                                                                                           PERSPECTIVE
                                                                                                              SUMMARY




                  By 1998, following a prolonged civil war, most of Afghanistan was under the control of the
                  Taliban and had become a haven for terrorists. Following the events of September
                  11, 2001, the United States, several allies, and Afghanistan’s Northern Alliance forcibly removed
                  the Taliban regime from Afghanistan.

                  In the wake of decades of war that left Afghanistan without an army or a functioning police
                  force, the United States, the North Atlantic Treaty Organization (NATO), and other coalition
                  countries have been working to develop the ANA and the ANP to provide security for
                  Afghanistan. After several years of relative calm since the ousting of the Taliban, security began
                  deteriorating signi¿cantly beginning in 2006. Destabilizing insurgency, terrorism, and violence
                  directed at the central government are on the rise and today one ¿nds that a resurgent Taliban
                  is once again a threat to the peace of Afghanistan and ultimately to the region.

                  Current Challenges and Issues in Afghanistan

                  Challenges in Afghanistan are many and include, among others, issues in human rights,
                  governance, the economy, and stability. There has been a resurgence of the Taliban since
                  mid-2006 with tactics characteristic of the Iraq insurgency, including suicide and road-side
                  bombing attacks.286 Violence and casualties, both civil and military, have increased.297 Despite
                  recent progress, Afghanistan is still one of the world’s poorest countries, and the Afghan
                  government relies heavily on international aid for its continued existence. The unemployment
                  rate is 40 percent, and much of the population suffers from limited access to clean water, and
                  electricity.308 Challenges to economic growth and stability include continued warfare, crime,
                  government corruption, war-torn infrastructure, the large narcotics industry, and the Afghan
                  government's inability to extend rule of law to all parts of the country.319




                  28
                     Katzman, Kenneth. Congressional Research Service. (June 6, 2008). Afghanistan: Post-War Governance,
                  Security, and U.S. Policy. (CRS RL30588). Washington, DC: U.S. The Library of Congress.
                  29
                     Mazzetti, Mark. (2008, July 2). The New York Times. from
                  http://www.nytimes.com/2008/07/02/washington/02military.html
                  30
                     Central Intelligence Agency. (October 2, 2008). CIA World Factbook – Afghanistan. Retrieved October 7, 2008,
                  from https://www.cia.gov/library/publications/the-world-factbook/geos/af.html
                  31
                     Central Intelligence Agency. (October 2, 2008). CIA World Factbook – Afghanistan. Retrieved October 7, 2008,
                  from https://www.cia.gov/library/publications/the-world-factbook/geos/af.html



                                                                Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 53



SIGAR gpo WW.indd Sec2:53                                                                                                           10/22/2008 4:50:21 PM
              EXECUTIVEESUMMARY
              APPENDIX   – FOREIGN ASSISTANCE FRAMEWORK




                                                       Appendix E 1
                                       United States Foreign Assistance Framework32




                  32
                       Table based on the Department of State Congressional Budget Justi¿cation Foreign Operations. (2008).



              54 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:54                                                                                                     10/22/2008 4:50:21 PM
                                            APPENDIX F – PL110-181: 2008 NATIONAL DEFENSE AUTHORITIZATION
                                                                                           EXECUTIVE SUMMARY
                                                                                                          ACT




                                                  Appendix F
                              Pl 110-181: 2008 National Defense Authorization Act

                  SEC. 1229. SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION.
                        (a) Purposes- The purposes of this section are as follows:
                               (1) To provide for the independent and objective conduct and supervision of
                               audits and investigations relating to the programs and operations funded with
                               amounts appropriated or otherwise made available for the reconstruction of
                               Afghanistan.
                               (2) To provide for the independent and objective leadership and coordination of,
                               and recommendations on, policies designed to--
                                       (A) promote economy ef¿ciency, and effectiveness in the administration
                                       of the programs and operations described in paragraph (1); and
                                       (B) prevent and detect waste, fraud, and abuse in such programs and
                                       operations.
                               (3) To provide for an independent and objective means of keeping the Secretary
                               of State and the Secretary of Defense fully and currently informed about
                               problems and de¿ciencies relating to the administration of such programs and
                               operations and the necessity for and progress on corrective action.
                        (b) Of¿ce of Inspector General- There is hereby established the Of¿ce of the Special
                        Inspector General for Afghanistan Reconstruction to carry out the purposes of
                        subsection (a).
                        (c) Appointment of Inspector General; Removal-
                               (1) APPOINTMENT- The head of the Of¿ce of the Special Inspector General
                               for Afghanistan Reconstruction is the Special Inspector General for Afghanistan
                               Reconstruction (in this section referred to as the `Inspector General'), who shall
                               be appointed by the President. The President may appoint the Special Inspector
                               General for Iraq Reconstruction to serve as the Special Inspector General for
                               Afghanistan Reconstruction, in which case the Special Inspector General for
                               Iraq Reconstruction shall have all of the duties, responsibilities, and authorities
                               set forth under this section with respect to such appointed position for the
                               purpose of carrying out this section.
                               (2) QUALIFICATIONS- The appointment of the Inspector General shall be
                               made solely on the basis of integrity and demonstrated ability in accounting,
                               auditing, ¿nancial analysis, law, management analysis, public administration, or
                               investigations.
                               (3) DEADLINE FOR APPOINTMENT- The appointment of an individual as
                               Inspector General shall be made not later than 30 days after the date of the
                               enactment of this Act.
                               (4) COMPENSATION- The annual rate of basic pay of the Inspector General
                               shall be the annual rate of basic pay provided for positions at level IV of the
                               Executive Schedule under section 5315 of title 5, United States Code.
                               (5) PROHIBITION ON POLITICAL ACTIVITIES- For purposes of section 7324



                                                        Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 55



SIGAR gpo WW.indd Sec2:55                                                                                            10/22/2008 4:50:22 PM
              EXECUTIVEFSUMMARY
              APPENDIX   – PL110-181: 2008 NATIONAL DEFENSE AUTHORITIZATION ACT




                                    of title 5, United States Code, the Inspector General shall not be considered an
                                    employee who determines policies to be pursued by the United States in the
                                    nationwide administration of Federal law.
                                    (6) REMOVAL- The Inspector General shall be removable from of¿ce in
                                    accordance with the provisions of section 3(b) of the Inspector General Act of
                                    1978 (5 U.S.C. App.).
                            (d) Assistant Inspectors General- The Inspector General shall, in accordance with
                            applicable laws and regulations governing the civil service--
                                    (1) appoint an Assistant Inspector General for Auditing who shall have the
                                    responsibility for supervising the performance of auditing activities relating to
                                    programs and operations supported by amounts appropriated or otherwise
                                    made available for the reconstruction of Afghanistan; and
                                    (2) appoint an Assistant Inspector General for Investigations who shall have the
                                    responsibility for supervising the performance of investigative activities relating
                                    to such programs and operations.
                            (e) Supervision-
                                    (1) IN GENERAL- Except as provided in paragraph (2), the Inspector General
                                    shall report directly to, and be under the general supervision of, the Secretary of
                                    State and the Secretary of Defense.
                                    (2) INDEPENDENCE TO CONDUCT INVESTIGATIONS AND AUDITS- No
                                    of¿cer of the Department of Defense, the Department of State, or the United
                                    States Agency for International Development shall prevent or prohibit the
                                    Inspector General from initiating, carrying out, or completing any audit or
                                    investigation related to amounts appropriated or otherwise made available
                                    for the reconstruction of Afghanistan or from issuing any subpoena during the
                                    course of any such audit or investigation.
                            (f) Duties-
                                    (1) OVERSIGHT OF AFGHANISTAN RECONSTRUCTION- It shall be the
                                    duty of the Inspector General to conduct, supervise, and coordinate audits
                                    and investigations of the treatment, handling, and expenditure of amounts
                                    appropriated or otherwise made available for the reconstruction of Afghanistan,
                                    and of the programs, operations, and contracts carried out utilizing such funds,
                                    including--
                                              (A) the oversight and accounting of the obligation and expenditure of
                                              such funds;
                                              (B) the monitoring and review of reconstruction activities funded by such
                                              funds;
                                              (C) the monitoring and review of contracts funded by such funds;
                                              (D) the monitoring and review of the transfer of such funds and
                                              associated information between and among departments, agencies, and
                                              entities of the United States and private and nongovernmental entities;
                                              (E) the maintenance of records on the use of such funds to facilitate
                                              future audits and investigations of the use of such fund;



              56 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:56                                                                                                 10/22/2008 4:50:22 PM
                                               APPENDIX F – PL110-181: 2008 NATIONAL DEFENSE AUTHORITIZATION
                                                                                              EXECUTIVE SUMMARY
                                                                                                             ACT




                                           (F) the monitoring and review of the effectiveness of United States
                                           coordination with the Government of Afghanistan and other donor
                                           countries in the implementation of the Afghanistan Compact and the
                                           Afghanistan National Development Strategy; and
                                           (G) the investigation of overpayments such as duplicate payments or
                                           duplicate billing and any potential unethical or illegal actions of Federal
                                           employees, contractors, or af¿liated entities and the referral of such
                                           reports, as necessary, to the Department of Justice to ensure further
                                           investigations, prosecutions, recovery of further funds, or other remedies.
                                   (2) OTHER DUTIES RELATED TO OVERSIGHT- The Inspector General shall
                                   establish, maintain, and oversee such systems, procedures, and controls as
                                   the Inspector General considers appropriate to discharge the duties under
                                   paragraph (1).
                                   (3) DUTIES AND RESPONSIBILITIES UNDER INSPECTOR GENERAL ACT
                                   OF 1978- In addition to the duties speci¿ed in paragraphs (1) and (2), the
                                   Inspector General shall also have the duties and responsibilities of inspectors
                                   general under the Inspector General Act of 1978.
                                   (4) COORDINATION OF EFFORTS- In carrying out the duties, responsibilities,
                                   and authorities of the Inspector General under this section, the Inspector
                                   General shall coordinate with, and receive the cooperation of each of the
                                   following:
                                           (A) The Inspector General of the Department of Defense.
                                           (B) The Inspector General of the Department of State.
                                           (C) The Inspector General of the United States Agency for International
                                           Development.
                            (g) Powers and Authorities-
                                   (1) AUTHORITIES UNDER INSPECTOR GENERAL ACT OF 1978- In carrying
                                   out the duties speci¿ed in subsection (f), the Inspector General shall have the
                                   authorities provided in section 6 of the Inspector General Act of 1978, including
                                   the authorities under subsection (e) of such section.
                                   (2) AUDIT STANDARDS- The Inspector General shall carry out the duties
                                   speci¿ed in subsection (f)(1) in accordance with section 4(b)(1) of the Inspector
                                   General Act of 1978.
                            (h) Personnel, Facilities, and Other Resources-
                                   (1) PERSONNEL- The Inspector General may select, appoint, and employ
                                   such of¿cers and employees as may be necessary for carrying out the duties of
                                   the Inspector General, subject to the provisions of title 5, United States Code,
                                   governing appointments in the competitive service, and the provisions of chapter
                                   51 and subchapter III of chapter 53 of such title, relating to classi¿cation and
                                   General Schedule pay rates.
                                   (2) EMPLOYMENT OF EXPERTS AND CONSULTANTS- The Inspector General
                                   may obtain services as authorized by section 3109 of title 5, United States
                                   Code, at daily rates not to exceed the equivalent rate prescribed for grade GS-



                                                           Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 57



SIGAR gpo WW.indd Sec2:57                                                                                                10/22/2008 4:50:22 PM
              EXECUTIVEFSUMMARY
              APPENDIX   – PL110-181: 2008 NATIONAL DEFENSE AUTHORITIZATION ACT




                                   15 of the General Schedule by section 5332 of such title.
                                   (3) CONTRACTING AUTHORITY- To the extent and in such amounts as may
                                   be provided in advance by appropriations Acts, the Inspector General may
                                   enter into contracts and other arrangements for audits, studies, analyses, and
                                   other services with public agencies and with private persons, and make such
                                   payments as may be necessary to carry out the duties of the Inspector General.
                                   (4) RESOURCES- The Secretary of State or the Secretary of Defense, as
                                   appropriate, shall provide the Inspector General with appropriate and adequate
                                   of¿ce space at appropriate locations of the Department of State or the
                                   Department of Defense, as the case may be, in Afghanistan, together with such
                                   equipment, of¿ce supplies, and communications facilities and services as may
                                   be necessary for the operation of such of¿ces, and shall provide necessary
                                   maintenance services for such of¿ces and the equipment and facilities located
                                   therein.
                                   (5) ASSISTANCE FROM FEDERAL AGENCIES-
                                           (A) IN GENERAL- Upon request of the Inspector General for information
                                           or assistance from any department, agency, or other entity of the Federal
                                           Government, the head of such entity shall, insofar as is practicable and
                                           not in contravention of any existing law, furnish such information or
                                           assistance to the Inspector General, or an authorized designee.
                                           (B) REPORTING OF REFUSED ASSISTANCE- Whenever information
                                           or assistance requested by the Inspector General is, in the judgment
                                           of the Inspector General, unreasonably refused or not provided, the
                                           Inspector General shall report the circumstances to the Secretary of
                                           State or the Secretary of Defense, as appropriate, and to the appropriate
                                           congressional committees without delay.
                                   (6) USE OF PERSONNEL, FACILITIES, AND OTHER RESOURCES OF
                                   THE OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR IRAQ
                                   RECONSTRUCTION- Upon the request of the Inspector General, the Special
                                   Inspector General for Iraq Reconstruction--
                                           (A) may detail, on a reimbursable basis, any of the personnel of the
                                           Of¿ce of the Special Inspector General for Iraq Reconstruction to the
                                           Of¿ce of the Inspector General for Afghanistan Reconstruction for the
                                           purpose of carrying out this section; and
                                           (B) may provide, on a reimbursable basis, any of the facilities or
                                           other resources of the Of¿ce of the Special Inspector General for Iraq
                                           Reconstruction to the Of¿ce of the Inspector General for Afghanistan
                                           Reconstruction for the purpose of carrying out this section.
                            (i) Reports-
                                   (1) QUARTERLY REPORTS- Not later than 30 days after the end of each
                                   ¿scal-year quarter, the Inspector General shall submit to the appropriate
                                   congressional committees a report summarizing, for the period of that quarter
                                   and, to the extent possible, the period from the end of such quarter to the time



              58 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:58                                                                                              10/22/2008 4:50:22 PM
                                       APPENDIX F – PL110-181: 2008 NATIONAL DEFENSE AUTHORITIZATION
                                                                                      EXECUTIVE SUMMARY
                                                                                                     ACT




                            of the submission of the report, the activities during such period of the Inspector
                            General and the activities under programs and operations funded with amounts
                            appropriated or otherwise made available for the reconstruction of Afghanistan.
                            Each report shall include, for the period covered by such report, a detailed
                            statement of all obligations, expenditures, and revenues associated with
                            reconstruction and rehabilitation activities in Afghanistan, including the following:
                                    (A) Obligations and expenditures of appropriated funds.
                                    (B) A project-by-project and program-by-program accounting of the costs
                                    incurred to date for the reconstruction of Afghanistan, together with the
                                    estimate of the Department of Defense, the Department of State, and the
                                    United States Agency for International Development, as applicable, of
                                    the costs to complete each project and each program.
                                    (C) Revenues attributable to or consisting of funds provided by foreign
                                    nations or international organizations to programs and projects funded
                                    by any department or agency of the United States Government, and any
                                    obligations or expenditures of such revenues.
                                    (D) Revenues attributable to or consisting of foreign assets seized
                                    or frozen that contribute to programs and projects funded by any
                                    department or agency of the United States Government, and any
                                    obligations or expenditures of such revenues.
                                    (E) Operating expenses of agencies or entities receiving amounts
                                    appropriated or otherwise made available for the reconstruction of
                                    Afghanistan.
                                    (F) In the case of any contract, grant, agreement, or other funding
                                    mechanism described in paragraph (2)--
                                         (i) the amount of the contract, grant, agreement, or other funding
                                         mechanism;
                                         (ii) a brief discussion of the scope of the contract, grant, agreement,
                                         or other funding mechanism;
                                         (iii) a discussion of how the department or agency of the United
                                         States Government involved in the contract, grant, agreement,
                                         or other funding mechanism identi¿ed, and solicited offers from,
                                         potential individuals or entities to perform the contract, grant,
                                         agreement, or other funding mechanism, together with a list of the
                                         potential individuals or entities that were issued solicitations for the
                                         offers; and
                                         (iv) the justi¿cation and approval documents on which was based the
                                         determination to use procedures other than procedures that provide
                                         for full and open competition.
                            (2) COVERED CONTRACTS, GRANTS, AGREEMENTS, AND FUNDING
                            MECHANISMS- A contract, grant, agreement, or other funding mechanism
                            described in this paragraph is any major contract, grant, agreement, or other
                            funding mechanism that is entered into by any department or agency of the



                                                    Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 59



SIGAR gpo WW.indd Sec2:59                                                                                           10/22/2008 4:50:22 PM
              EXECUTIVEFSUMMARY
              APPENDIX   – PL110-181: 2008 NATIONAL DEFENSE AUTHORITIZATION ACT




                                    United States Government that involves the use of amounts appropriated or
                                    otherwise made available for the reconstruction of Afghanistan with any public or
                                    private sector entity for any of the following purposes:
                                            (A) To build or rebuild physical infrastructure of Afghanistan.
                                            (B) To establish or reestablish a political or societal institution of
                                            Afghanistan.
                                            (C) To provide products or services to the people of Afghanistan.
                                    (3) PUBLIC AVAILABILITY- The Inspector General shall publish on a publically-
                                    available Internet website each report under paragraph (1) of this subsection in
                                    English and other languages that the Inspector General determines are widely
                                    used and understood in Afghanistan.
                                    (4) FORM- Each report required under this subsection shall be submitted in
                                    unclassi¿ed form, but may include a classi¿ed annex if the Inspector General
                                    considers it necessary.
                                    (5) RULE OF CONSTRUCTION- Nothing in this subsection shall be construed
                                    to authorize the public disclosure of information that is--
                                            (A) speci¿cally prohibited from disclosure by any other provision of law;
                                            (B) speci¿cally required by Executive order to be protected from
                                            disclosure in the interest of national defense or national security or in the
                                            conduct of foreign affairs; or
                                            (C) a part of an ongoing criminal investigation.
                            (j) Report Coordination-
                                    (1) SUBMISSION TO SECRETARIES OF STATE AND DEFENSE- The
                                    Inspector General shall also submit each report required under subsection (i) to
                                    the Secretary of State and the Secretary of Defense.
                                    (2) SUBMISSION TO CONGRESS- Not later than 30 days after receipt of a
                                    report under paragraph (1), the Secretary of State or the Secretary of Defense
                                    may submit to the appropriate congressional committees any comments on
                                    the matters covered by the report as the Secretary of State or the Secretary
                                    of Defense, as the case may be, considers appropriate. Any comments on the
                                    matters covered by the report shall be submitted in unclassi¿ed form, but may
                                    include a classi¿ed annex if the Secretary of State or the Secretary of Defense,
                                    as the case may be, considers it necessary.
                            (k) Transparency-
                                    (1) REPORT- Not later than 60 days after submission to the appropriate
                                    congressional committees of a report under subsection (i), the Secretary of
                                    State and the Secretary of Defense shall jointly make copies of the report
                                    available to the public upon request, and at a reasonable cost.
                                    (2) COMMENTS ON MATTERS COVERED BY REPORT- Not later than 60
                                    days after submission to the appropriate congressional committees under
                                    subsection (j)(2) of comments on a report under subsection (i), the Secretary of
                                    State and the Secretary of Defense shall jointly make copies of the comments
                                    available to the public upon request, and at a reasonable cost.



              60 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:60                                                                                                   10/22/2008 4:50:22 PM
                                               APPENDIX F – PL110-181: 2008 NATIONAL DEFENSE AUTHORITIZATION
                                                                                              EXECUTIVE SUMMARY
                                                                                                             ACT




                            (l) Waiver-
                                    (1) AUTHORITY- The President may waive the requirement under paragraph (1)
                                    or (2) of subsection (k) with respect to availability to the public of any element
                                    in a report under subsection (i), or any comment under subsection (j)(2), if the
                                    President determines that the waiver is justi¿ed for national security reasons.
                                    (2) NOTICE OF WAIVER- The President shall publish a notice of each waiver
                                    made under this subsection in the Federal Register no later than the date on
                                    which a report required under subsection (i), or any comment under subsection
                                    (j)(2), is submitted to the appropriate congressional committees. The report and
                                    comments shall specify whether waivers under this subsection were made and
                                    with respect to which elements in the report or which comments, as appropriate.
                            (m) De¿nitions- In this section:
                                    (1) AMOUNTS APPROPRIATED OR OTHERWISE MADE AVAILABLE FOR
                                    THE RECONSTRUCTION OF AFGHANISTAN- The term `amounts appropriated
                                    or otherwise made available for the reconstruction of Afghanistan' means--
                                              (A) amounts appropriated or otherwise made available for any ¿scal
                                              year-
                                                      (i) to the Afghanistan Security Forces Fund; or
                                                      (ii) to the program to assist the people of Afghanistan established
                                                      under subsection (a)(2) of section 1202 of the National Defense
                                                      Authorization for Fiscal Year 2006 (Public Law 109-163; 119 Stat.
                                                      3455-3456); and
                                              (B) amounts appropriated or otherwise made available for any ¿scal year
                                              for the reconstruction of Afghanistan under--
                                                      (i) the Economic Support Fund;
                                                      (ii) the International Narcotics Control and Law Enforcement
                                                      account; or
                                                      (iii) any other provision of law.
                                    (2) APPROPRIATE CONGRESSIONAL COMMITTEES- The term `appropriate
                                    congressional committees' means--
                                              (A) the Committees on Appropriations, Armed Services, and Foreign
                                              Relations of the Senate; and
                                              (B) the Committees on Appropriations, Armed Services, and Foreign
                                              Affairs of the House of Representatives.
                            (n) Authorization of Appropriations-
                                    (1) IN GENERAL- There is authorized to be appropriated $20,000,000 for ¿scal
                                    year 2008 to carry out this section.
                                    (2) OFFSET- The amount authorized to be appropriated by section 1513 for the
                                    Afghanistan Security Forces Fund is hereby reduced by $20,000,000.
                            (o) Termination-
                                    (1) IN GENERAL- The Of¿ce of the Special Inspector General for Afghanistan
                                    Reconstruction shall terminate 180 days after the date on which amounts
                                    appropriated or otherwise made available for the reconstruction of Afghanistan



                                                            Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 61



SIGAR gpo WW.indd Sec2:61                                                                                                   10/22/2008 4:50:22 PM
              EXECUTIVEFSUMMARY
              APPENDIX   – PL110-181: 2008 NATIONAL DEFENSE AUTHORITIZATION ACT




                                that are unexpended are less than $250,000,000.
                                (2) FINAL REPORT- The Inspector General shall, prior to the termination of the
                                Of¿ce of the Special Inspector General for Afghanistan Reconstruction under
                                paragraph (1), prepare and submit to the appropriate congressional committees
                                a ¿nal forensic audit report on programs and operations funded with amounts
                                appropriated or otherwise made available for the reconstruction of Afghanistan.




              62 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:62                                                                                         10/22/2008 4:50:22 PM
                                                                                  APPENDIX G – THE
                                                                                                EXECUTIVE
                                                                                                   BONN AGREEMENT
                                                                                                          SUMMARY




                                                        Appendix G
                                                    The Bonn Agreement

                      AGREEMENT ON PROVISIONAL ARRANGEMENTS IN AFGHANISTAN PENDING THE
                           RE-ESTABLISHMENT OF PERMANENT GOVERNMENT INSTITUTIONS

                  The participants in the UN Talks on Afghanistan,
                  In the presence of the Special Representative of the Secretary-General for Afghanistan,

                  Determined to end the tragic conÀict in Afghanistan and promote national reconciliation, lasting
                  peace, stability and respect for human rights in the country,

                  Reaf¿rming the independence, national sovereignty and territorial integrity of Afghanistan,

                  Acknowledging the right of the people of Afghanistan to freely determine their own political future
                  in accordance with the principles of Islam, democracy, pluralism and social justice,

                  Expressing their appreciation to the Afghan mujahidin who, over the years, have defended the
                  independence, territorial integrity and national unity of the country and have played a major role
                  in the struggle against terrorism and oppression, and whose sacri¿ce has now made them both
                  heroes of jihad and champions of peace, stability and reconstruction of their beloved homeland,
                  Afghanistan,

                  Aware that the unstable situation in Afghanistan requires the implementation of emergency interim
                  arrangements and expressing their deep appreciation to His Excellency Professor Burhanuddin
                  Rabbani for his readiness to transfer power to an interim authority which is to be established
                  pursuant to this agreement,

                  Recognizing the need to ensure broad representation in these interim arrangements of all
                  segments of the Afghan population, including groups that have not been adequately represented
                  at the UN Talks on Afghanistan,

                  Noting that these interim arrangements are intended as a ¿rst step toward the establishment of
                  a broad-based, gender-sensitive, multi-ethnic and fully representative government, and are not
                  intended to remain in place beyond the speci¿ed period of time,

                  Recognizing that some time may be required for a new Afghan security force to be fully
                  constituted and functional and that therefore other security provisions detailed in Annex I to this
                  agreement must meanwhile be put in place,




                                                         Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 63



SIGAR gpo WW.indd Sec2:63                                                                                               10/22/2008 4:50:22 PM
              EXECUTIVEGSUMMARY
              APPENDIX   – THE BONN AGREEMENT




                  Considering that the United Nations, as the internationally recognized impartial institution, has a
                  particularly important role to play, detailed in Annex II to this agreement, in the period prior to the
                  establishment of permanent institutions in Afghanistan,

                  Have agreed as follows:


                  THE INTERIM AUTHORITY

                  I. General provisions

                  1) An Interim Authority shall be established upon the of¿cial transfer of power on 22 December
                  2001.

                  2) The Interim Authority shall consist of an Interim Administration presided over by a Chairman,
                  a Special Independent Commission for the Convening of the Emergency Loya Jirga, and
                  a Supreme Court of Afghanistan, as well as such other courts as may be established by the
                  Interim Administration. The composition, functions and governing procedures for the Interim
                  Administration and the Special Independent Commission are set forth in this agreement.

                  3) Upon the of¿cial transfer of power, the Interim Authority shall be the repository of Afghan
                  sovereignty, with immediate effect. As such, it shall, throughout the interim period, represent
                  Afghanistan in its external relations and shall occupy the seat of Afghanistan at the United
                  Nations and in its specialized agencies, as well as in other international institutions and
                  conferences.

                  4) An Emergency Loya Jirga shall be convened within six months of the establishment of the
                  Interim Authority. The Emergency Loya Jirga will be opened by His Majesty Mohammed Zaher,
                  the former King of Afghanistan. The Emergency Loya Jirga shall decide on a Transitional
                  Authority, including a broad-based transitional administration, to lead Afghanistan until such
                  time as a fully representative government can be elected through free and fair elections to be
                  held no later than two years from the date of the convening of the Emergency Loya Jirga.

                  5) The Interim Authority shall cease to exist once the Transitional Authority has been
                  established by the Emergency Loya Jirga.

                  6) A Constitutional Loya Jirga shall be convened within eighteen months of the establishment of
                  the Transitional Authority, in order to adopt a new constitution for Afghanistan. In order to assist
                  the Constitutional Loya Jirga prepare the proposed Constitution, the Transitional Administration
                  shall, within two months of its commencement and with the assistance of the United Nations,
                  establish a Constitutional Commission.




              64 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:64                                                                                                   10/22/2008 4:50:23 PM
                                                                                 APPENDIX G – THE
                                                                                               EXECUTIVE
                                                                                                  BONN AGREEMENT
                                                                                                         SUMMARY




                  II. Legal framework and judicial system

                  1) The following legal framework shall be applicable on an interim basis until the adoption of
                  the new Constitution referred to above:
                  i) The Constitution of 1964, a/ to the extent that its provisions are not inconsistent with those
                  contained in this agreement, and b/ with the exception of those provisions relating to the
                  monarchy and to the executive and legislative bodies provided in the Constitution; and
                  ii) existing laws and regulations, to the extent that they are not inconsistent with this agreement
                  or with international legal obligations to which Afghanistan is a party, or with those applicable
                  provisions contained in the Constitution of 1964, provided that the Interim Authority shall have
                  the power to repeal or amend those laws and regulations.

                  2) The judicial power of Afghanistan shall be independent and shall be vested in a
                  Supreme Court of Afghanistan, and such other courts as may be established by the Interim
                  Administration. The Interim Administration shall establish, with the assistance of the United
                  Nations, a Judicial Commission to rebuild the domestic justice system in accordance with
                  Islamic principles, international standards, the rule of law and Afghan legal traditions.

                  III. Interim Administration

                  A. Composition
                  1) The Interim Administration shall be composed of a Chairman, ¿ve Vice Chairmen and 24
                  other members. Each member, except the Chairman, may head a department of the Interim
                  Administration.

                  2) The participants in the UN Talks on Afghanistan have invited His Majesty Mohammed Zaher,
                  the former King of Afghanistan, to chair the Interim Administration. His Majesty has indicated
                  that he would prefer that a suitable candidate acceptable to the participants be selected as the
                  Chair of the Interim Administration.

                  3) The Chairman, the Vice Chairmen and other members of the Interim Administration have
                  been selected by the participants in the UN Talks on Afghanistan, as listed in Annex IV to
                  this agreement. The selection has been made on the basis of professional competence and
                  personal integrity from lists submitted by the participants in the UN Talks, with due regard to
                  the ethnic, geographic and religious composition of Afghanistan and to the importance of the
                  participation of women.

                  4) No person serving as a member of the Interim Administration may simultaneously hold
                  membership of the Special Independent Commission for the Convening of the Emergency Loya
                  Jirga.




                                                         Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 65



SIGAR gpo WW.indd Sec2:65                                                                                               10/22/2008 4:50:23 PM
              EXECUTIVEGSUMMARY
              APPENDIX   – THE BONN AGREEMENT




                  B. Procedures
                  1) The Chairman of the Interim Administration, or in his/her absence one of the Vice Chairmen,
                  shall call and chair meetings and propose the agenda for these meetings.

                  2) The Interim Administration shall endeavor to reach its decisions by consensus. In order
                  for any decision to be taken, at least 22 members must be in attendance. If a vote becomes
                  necessary, decisions shall be taken by a majority of the members present and voting, unless
                  otherwise stipulated in this agreement. The Chairman shall cast the deciding vote in the event
                  that the members are divided equally.

                  C. Functions
                  1) The Interim Administration shall be entrusted with the day-to-day conduct of the affairs of
                  state, and shall have the right to issue decrees for the peace, order and good government of
                  Afghanistan.

                  2) The Chairman of the Interim Administration or, in his/her absence, one of the Vice Chairmen,
                  shall represent the Interim Administration as appropriate.

                  3) Those members responsible for the administration of individual departments shall also be
                  responsible for implementing the policies of the Interim Administration within their areas of
                  responsibility.

                  4) Upon the of¿cial transfer of power, the Interim Administration shall have full jurisdiction over
                  the printing and delivery of the national currency and special drawing rights from international
                  ¿nancial institutions. The Interim Administration shall establish, with the assistance of the
                  United Nations, a Central Bank of Afghanistan that will regulate the money supply of the country
                  through transparent and accountable procedures.

                  5) The Interim Administration shall establish, with the assistance of the United Nations,
                  an independent Civil Service Commission to provide the Interim Authority and the future
                  Transitional Authority with shortlists of candidates for key posts in the administrative
                  departments, as well as those of governors and uluswals, in order to ensure their competence
                  and integrity.

                  6) The Interim Administration shall, with the assistance of the United Nations, establish an
                  independent Human Rights Commission, whose responsibilities will include human rights
                  monitoring, investigation of violations of human rights, and development of domestic human
                  rights institutions. The Interim Administration may, with the assistance of the United Nations,
                  also establish any other commissions to review matters not covered in this agreement.

                  7) The members of the Interim Administration shall abide by a Code of Conduct elaborated in
                  accordance with international standards.




              66 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:66                                                                                               10/22/2008 4:50:23 PM
                                                                                  APPENDIX G – THE
                                                                                                EXECUTIVE
                                                                                                   BONN AGREEMENT
                                                                                                          SUMMARY




                  8) Failure by a member of the Interim Administration to abide by the provisions of the Code of
                  Conduct shall lead to his/her suspension from that body. The decision to suspend a member
                  shall be taken by a two-thirds majority of the membership of the Interim Administration on the
                  proposal of its Chairman or any of its Vice Chairmen.

                  9) The functions and powers of members of the Interim Administration will be further elaborated,
                  as appropriate, with the assistance of the United Nations.

                  IV. The Special Independent Commission for the Convening of the Emergency Loya Jirga

                  1) The Special Independent Commission for the Convening of the Emergency Loya Jirga shall
                  be established within one month of the establishment of the Interim Authority. The Special
                  Independent Commission will consist of twenty-one members, a number of whom should
                  have expertise in constitutional or customary law. The members will be selected from lists
                  of candidates submitted by participants in the UN Talks on Afghanistan as well as Afghan
                  professional and civil society groups. The United Nations will assist with the establishment and
                  functioning of the commission and of a substantial secretariat.

                  2) The Special Independent Commission will have the ¿nal authority for determining the
                  procedures for and the number of people who will participate in the Emergency Loya Jirga.
                  The Special Independent Commission will draft rules and procedures specifying (i) criteria for
                  allocation of seats to the settled and nomadic population residing in the country; (ii) criteria
                  for allocation of seats to the Afghan refugees living in Iran, Pakistan, and elsewhere, and
                  Afghans from the diaspora; (iii) criteria for inclusion of civil society organizations and prominent
                  individuals, including Islamic scholars, intellectuals, and traders, both within the country and
                  in the diaspora. The Special Independent Commission will ensure that due attention is paid to
                  the representation in the Emergency Loya Jirga of a signi¿cant number of women as well as all
                  other segments of the Afghan population.

                  3) The Special Independent Commission will publish and disseminate the rules and procedures
                  for the convening of the Emergency Loya Jirga at least ten weeks before the Emergency Loya
                  Jirga convenes, together with the date for its commencement and its suggested location and
                  duration.

                  4) The Special Independent Commission will adopt and implement procedures for monitoring
                  the process of nomination of individuals to the Emergency Loya Jirga to ensure that the process
                  of indirect election or selection is transparent and fair. To pre-empt conÀict over nominations,
                  the Special Independent Commission will specify mechanisms for ¿ling of grievances and rules
                  for arbitration of disputes.

                  5) The Emergency Loya Jirga will elect a Head of the State for the Transitional Administration
                  and will approve proposals for the structure and key personnel of the Transitional
                  Administration.



                                                          Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 67



SIGAR gpo WW.indd Sec2:67                                                                                                10/22/2008 4:50:23 PM
              EXECUTIVEGSUMMARY
              APPENDIX   – THE BONN AGREEMENT




                  V. Final provisions
                  1) Upon the of¿cial transfer of power, all mujahidin, Afghan armed forces and armed groups
                  in the country shall come under the command and control of the Interim Authority, and be
                  reorganized according to the requirements of the new Afghan security and armed forces.

                  2) The Interim Authority and the Emergency Loya Jirga shall act in accordance with basic
                  principles and provisions contained in international instruments on human rights and
                  international humanitarian law to which Afghanistan is a party.

                  3) The Interim Authority shall cooperate with the international community in the ¿ght against
                  terrorism, drugs and organized crime. It shall commit itself to respect international law
                  and maintain peaceful and friendly relations with neighboring countries and the rest of the
                  international community.

                  4) The Interim Authority and the Special Independent Commission for the Convening of
                  the Emergency Loya Jirga will ensure the participation of women as well as the equitable
                  representation of all ethnic and religious communities in the Interim Administration and the
                  Emergency Loya Jirga.

                  5) All actions taken by the Interim Authority shall be consistent with Security Council resolution
                  1378 (14 November 2001) and other relevant Security Council resolutions relating to
                  Afghanistan.

                  6) Rules of procedure for the organs established under the Interim Authority will be elaborated
                  as appropriate with the assistance of the United Nations.

                  This agreement, of which the annexes constitute an integral part, done in Bonn on this 5th day
                  of December 2001 in the English language, shall be the authentic text, in a single copy which
                  shall remain deposited in the archives of the United Nations. Of¿cial texts shall be provided in
                  Dari and Pashto, and such other languages as the Special Representative of the Secretary-
                  General may designate. The Special Representative of the Secretary-General shall send
                  certi¿ed copies in English, Dari and Pashto to each of the participants.




              68 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:68                                                                                              10/22/2008 4:50:23 PM
                                                                                 APPENDIX G – THE
                                                                                               EXECUTIVE
                                                                                                  BONN AGREEMENT
                                                                                                         SUMMARY




                                                            ***
                                                          ANNEX I
                                               INTERNATIONAL SECURITY FORCE

                  1. The participants in the UN Talks on Afghanistan recognize that the responsibility for providing
                  security and law and order throughout the country resides with the Afghans themselves. To this
                  end, they pledge their commitment to do all within their means and inÀuence to ensure such
                  security, including for all United Nations and other personnel of international governmental and
                  non-governmental organizations deployed in Afghanistan.

                  2. With this objective in mind, the participants request the assistance of the international
                  community in helping the new Afghan authorities in the establishment and training of new
                  Afghan security and armed forces.

                  3. Conscious that some time may be required for the new Afghan security and armed forces to
                  be fully constituted and functioning, the participants in the UN Talks on Afghanistan request the
                  United Nations Security Council to consider authorizing the early deployment to Afghanistan of
                  a United Nations mandated force. This force will assist in the maintenance of security for Kabul
                  and its surrounding areas. Such a force could, as appropriate, be progressively expanded to
                  other urban centers and other areas.

                  4. The participants in the UN Talks on Afghanistan pledge to withdraw all military units from
                  Kabul and other urban centers or other areas in which the UN mandated force is deployed.
                  It would also be desirable if such a force were to assist in the rehabilitation of Afghanistan's
                  infrastructure.




                                                         Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 69



SIGAR gpo WW.indd Sec2:69                                                                                              10/22/2008 4:50:23 PM
              EXECUTIVEGSUMMARY
              APPENDIX   – THE BONN AGREEMENT




                                                        ***
                                                      ANNEX II
                               ROLE OF THE UNITED NATIONS DURING THE INTERIM PERIOD

                  1. The Special Representative of the Secretary-General will be responsible for all aspects of
                  the United Nations' work in Afghanistan.

                  2. The Special Representative shall monitor and assist in the implementation of all aspects of
                  this agreement.

                  3. The United Nations shall advise the Interim Authority in establishing a politically neutral
                  environment conducive to the holding of the Emergency Loya Jirga in free and fair conditions.
                  The United Nations shall pay special attention to the conduct of those bodies and administrative
                  departments which could directly inÀuence the convening and outcome of the Emergency Loya
                  Jirga.

                  4. The Special Representative of the Secretary-General or his/her delegate may be invited to
                  attend the meetings of the Interim Administration and the Special Independent Commission on
                  the Convening of the Emergency Loya Jirga.

                  5. If for whatever reason the Interim Administration or the Special Independent Commission
                  were actively prevented from meeting or unable to reach a decision on a matter related to the
                  convening of the Emergency Loya Jirga, the Special Representative of the Secretary-General
                  shall, taking into account the views expressed in the Interim Administration or in the Special
                  Independent Commission, use his/her good of¿ces with a view to facilitating a resolution to the
                  impasse or a decision.

                  6. The United Nations shall have the right to investigate human rights violations and, where
                  necessary, recommend corrective action. It will also be responsible for the development
                  and implementation of a program of human rights education to promote respect for and
                  understanding of human rights.




              70 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:70                                                                                            10/22/2008 4:50:23 PM
                                                                                 APPENDIX G – THE
                                                                                               EXECUTIVE
                                                                                                  BONN AGREEMENT
                                                                                                         SUMMARY




                                                          ***
                                                        ANNEX III
                            REQUEST TO THE UNITED NATIONS BY THE PARTICIPANTS AT THE UN TALKS
                                                    ON AFGHANISTAN

                  The participants in the UN Talks on Afghanistan hereby

                  1. Request that the United Nations and the international community take the necessary
                  measures to guarantee the national sovereignty, territorial integrity and unity of Afghanistan as
                  well as the non-interference by foreign countries in Afghanistan's internal affairs;

                  2. Urge the United Nations, the international community, particularly donor countries and
                  multilateral institutions, to reaf¿rm, strengthen and implement their commitment to assist with
                  the rehabilitation, recovery and reconstruction of Afghanistan, in coordination with the Interim
                  Authority;

                  3. Request the United Nations to conduct as soon as possible (i) a registration of voters in
                  advance of the general elections that will be held upon the adoption of the new constitution by
                  the constitutional Loya Jirga and (ii) a census of the population of Afghanistan.

                  4. Urge the United Nations and the international community, in recognition of the heroic role
                  played by the mujahidin in protecting the independence of Afghanistan and the dignity of its
                  people, to take the necessary measures, in coordination with the Interim Authority, to assist in
                  the reintegration of the mujahidin into the new Afghan security and armed forces;

                  5. Invite the United Nations and the international community to create a fund to assist the
                  families and other dependents of martyrs and victims of the war, as well as the war disabled;

                  6. Strongly urge that the United Nations, the international community and regional organizations
                  cooperate with the Interim Authority to combat international terrorism, cultivation and traf¿cking
                  of illicit drugs and provide Afghan farmers with ¿nancial, material and technical resources for
                  alternative crop production.




                                                         Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 71



SIGAR gpo WW.indd Sec2:71                                                                                              10/22/2008 4:50:23 PM
              EXECUTIVEGSUMMARY
              APPENDIX   – THE BONN AGREEMENT




                                                             ***
                                                          ANNEX IV
                                          COMPOSITION OF THE INTERIM ADMINISTRATION

                            Chairman:………………………......….… Hamid Karzai

                            Vice Chairmen:
                            Vice-Chair & Women’s Affairs:……….… Dr. Sima Samar
                            Vice-Chair & Defence:…………………... Muhammad Qassem Fahim
                            Vice-Chair & Planning:………………….. Haji Muhammad Mohaqqeq
                            Vice-Chair & Water and Electricity:….….Shaker Kargar
                            Vice-Chair & Finance:………………..…..Hedayat Amin Arsala

                            Members:
                            Department of Foreign Affairs:……….….Dr. Abdullah Abdullah
                            Department of the Interior:………….……Muhammad Yunus Qanooni
                            Department of Commerce:……………...Seyyed Mustafa Kazemi
                            Department of Mines & Industries:……...Muhammad Alem Razm
                            Department of Small Industries:………...Aref Noorzai
                            Department of Information & Culture:…..Dr. Raheen Makhdoom
                            Department of Communication:………....Ing. Abdul Rahim
                            Department of Labour & Social Affairs:.. Mir Wais Sadeq
                            Department of Hajj & Auqaf:……………. Mohammad Hanif Hanif Balkhi
                            Department of Martyrs & Disabled:……..Abdullah Wardak
                            Department of Education:………………..Abdul Rassoul Amin
                            Department of Higher Education:……….Dr. Sharif Faez
                            Department of Public Health:…………....Dr. Suhaila Seddiqi
                            Department of Public Works:…………....Abdul Khaliq Fazal
                            Department of Rural Development:……..Abdul Malik Anwar
                            Department of Urban Development:…….Haji Abdul Qadir
                            Department of Reconstruction:…………..Amin Farhang
                            Department of Transport:………………...Sultan Hamid Sultan
                            Department for the Return of Refugees:..Enayatullah Nazeri
                            Department of Agriculture:…………….....Seyyed Hussein Anwari
                            Department of Irrigation:………………..…Haji Mangal Hussein
                            Department of Justice:…………………....Abdul Rahim Karimi
                            Department of Air Transport & Tourism:...Abdul Rahman
                            Department of Border Affairs:…………....Amanullah Zadran




              72 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:72                                                                   10/22/2008 4:50:23 PM
                                                      APPENDIX H – PL107-327: AFGHANISTAN FREEDOM
                                                                                            EXECUTIVE
                                                                                                   SUPPORT
                                                                                                      SUMMARY
                                                                                                           ACT




                                                      Appendix H
                                            Afghanistan Freedom Support Act

                                                          PL 107-327
                  An Act
                  To authorize economic and democratic development assistance for Afghanistan and to
                  authorize military assistance for Afghanistan and certain other foreign countries.
                         Be it enacted by the Senate and House of Representatives of the United States of
                         America in Congress assembled,
                  SECTION 1. SHORT TITLE; TABLE OF CONTENTS; DEFINITION.
                         (a) SHORT TITLE- This Act may be cited as the `Afghanistan Freedom Support Act of
                         2002'.
                         (b) TABLE OF CONTENTS- The table of contents for this Act is as follows:
                                  Sec. 1. Short title; table of contents; de¿nition.
                  TITLE I--ECONOMIC AND DEMOCRATIC DEVELOPMENT ASSISTANCE FOR
                  AFGHANISTAN
                                  Sec. 101. Declaration of policy.
                                  Sec. 102. Purposes of assistance.
                                  Sec. 103. Authorization of assistance.
                                  Sec. 104. Coordination of assistance.
                                  Sec. 105. Sense of Congress regarding promoting cooperation in opium
                                  producing areas.
                                  Sec. 106. Administrative provisions.
                                  Sec. 107. Relationship to other authority.
                                  Sec. 108. Authorization of appropriations.
                  TITLE II--MILITARY ASSISTANCE FOR AFGHANISTAN AND CERTAIN OTHER FOREIGN
                  COUNTRIES AND INTERNATIONAL ORGANIZATIONS
                                  Sec. 201. Support for security during transition in Afghanistan.
                                  Sec. 202. Authorization of assistance.
                                  Sec. 203. Eligible foreign countries and eligible international organizations.
                                  Sec. 204. Reimbursement for assistance.
                                  Sec. 205. Congressional noti¿cation requirements.
                                  Sec. 206. Promoting secure delivery of humanitarian and other assistance in
                                  Afghanistan and expansion of the International Security Assistance Force.
                                  Sec. 207. Relationship to other authority.
                                  Sec. 208. Sunset.
                  TITLE III--MISCELLANEOUS PROVISIONS
                                  Sec. 301. Requirement to comply with procedures relating to the prohibition on
                                  assistance to drug traf¿ckers.
                                  Sec. 302. Sense of Congress regarding protecting Afghanistan's President.
                                  Sec. 303. Donor contributions to Afghanistan and reports.
                         (c) DEFINITION- In this Act, the term `Government of Afghanistan' includes--




                                                        Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 73



SIGAR gpo WW.indd Sec2:73                                                                                          10/22/2008 4:50:23 PM
              EXECUTIVEHSUMMARY
              APPENDIX   – PL107-327: AFGHANISTAN FREEDOM SUPPORT ACT




                               (1) the government of any political subdivision of Afghanistan; and
                               (2) any agency or instrumentality of the Government of Afghanistan.
                  TITLE I--ECONOMIC AND DEMOCRATIC DEVELOPMENT ASSISTANCE FOR
                  AFGHANISTAN
                  SEC. 101. DECLARATION OF POLICY.
                         Congress makes the following declarations:
                               (1) The United States and the international community should support efforts
                               that advance the development of democratic civil authorities and institutions in
                               Afghanistan and the establishment of a new broad-based, multi-ethnic, gender-
                               sensitive, and fully representative government in Afghanistan.
                               (2) The United States, in particular, should provide its expertise to meet
                               immediate humanitarian and refugee needs, ¿ght the production and Àow of
                               illicit narcotics, and aid in the reconstruction of Afghanistan.
                               (3) By promoting peace and security in Afghanistan and preventing a return to
                               conÀict, the United States and the international community can help ensure that
                               Afghanistan does not again become a source for international terrorism.
                               (4) The United States should support the objectives agreed to on December 5,
                               2001, in Bonn, Germany, regarding the provisional arrangement for Afghanistan
                               as it moves toward the establishment of permanent institutions and, in particular,
                               should work intensively toward ensuring the future neutrality of Afghanistan,
                               establishing the principle that neighboring countries and other countries in
                               the region do not threaten or interfere in one another's sovereignty, territorial
                               integrity, or political independence, including supporting diplomatic initiatives to
                               support this goal.
                               (5) The special emergency situation in Afghanistan, which from the perspective
                               of the American people combines security, humanitarian, political, law
                               enforcement, and development imperatives, requires that the President should
                               receive maximum Àexibility in designing, coordinating, and administering efforts
                               with respect to assistance for Afghanistan and that a temporary special program
                               of such assistance should be established for this purpose.
                               (6) To foster stability and democratization and to effectively eliminate the causes
                               of terrorism, the United States and the international community should also
                               support efforts that advance the development of democratic civil authorities and
                               institutions in the broader Central Asia region.
                  SEC. 102. PURPOSES OF ASSISTANCE.
                         The purposes of assistance authorized by this title are--
                               (1) to help assure the security of the United States and the world by reducing
                               or eliminating the likelihood of violence against United States or allied forces in
                               Afghanistan and to reduce the chance that Afghanistan will again be a source of
                               international terrorism;
                               (2) to support the continued efforts of the United States and the international
                               community to address the humanitarian crisis in Afghanistan and among Afghan
                               refugees in neighboring countries;



              74 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:74                                                                                             10/22/2008 4:50:23 PM
                                                      APPENDIX H – PL107-327: AFGHANISTAN FREEDOM
                                                                                            EXECUTIVE
                                                                                                   SUPPORT
                                                                                                      SUMMARY
                                                                                                           ACT




                                (3) to ¿ght the production and Àow of illicit narcotics, to control the Àow of
                                precursor chemicals used in the production of heroin, and to enhance and
                                bolster the capacities of Afghan governmental authorities to control poppy
                                cultivation and related activities;
                                (4) to help achieve a broad-based, multi-ethnic, gender-sensitive, and fully
                                representative government in Afghanistan that is freely chosen by the people
                                of Afghanistan and that respects the human rights of all Afghans, particularly
                                women, including authorizing assistance for the rehabilitation and reconstruction
                                of Afghanistan with a particular emphasis on meeting the educational, health,
                                and sustenance needs of women and children to better enable their full
                                participation in Afghan society;
                                (5) to support the Government of Afghanistan in its development of the capacity
                                to facilitate, organize, develop, and implement projects and activities that meet
                                the needs of the Afghan people;
                                (6) to foster the participation of civil society in the establishment of the new
                                Afghan government in order to achieve a broad-based, multi-ethnic, gender-
                                sensitive, fully representative government freely chosen by the Afghan people,
                                without prejudice to any decisions which may be freely taken by the Afghan
                                people about the precise form in which their government is to be organized in
                                the future;
                                (7) to support the reconstruction of Afghanistan through, among other things,
                                programs that create jobs, facilitate clearance of landmines, and rebuild the
                                agriculture sector, the health care system, and the educational system of
                                Afghanistan;
                                (8) to provide resources to the Ministry for Women's Affairs of Afghanistan to
                                carry out its responsibilities for legal advocacy, education, vocational training,
                                and women's health programs; and
                                (9) to foster the growth of a pluralistic society that promotes and respects
                                religious freedom.
                  SEC. 103. AUTHORIZATION OF ASSISTANCE.
                        (a) IN GENERAL- Notwithstanding section 512 of Public Law 107-115 or any
                        other similar provision of law, the President is authorized to provide assistance for
                        Afghanistan for the following activities:
                                (1) URGENT HUMANITARIAN NEEDS- To assist in meeting the urgent
                                humanitarian needs of the people of Afghanistan, including assistance such as--
                                          (A) emergency food, shelter, and medical assistance;
                                          (B) clean drinking water and sanitation;
                                          (C) preventative health care, including childhood vaccination, therapeutic
                                          feeding, maternal child health services, and infectious diseases
                                          surveillance and treatment;
                                          (D) family tracing and reuni¿cation services; and
                                          (E) clearance of landmines and other unexploded ordinance.
                                (2) REPATRIATION AND RESETTLEMENT OF REFUGEES AND INTERNALLY



                                                         Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 75



SIGAR gpo WW.indd Sec2:75                                                                                              10/22/2008 4:50:23 PM
              EXECUTIVEHSUMMARY
              APPENDIX   – PL107-327: AFGHANISTAN FREEDOM SUPPORT ACT




                                    DISPLACED PERSONS- To assist refugees and internally displaced persons
                                    as they return to their home communities in Afghanistan and to support their
                                    reintegration into those communities, including assistance such as--
                                            (A) assistance identi¿ed in paragraph (1);
                                            (B) assistance to communities, including those in neighboring countries,
                                            that have taken in large numbers of refugees in order to rehabilitate or
                                            expand social, health, and educational services that may have suffered
                                            as a result of the inÀux of large numbers of refugees;
                                            (C) assistance to international organizations and host governments in
                                            maintaining security by screening refugees to ensure the exclusion of
                                            armed combatants, members of foreign terrorist organizations, and other
                                            individuals not eligible for economic assistance from the United States;
                                            and
                                            (D) assistance for voluntary refugee repatriation and reintegration inside
                                            Afghanistan and continued assistance to those refugees who are unable
                                            or unwilling to return, and humanitarian assistance to internally displaced
                                            persons, including those persons who need assistance to return to their
                                            homes, through the United Nations High Commissioner for Refugees
                                            and other organizations charged with providing such assistance.
                                    (3) COUNTERNARCOTICS EFFORTS- (A) To assist in the eradication of
                                    poppy cultivation, the disruption of heroin production, and the reduction of the
                                    overall supply and demand for illicit narcotics in Afghanistan and the region, with
                                    particular emphasis on assistance to--
                                            (i) eradicate opium poppy, establish crop substitution programs,
                                            purchase nonopium products from farmers in opium-growing areas,
                                            quick-impact public works programs to divert labor from narcotics
                                            production, develop projects directed speci¿cally at narcotics production,
                                            processing, or traf¿cking areas to provide incentives to cooperation in
                                            narcotics suppression activities, and related programs;
                                            (ii) establish or provide assistance to one or more entities within
                                            the Government of Afghanistan, including the Afghan State High
                                            Commission for Drug Control, and to provide training and equipment for
                                            the entities, to help enforce counternarcotics laws in Afghanistan and
                                            limit illicit narcotics growth, production, and traf¿cking in Afghanistan;
                                            (iii) train and provide equipment for customs, police, and other border
                                            control entities in Afghanistan and the region relating to illicit narcotics
                                            interdiction and relating to precursor chemical controls and interdiction to
                                            help disrupt heroin production in Afghanistan and the region;
                                            (iv) continue the annual opium crop survey and strategic studies on
                                            opium crop planting and farming in Afghanistan; and
                                            (v) reduce demand for illicit narcotics among the people of Afghanistan,
                                            including refugees returning to Afghanistan.
                            (B) For each of the ¿scal years 2003 through 2006, $15,000,000 is authorized to be



              76 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:76                                                                                                  10/22/2008 4:50:23 PM
                                                          APPENDIX H – PL107-327: AFGHANISTAN FREEDOM
                                                                                                EXECUTIVE
                                                                                                       SUPPORT
                                                                                                          SUMMARY
                                                                                                               ACT




                            appropriated to the President to be made available for a contribution to the United
                            Nations Drug Control Program for the purpose of carrying out activities described
                            in clauses (i) through (v) of subparagraph (A). Amounts made available under the
                            preceding sentence are in addition to amounts otherwise available for such purposes.
                            (4) REESTABLISHMENT OF FOOD SECURITY, REHABILITATION OF THE
                            AGRICULTURE SECTOR, IMPROVEMENT IN HEALTH CONDITIONS, AND THE
                            RECONSTRUCTION OF BASIC INFRASTRUCTURE- To assist in expanding access to
                            markets in Afghanistan, to increase the availability of food in markets in Afghanistan, to
                            rehabilitate the agriculture sector in Afghanistan by creating jobs for former combatants,
                            returning refugees, and internally displaced persons, to improve health conditions, and
                            assist in the rebuilding of basic infrastructure in Afghanistan, including assistance such
                            as--
                                    (A) rehabilitation of the agricultural infrastructure, including irrigation systems
                                    and rural roads;
                                    (B) extension of credit;
                                    (C) provision of critical agricultural inputs, such as seeds, tools, and fertilizer,
                                    and strengthening of seed multiplication, certi¿cation, and distribution systems;
                                    (D) improvement in the quantity and quality of water available through, among
                                    other things, rehabilitation of existing irrigation systems and the development of
                                    local capacity to manage irrigation systems;
                                    (E) livestock rehabilitation through market development and other mechanisms
                                    to distribute stocks to replace those stocks lost as a result of conÀict or drought;
                                    (F) mine awareness and demining programs and programs to assist mine
                                    victims, war orphans, and widows;
                                    (G) programs relating to infant and young child feeding, immunizations, vitamin
                                    A supplementation, and prevention and treatment of diarrheal diseases and
                                    respiratory infections;
                                    (H) programs to improve maternal and child health and reduce maternal and
                                    child mortality;
                                    (I) programs to improve hygienic and sanitation practices and for the prevention
                                    and treatment of infectious diseases, such as tuberculosis and malaria;
                                    (J) programs to reconstitute the delivery of health care, including the
                                    reconstruction of health clinics or other basic health infrastructure, with particular
                                    emphasis on health care for children who are orphans;
                                    (K) programs for housing (including repairing homes damaged during military
                                    operations), rebuilding urban infrastructure, and supporting basic urban
                                    services; and
                                    (L) disarmament, demobilization, and reintegration of armed combatants into
                                    society, particularly child soldiers.
                            (5) REESTABLISHMENT OF AFGHANISTAN AS A VIABLE NATION-STATE- (A) To
                            assist in the development of the capacity of the Government of Afghanistan to meet
                            the needs of the people of Afghanistan through, among other things, support for the
                            development and expansion of democratic and market-based institutions, including



                                                             Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 77



SIGAR gpo WW.indd Sec2:77                                                                                                    10/22/2008 4:50:23 PM
              EXECUTIVEHSUMMARY
              APPENDIX   – PL107-327: AFGHANISTAN FREEDOM SUPPORT ACT




                            assistance such as--
                                    (i) support for international organizations that provide civil advisers to the
                                    Government of Afghanistan;
                                    (ii) support for an educated citizenry through improved access to basic
                                    education, with particular emphasis on basic education for children who are
                                    orphans, with particular emphasis on basic education for children;
                                    (iii) programs to enable the Government of Afghanistan to recruit and train
                                    teachers, with special focus on the recruitment and training of female teachers;
                                    (iv) programs to enable the Government of Afghanistan to develop school
                                    curriculum that incorporates relevant information such as landmine awareness,
                                    food security and agricultural education, human rights awareness, including
                                    religious freedom, and civic education;
                                    (v) support for the activities of the Government of Afghanistan to draft a new
                                    constitution, other legal frameworks, and other initiatives to promote the rule
                                    of law in Afghanistan, including the recognition of religious freedom in the
                                    constitution and other legal frameworks;
                                    (vi) support to increase the transparency, accountability, and participatory nature
                                    of governmental institutions, including programs designed to combat corruption
                                    and other programs for the promotion of good governance;
                                    (vii) support for an independent media;
                                    (viii) programs that support the expanded participation of women and members
                                    of all ethnic groups in government at national, regional, and local levels;
                                    (ix) programs to strengthen civil society organizations that promote human
                                    rights, including religious freedom, freedom of expression, and freedom of
                                    association, and support human rights monitoring;
                                    (x) support for Afghan and international efforts to investigate human rights
                                    atrocities committed in Afghanistan by the Taliban regime, opponents of such
                                    regime, and terrorist groups operating in Afghanistan, including the collection of
                                    forensic evidence relating to such atrocities;
                                    (xi) support for national, regional, and local elections and political party
                                    development;
                                    (xii) support for the effective administration of justice at the national, regional,
                                    and local levels, including the establishment of a responsible and community-
                                    based police force;
                                    (xiii) support for establishment of a central bank and central budgeting authority;
                                    and
                                    (xiv) assistance in identifying and surveying key road and rail routes essential
                                    for economic renewal in Afghanistan and the region, support in reconstructing
                                    those routes, and support for the establishment of a customs service and
                                    training for customs of¿cers.
                            (B) For each of the ¿scal years 2003 through 2005, $10,000,000 is authorized to be
                            appropriated to the President to be made available for the purposes of carrying out a
                            traditional Afghan assembly or `Loya Jirga' and for support for national, regional, and



              78 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:78                                                                                                  10/22/2008 4:50:23 PM
                                                          APPENDIX H – PL107-327: AFGHANISTAN FREEDOM
                                                                                                EXECUTIVE
                                                                                                       SUPPORT
                                                                                                          SUMMARY
                                                                                                               ACT




                            local elections and political party development under subparagraph (A)(xi).
                            (6) MARKET ECONOMY- To support the establishment of a market economy, the
                            establishment of private ¿nancial institutions, the adoption of policies to promote foreign
                            direct investment, the development of a basic telecommunication infrastructure, and the
                            development of trade and other commercial links with countries in the region and with
                            the United States, including policies to--
                                     (A) encourage the return of Afghanistan citizens or nationals living abroad who
                                     have marketable and business-related skills;
                                     (B) establish ¿nancial institutions, including credit unions, cooperatives, and
                                     other entities providing microenterprise credits and other income-generation
                                     programs for the poor, with particular emphasis on women;
                                     (C) facilitate expanded trade with countries in the region;
                                     (D) promote and foster respect for basic workers' rights and protections against
                                     exploitation of child labor;
                                     (E) develop handicraft and other small-scale industries; and
                                     (F) provide ¿nancing programs for the reconstruction of Kabul and other major
                                     cities in Afghanistan.
                            (7) ASSISTANCE TO WOMEN AND GIRLS-
                                     (A) ASSISTANCE OBJECTIVES- To assist women and girls in Afghanistan in
                                     the areas of political and human rights, health care, education, training, security,
                                     and shelter, with particular emphasis on assistance--
                                              (i) to support construction of, provide equipment and medical supplies
                                              to, and otherwise facilitate the establishment and rehabilitation of, health
                                              care facilities in order to improve the health care of women, children, and
                                              infants;
                                              (ii) to expand immunization programs for women and children;
                                              (iii) to establish, maintain, and expand primary and secondary schools for
                                              girls that include mathematics, science, and languages in their primary
                                              curriculum;
                                              (iv) to develop and expand technical and vocational training programs
                                              and income-generation projects for women;
                                              (v) to provide special educational opportunities for girls whose schooling
                                              was ended by the Taliban, and to support the ability of women to have
                                              access to higher education;
                                              (vi) to develop and implement programs to protect women and girls
                                              against sexual and physical abuse, abduction, traf¿cking, exploitation,
                                              and sex discrimination in the delivery of humanitarian supplies and
                                              services;
                                              (vii) to provide emergency shelters for women and girls who face danger
                                              from violence;
                                              (viii) to direct humanitarian assistance to widows, who make up a very
                                              large and needy population in war-torn Afghanistan;
                                              (ix) to support the work of women-led and local nongovernmental



                                                             Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 79



SIGAR gpo WW.indd Sec2:79                                                                                                    10/22/2008 4:50:23 PM
              EXECUTIVEHSUMMARY
              APPENDIX   – PL107-327: AFGHANISTAN FREEDOM SUPPORT ACT




                                           organizations with demonstrated experience in delivering services to
                                           Afghan women and children;
                                           (x) to disseminate information throughout Afghanistan on the rights of
                                           women and on international standards of human rights, including the
                                           rights of religious freedom, freedom of expression, and freedom of
                                           association;
                                           (xi) to provide women's rights and human rights training for military,
                                           police, and legal personnel; and
                                           (xii) to support the National Human Rights Commission in programs
                                           to promote women's rights and human rights, including the rights of
                                           religious freedom, freedom of expression, and freedom of association,
                                           and in the investigation and monitoring of women's rights and human
                                           rights abuses.
                                   (B) AVAILABILITY OF FUNDS- For each of the ¿scal years 2003 through 2006--
                                           (i) $15,000,000 is authorized to be appropriated to the President to be
                                           made available to the Afghan Ministry of Women's Affairs; and
                                           (ii) $5,000,000 is authorized to be appropriated to the President to
                                           be made available to the National Human Rights Commission of
                                           Afghanistan.
                                   (C) RELATION TO OTHER AVAILABLE FUNDS- Amounts made available
                                   under subparagraph (B) are in addition to amounts otherwise available for such
                                   purposes.
                            (b) LIMITATION-
                                   (1) IN GENERAL- Amounts made available to carry out this title (except
                                   amounts made available for assistance under paragraphs (1) through (3)
                                   and subparagraphs (F) through (I) of paragraph (4) of subsection (a)) may
                                   be provided only if the President ¿rst determines and certi¿es to Congress
                                   with respect to the ¿scal year involved that progress is being made toward
                                   adopting a constitution and establishing a democratically elected government for
                                   Afghanistan that respects human rights.
                                   (2) WAIVER-
                                           (A) IN GENERAL- The President may waive the application of paragraph
                                           (1) if the President ¿rst determines and certi¿es to Congress that it is
                                           important to the national interest of the United States to do so.
                                           (B) CONTENTS OF CERTIFICATION- A certi¿cation transmitted to
                                           Congress under subparagraph (A) shall include a written explanation of
                                           the basis for the determination of the President to waive the application
                                           of paragraph (1).
                            (c) ENTERPRISE FUND-
                                   (1) AUTHORIZATION OF APPROPRIATIONS- In addition to funds otherwise
                                   available for such purpose, there are authorized to be appropriated to the
                                   President for an enterprise fund for Afghanistan $300,000,000. The provisions
                                   contained in section 201 of the Support for East European Democracy



              80 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:80                                                                                              10/22/2008 4:50:23 PM
                                                      APPENDIX H – PL107-327: AFGHANISTAN FREEDOM
                                                                                            EXECUTIVE
                                                                                                   SUPPORT
                                                                                                      SUMMARY
                                                                                                           ACT




                                 (SEED) Act of 1989 (excluding the authorizations of appropriations provided in
                                 subsection (b) of that section) shall apply with respect to such enterprise fund
                                 and to funds made available to such enterprise fund under this subsection.
                                 (2) AVAILABILITY OF FUNDS- Amounts appropriated pursuant to paragraph (1)
                                 are authorized to remain available until expended.
                  SEC. 104. COORDINATION OF ASSISTANCE.
                        (a) IN GENERAL- The President is strongly urged to designate, within the Department
                        of State, a coordinator who shall be responsible for--
                                 (1) designing an overall strategy to advance United States interests in
                                 Afghanistan;
                                 (2) ensuring program and policy coordination among agencies of the United
                                 States Government in carrying out the policies set forth in this title;
                                 (3) pursuing coordination with other countries and international organizations
                                 with respect to assistance to Afghanistan;
                                 (4) ensuring that United States assistance programs for Afghanistan are
                                 consistent with this title;
                                 (5) ensuring proper management, implementation, and oversight by agencies
                                 responsible for assistance programs for Afghanistan; and
                                 (6) resolving policy and program disputes among United States Government
                                 agencies with respect to United States assistance for Afghanistan.
                        (b) RANK AND STATUS OF THE COORDINATOR- The coordinator designated under
                        subsection (a) shall have the rank and status of ambassador.
                  SEC. 105. SENSE OF CONGRESS REGARDING PROMOTING COOPERATION IN OPIUM
                  PRODUCING AREAS.
                        It is the sense of Congress that the President should--
                                 (1) to the extent practicable, under such procedures as the President may
                                 prescribe, withhold United States bilateral assistance from, and oppose
                                 multilateral assistance to, opium-producing areas of Afghanistan if, within
                                 such areas, appropriate cooperation is not provided to the United States, the
                                 Government of Afghanistan, and international organizations with respect to
                                 the suppression of narcotics cultivation and traf¿cking, and if withholding such
                                 assistance would promote such cooperation;
                                 (2) redistribute any United States bilateral assistance (and to promote the
                                 redistribution of any multilateral assistance) withheld from an opium-producing
                                 area to other areas with respect to which assistance has not been withheld as a
                                 consequence of this section; and
                                 (3) de¿ne or rede¿ne the boundaries of opium producing areas of Afghanistan
                                 for the purposes of this section.
                  SEC. 106. ADMINISTRATIVE PROVISIONS.
                        (a) APPLICABLE ADMINISTRATIVE AUTHORITIES- Except to the extent inconsistent
                        with the provisions of this title, the administrative authorities under chapters 1 and 2 of
                        part III of the Foreign Assistance Act of 1961 shall apply to the provision of assistance
                        under this title to the same extent and in the same manner as such authorities apply to



                                                         Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 81



SIGAR gpo WW.indd Sec2:81                                                                                             10/22/2008 4:50:23 PM
              EXECUTIVEHSUMMARY
              APPENDIX   – PL107-327: AFGHANISTAN FREEDOM SUPPORT ACT




                        the provision of economic assistance under part I of such Act.
                        (b) USE OF THE EXPERTISE OF AFGHAN-AMERICANS- In providing assistance
                        authorized by this title, the President should--
                                  (1) maximize the use, to the extent feasible, of the services of Afghan-Americans
                                  who have expertise in the areas for which assistance is authorized by this title;
                                  and
                                  (2) in the awarding of contracts and grants to implement activities authorized
                                  under this title, encourage the participation of such Afghan-Americans (including
                                  organizations employing a signi¿cant number of such Afghan-Americans).
                        (c) DONATIONS OF MANUFACTURING EQUIPMENT; USE OF COLLEGES AND
                        UNIVERSITIES- In providing assistance authorized by this title, the President, to the
                        maximum extent practicable, should--
                                  (1) encourage the donation of appropriate excess or obsolete manufacturing and
                                  related equipment by United States businesses (including small businesses) for
                                  the reconstruction of Afghanistan; and
                                  (2) utilize research conducted by United States colleges and universities and the
                                  technical expertise of professionals within those institutions, particularly in the
                                  areas of agriculture and rural development.
                        (d) ADMINISTRATIVE EXPENSES- Of the funds made available to carry out the
                        purposes of assistance authorized by this title in any ¿scal year, up to 7 percent may be
                        used for administrative expenses of Federal departments and agencies in connection
                        with the provision of such assistance.
                        (e) MONITORING-
                                  (1) COMPTROLLER GENERAL- The Comptroller General shall monitor the
                                  provision of assistance under this title.
                                  (2) INSPECTOR GENERAL OF USAID- The Inspector General of the United
                                  States Agency for International Development shall conduct audits, inspections,
                                  and other activities, as appropriate, associated with the expenditure of the funds
                                  to carry out this title.
                        (f) PRIORITY FOR DIRECT ASSISTANCE TO THE GOVERNMENT OF
                        AFGHANISTAN- To the maximum extent practicable, assistance authorized under
                        this title should be provided directly to the Government of Afghanistan (including any
                        appropriate ministry thereof).
                  SEC. 107. RELATIONSHIP TO OTHER AUTHORITY.
                        The authority to provide assistance under this title is in addition to any other authority to
                        provide assistance to the Government of Afghanistan.
                  SEC. 108. AUTHORIZATION OF APPROPRIATIONS.
                        (a) IN GENERAL- There is authorized to be appropriated to the President to carry out
                        this title (other than section 103(c)) $425,000,000 for each of the ¿scal years 2003
                        through 2006.
                        (b) AVAILABILITY- Amounts appropriated pursuant to the authorization of appropriations
                        under subsection (a) are--




              82 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:82                                                                                               10/22/2008 4:50:23 PM
                                                       APPENDIX H – PL107-327: AFGHANISTAN FREEDOM
                                                                                             EXECUTIVE
                                                                                                    SUPPORT
                                                                                                       SUMMARY
                                                                                                            ACT




                                 (1) authorized to remain available until expended; and
                                 (2) in addition to funds otherwise available for such purposes, including, with
                                 respect to food assistance under section 103(a)(1), funds available under title II
                                 of the Agricultural Trade Development and Assistance Act of 1954, the Food for
                                 Progress Act of 1985, and section 416(b) of the Agricultural Act of 1949.
                   TITLE II--MILITARY ASSISTANCE FOR AFGHANISTAN AND CERTAIN OTHER FOREIGN
                                      COUNTRIES AND INTERNATIONAL ORGANIZATIONS
                  SEC. 201. SUPPORT FOR SECURITY DURING TRANSITION IN AFGHANISTAN.
                        It is the sense of Congress that, during the transition to a broad-based, multi-ethnic,
                        gender-sensitive, fully representative government in Afghanistan, the United States
                        should support--
                                 (1) the development of a civilian-controlled and centrally-governed standing
                                 Afghanistan army that respects human rights and prohibits the use of children
                                 as soldiers or combatants;
                                 (2) the creation and training of a professional civilian police force that respects
                                 human rights; and
                                 (3) a multinational security force in Afghanistan.
                  SEC. 202. AUTHORIZATION OF ASSISTANCE.
                        (a) DRAWDOWN AUTHORITY-
                                 (1) IN GENERAL- The President is authorized to exercise his authorities under
                                 section 506 of the Foreign Assistance Act of 1961 (22 U.S.C. 2318) to direct
                                 the drawdown of defense articles, defense services, and military education and
                                 training--
                                         (A) for the Government of Afghanistan, in accordance with this section;
                                         and
                                         (B) for eligible foreign countries, and eligible international organizations,
                                         in accordance with this section and sections 203 and 205.
                                 (2) AUTHORITY TO ACQUIRE BY CONTRACT OR OTHERWISE- The
                                 assistance authorized under paragraph (1) may include the supply of defense
                                 articles, defense services, counter-narcotics, crime control and police training
                                 services, other support, and military education and training that are acquired by
                                 contract or otherwise.
                        (b) AMOUNT OF ASSISTANCE- The aggregate value (as de¿ned in section 644(m)
                        of the Foreign Assistance Act of 1961) of assistance provided under subsection (a)
                        may not exceed $300,000,000, except that such limitation shall be increased by any
                        amounts appropriated pursuant to the authorization of appropriations in section 204(b)
                        (1) and shall not count toward any limitation contained in section 506 of the Foreign
                        Assistance Act of 1961 (22 U.S.C. 2318).
                  SEC. 203. ELIGIBLE FOREIGN COUNTRIES AND ELIGIBLE INTERNATIONAL ORGANIZA-
                  TIONS.
                        (a) IN GENERAL- Except as provided in subsection (b), a foreign country or
                        international organization shall be eligible to receive assistance under section 202 if--




                                                          Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 83



SIGAR gpo WW.indd Sec2:83                                                                                                10/22/2008 4:50:23 PM
              EXECUTIVEHSUMMARY
              APPENDIX   – PL107-327: AFGHANISTAN FREEDOM SUPPORT ACT




                                (1) such country or organization is participating in military, peacekeeping, or
                                policing operations in Afghanistan aimed at restoring or maintaining peace and
                                security in that country; and
                                (2) such assistance is provided speci¿cally for such operations in Afghanistan.
                        (b) EXCEPTION- No country the government of which has been determined by the
                        Secretary of State to have repeatedly engaged in gross violations of human rights, or
                        provided support for acts of international terrorism under section 620A of the Foreign
                        Assistance Act of 1961 (22 U.S.C. 2371), section 6(j)(1) of the Export Administration Act
                        of 1979 (50 U.S.C. App. 2405(j)(1)), or section 40(d) of the Arms Export Control Act (22
                        U.S.C. 2780(d)) shall be eligible to receive assistance under section 202.
                  SEC. 204. REIMBURSEMENT FOR ASSISTANCE.
                        (a) IN GENERAL- Defense articles, defense services, and military education
                        and training provided under section 202(a)(2) shall be made available without
                        reimbursement to the Department of Defense except to the extent that funds are
                        appropriated pursuant to the authorization of appropriations in subsection (b)(1).
                        (b) AUTHORIZATION OF APPROPRIATIONS-
                                (1) IN GENERAL- There are authorized to be appropriated to the President such
                                sums as may be necessary to reimburse the applicable appropriation, fund, or
                                account for the value (as de¿ned in section 644(m) of the Foreign Assistance
                                Act of 1961) of defense articles, defense services, or military education and
                                training provided under section 202(a)(2).
                                (2) AVAILABILITY- Amounts appropriated pursuant to the authorization of
                                appropriations under paragraph (1) are in addition to amounts otherwise
                                available for the purposes described in this title.
                  SEC. 205. CONGRESSIONAL NOTIFICATION REQUIREMENTS.
                        (a) AUTHORITY- The President may provide assistance under this title to any eligible
                        foreign country or eligible international organization if the President determines that
                        such assistance is important to the national security interest of the United States and
                        noti¿es the Committee on International Relations and the Committee on Appropriations
                        of the House of Representatives and the Committee on Foreign Relations and the
                        Committee on Appropriations of the Senate of such determination at least 15 days in
                        advance of providing such assistance.
                        (b) NOTIFICATION- The report described in subsection (a) shall be submitted in
                        classi¿ed and unclassi¿ed form and shall include information relating to the type and
                        amount of assistance proposed to be provided and the actions that the proposed
                        recipient of such assistance has taken or has committed to take.
                  SEC. 206. PROMOTING SECURE DELIVERY OF HUMANITARIAN AND OTHER ASSIS-
                  TANCE IN AFGHANISTAN AND EXPANSION OF THE INTERNATIONAL SECURITY ASSIS-
                  TANCE FORCE.
                        (a) FINDINGS- Congress ¿nds the following:
                                (1) The President has declared his view that the United States should provide
                                signi¿cant assistance to Afghanistan so that it is no longer a haven for terrorism.
                                (2) The delivery of humanitarian and reconstruction assistance from the



              84 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:84                                                                                             10/22/2008 4:50:24 PM
                                                 APPENDIX H – PL107-327: AFGHANISTAN FREEDOM
                                                                                       EXECUTIVE
                                                                                              SUPPORT
                                                                                                 SUMMARY
                                                                                                      ACT




                            international community is necessary for the safe return of refugees and is
                            critical to the future stability of Afghanistan.
                            (3) Enhanced stability in Afghanistan through an improved security environment
                            is critical to the functioning of the Government of Afghanistan and the traditional
                            Afghan assembly or `Loya Jirga' process, which is intended to lead to a
                            permanent national government in Afghanistan, and also is essential for the
                            participation of women in Afghan society.
                            (4) Incidents of violence between armed factions and local and regional
                            commanders, and serious abuses of human rights, including attacks on women
                            and ethnic minorities throughout Afghanistan, create an insecure, volatile, and
                            unsafe environment in parts of Afghanistan, displacing thousands of Afghan
                            civilians from their local communities.
                            (5)(A) On July 6, Vice President Haji Abdul Qadir was assassinated in Kabul by
                            unknown assailants.
                            (B) On September 5, 2002, a car bomb exploded in Kabul killing 32 and injuring
                            150 and on the same day a member of Kandahar Governor Sherzai's security
                            team attempted to assassinate President Karzai.
                            (6) The violence and lawlessness may jeopardize the `Loya Jirga' process,
                            undermine efforts to build a strong central government, severely impede
                            reconstruction and the delivery of humanitarian assistance, and increase the
                            likelihood that parts of Afghanistan will once again become safe havens for al-
                            Qaida, Taliban forces, and drug traf¿ckers.
                            (7) The lack of security and lawlessness may also perpetuate the need for
                            United States Armed Forces in Afghanistan and threaten the ability of the United
                            States to meet its military objectives.
                            (8) The International Security Assistance Force in Afghanistan, currently led
                            by Turkey, and composed of forces from other willing countries without the
                            participation of United States Armed Forces, is deployed only in Kabul and
                            currently does not have the mandate or the capacity to provide security to other
                            parts of Afghanistan.
                            (9) Due to the ongoing military campaign in Afghanistan, the United States does
                            not contribute troops to the International Security Assistance Force but has
                            provided support to other countries that are doing so.
                            (10) The United States is providing political, ¿nancial, training, and other
                            assistance to the Afghan Interim Authority as it begins to build a national army
                            and police force to help provide security throughout Afghanistan, but this effort is
                            not meeting the immediate security needs of Afghanistan.
                            (11) Because of these immediate security needs, the Government of
                            Afghanistan, its President, Hamid Karzai, and many Afghan regional leaders
                            have called for the International Security Assistance Force, which has
                            successfully brought stability to Kabul, to be expanded and deployed throughout
                            the country, and this request has been strongly supported by a wide range of
                            international humanitarian organizations, including the International Committee



                                                    Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 85



SIGAR gpo WW.indd Sec2:85                                                                                          10/22/2008 4:50:24 PM
              EXECUTIVEHSUMMARY
              APPENDIX   – PL107-327: AFGHANISTAN FREEDOM SUPPORT ACT




                                    of the Red Cross, Catholic Relief Services, and Refugees International.
                            (b) STATEMENT OF POLICY- It should be the policy of the United States to support
                            measures to help meet the immediate security needs of Afghanistan in order to
                            promote safe and effective delivery of humanitarian and other assistance throughout
                            Afghanistan, further the rule of law and civil order, and support the formation of a
                            functioning, representative Afghan national government.
                            (c) IMPLEMENTATION OF STRATEGY-
                                    (1) INITIAL REPORT- Not later than 60 days after the date of the enactment of
                                    this Act, the President shall provide the Committee on International Relations
                                    and the Committee on Appropriations of the House of Representatives and the
                                    Committee on Foreign Relations and the Committee on Appropriations of the
                                    Senate with--
                                            (A) a strategy for meeting the immediate and long-term security
                                            needs of Afghanistan in order to promote safe and effective delivery of
                                            humanitarian and other assistance throughout Afghanistan, further the
                                            rule of law and civil order, and support the formation of a functioning,
                                            representative Afghan national government, including an update to the
                                            strategies submitted pursuant to Public Law 107-206; and
                                            (B) a description of the progress of the Government of Afghanistan
                                            toward the eradication of poppy cultivation, the disruption of heroin
                                            production, and the reduction of the overall supply and demand for illicit
                                            narcotics in Afghanistan in accordance with the provisions of this Act.
                                    (2) IMPLEMENTATION OF STRATEGY- Every 6 months after the enactment of
                                    this Act through January 1, 2007, the President shall submit to the congressional
                                    committees speci¿ed in paragraph (1) a report on the implementation of
                                    the strategies for meeting the immediate and long-term security needs of
                                    Afghanistan, which shall include the following elements--
                                            (A) since the previous report, the progress in recruiting, training, and
                                            deploying an Afghan National Army and police force, including the
                                            numbers and ethnic composition of recruits; the number of graduates
                                            from military and police training; the numbers of graduates retained by
                                            the Afghan National Army and police forces since the previous report;
                                            the numbers of graduates operationally deployed and to which areas of
                                            the country; the degree to which these graduates are assuming security
                                            responsibilities; whether Afghan army and police units are establishing
                                            effective central governmental authority over areas of the country, and
                                            which areas; and the numbers of instances of armed attacks against
                                            Afghan central governmental of¿cials, United States or international
                                            of¿cials, troops or aid workers, or between the armed forces of regional
                                            leaders;
                                            (B) the degree to which armed regional leaders are cooperating and
                                            integrating with the central government, providing security and order
                                            within their regions of inÀuence, engaging in armed conÀict or other



              86 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:86                                                                                                10/22/2008 4:50:24 PM
                                                      APPENDIX H – PL107-327: AFGHANISTAN FREEDOM
                                                                                            EXECUTIVE
                                                                                                   SUPPORT
                                                                                                      SUMMARY
                                                                                                           ACT




                                        forms of competition that are deleterious to peace, security, and the
                                        integration of a uni¿ed Afghanistan under the central government;
                                        (C) the amount of humanitarian relief provided since the previous report
                                        to returnees, isolated populations and other vulnerable groups, as well
                                        as demining assistance and landmine survivors rehabilitation; and the
                                        numbers of such persons not assisted since the previous report;
                                        (D) the steps taken since the previous report toward national
                                        reconstruction, including establishment of the ministries and other
                                        institutions of the Government of Afghanistan;
                                        (E) the numbers of Civil Affairs Teams working with regional leaders,
                                        as well as the quick impact infrastructure projects undertaken by such
                                        teams since the previous report;
                                        (F) efforts undertaken since the previous report to rebuild the justice
                                        sector, including the establishment of a functioning judiciary, a competent
                                        bar, reintegration of women legal professionals and a reliable penal
                                        system, and the respect for human rights; and
                                        (G) a description of the progress of the Government of Afghanistan with
                                        respect to the matters described in paragraph (1)(B).
                        (d) EXPANSION OF THE INTERNATIONAL SECURITY ASSISTANCE FORCE-
                                (1) SENSE OF CONGRESS- Congress urges the President, in order to ful¿ll
                                the objective of establishing security in Afghanistan, to take all appropriate
                                measures to assist Afghanistan in establishing a secure environment throughout
                                the country, including by--
                                        (A) sponsoring in the United Nations Security Council a resolution
                                        authorizing an expansion of the International Security Assistance Force,
                                        or the establishment of a similar security force; and
                                        (B) enlisting the European and other allies of the United States to provide
                                        forces for an expansion of the International Security Assistance Force in
                                        Afghanistan, or the establishment of a similar security force.
                                (2) AUTHORIZATION OF APPROPRIATIONS- (A) There is authorized to be
                                appropriated to the President $500,000,000 for each of ¿scal years 2003 and
                                2004 to support the International Security Assistance Force or the establishment
                                of a similar security force.
                                        (B) Amounts made available under subparagraph (A) may be
                                        appropriated pursuant to chapter 4 of part II of the Foreign Assistance
                                        Act of 1961, section 551 of such Act, or section 23 of the Arms Export
                                        Control Act.
                                        (C) Funds appropriated pursuant to subparagraph (A) shall be subject
                                        to the noti¿cation requirements under section 634A of the Foreign
                                        Assistance Act of 1961.
                  SEC. 207. RELATIONSHIP TO OTHER AUTHORITY.
                        (a) ADDITIONAL AUTHORITY- The authority to provide assistance under this title is in
                        addition to any other authority to provide assistance to the Government of Afghanistan.



                                                         Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 87



SIGAR gpo WW.indd Sec2:87                                                                                             10/22/2008 4:50:24 PM
              EXECUTIVEHSUMMARY
              APPENDIX   – PL107-327: AFGHANISTAN FREEDOM SUPPORT ACT




                        (b) LAWS RESTRICTING AUTHORITY- Assistance under this title to the Government of
                        Afghanistan may be provided notwithstanding section 512 of Public Law 107-115 or any
                        similar provision of law.
                  SEC. 208. SUNSET.
                        The authority of this title shall expire after September 30, 2006.
                                             TITLE III--MISCELLANEOUS PROVISIONS
                  SEC. 301. REQUIREMENT TO COMPLY WITH PROCEDURES RELATING TO THE PROHI-
                  BITION ON ASSISTANCE TO DRUG TRAFFICKERS.
                        Assistance provided under this Act shall be subject to the same provisions as are
                        applicable to assistance under the Foreign Assistance Act of 1961 and the Arms Export
                        Control Act under section 487 of the Foreign Assistance Act of 1961 (relating to the
                        prohibition on assistance to drug traf¿ckers; 22 U.S.C. 2291f), and the applicable
                        regulations issued under that section.
                  SEC. 302. SENSE OF CONGRESS REGARDING PROTECTING AFGHANISTAN'S PRESI-
                  DENT.
                        It is the sense of Congress that--
                                 (1) any United States physical protection force provided for the personal security
                                 of the President of Afghanistan should be composed of United States diplomatic
                                 security, law-enforcement, or military personnel, and should not utilize private
                                 contracted personnel to provide actual physical protection services;
                                 (2) United States allies should be invited to volunteer active-duty military or law
                                 enforcement personnel to participate in such a protection force; and
                                 (3) such a protection force should be limited in duration and should be
                                 succeeded by quali¿ed Afghan security forces as soon as practicable.
                  SEC. 303. DONOR CONTRIBUTIONS TO AFGHANISTAN AND REPORTS.
                        (a) FINDINGS- The Congress ¿nds that inadequate amounts of international assistance
                        promised by donor states at the Tokyo donors conference and elsewhere have been
                        delivered to Afghanistan, imperiling the rebuilding and development of civil society and
                        infrastructure, and endangering peace and security in that war-torn country.
                        (b) SENSE OF CONGRESS- It is the sense of Congress that the United States
                        should use all appropriate diplomatic means to encourage all states that have pledged
                        assistance to Afghanistan to deliver as soon as possible the total amount of assistance
                        pledged.
                        (c) REPORTS-
                                 (1) IN GENERAL- The Secretary of State shall submit reports to the Committee
                                 on Foreign Relations and the Committee on Appropriations of the Senate and
                                 the Committee on International Relations and the Committee on Appropriations
                                 of the House of Representatives, in accordance with this paragraph, on the
                                 status of contributions of assistance from donor states to Afghanistan. The ¿rst
                                 report shall be submitted not later than 60 days after the date of enactment
                                 of this Act, the second report shall be submitted 90 days thereafter, and
                                 subsequent reports shall be submitted every 180 days thereafter through
                                 December 31, 2004.



              88 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:88                                                                                              10/22/2008 4:50:24 PM
                                                APPENDIX H – PL107-327: AFGHANISTAN FREEDOM
                                                                                      EXECUTIVE
                                                                                             SUPPORT
                                                                                                SUMMARY
                                                                                                     ACT




                            (2) FURTHER REQUIREMENTS- Each report, which shall be unclassi¿ed and
                            posted upon the Department of State's Internet website, shall include, by donor
                            country, the total amount pledged, the amount delivered within the previous 60
                            days, the total amount of assistance delivered, the type of assistance and type
                            of projects supported by the assistance.




                                                   Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 89



SIGAR gpo WW.indd Sec2:89                                                                                     10/22/2008 4:50:24 PM
              EXECUTIVEISUMMARY
              APPENDIX   – THE AFGHANISTAN COMPACT




                                                        Appendix I
                                                 The Afghanistan Compact

                  The Islamic Republic of Afghanistan and the international community:
                         Determined to strengthen their partnership to improve the lives of Afghan people, and to
                         contribute to national, regional, and global peace and security;
                         Af¿rming their shared commitment to continue, in the spirit of the Bonn, Tokyo and
                         Berlin conferences, to work toward a stable and prosperous Afghanistan, with good
                         governance and human rights protection for all under the rule of law, and to maintain
                         and strengthen that commitment over the term of this Compact and beyond;
                         Recognizing the courage and determination of Afghans who, by defying violent
                         extremism and hardship, have laid the foundations for a democratic, peaceful, pluralistic
                         and prosperous state based on the principles of Islam;
                         Noting the full implementation of the Bonn Agreement through the adoption of a new
                         constitution in January 2004, and the holding of presidential elections in October 2004
                         and National Assembly and Provincial Council elections in September 2005, which have
                         enabled Afghanistan to regain its rightful place in the international community;
                         Mindful that Afghanistan's transition to peace and stability is not yet assured, and that
                         strong international engagement will continue to be required to address remaining
                         challenges;
                         Resolved to overcome the legacy of conÀict in Afghanistan by setting conditions for
                         sustainable economic growth and development; strengthening state institutions and
                         civil society; removing remaining terrorist threats; meeting the challenge of counter-
                         narcotics; rebuilding capacity and infrastructure; reducing poverty; and meeting basic
                         human needs;
                  Have agreed to this Afghanistan Compact.

                  PURPOSE
                           The Afghan Government has articulated its overarching goals for the well-being of its
                  people in the Afghanistan Millennium Development Goals Country Report 2005 – Vision 2020.
                  Consistent with those goals, this Compact identi¿es three critical and interdependent areas or
                  pillars of activity for the ¿ve years from the adoption of this Compact:
                           1. Security;
                           2. Governance, Rule of Law and Human Rights; and
                           3. Economic and Social Development.

                          A further vital and cross-cutting area of work is eliminating the narcotics industry, which
                  remains a formidable threat to the people and state of Afghanistan, the region and beyond.
                          The Afghan Government hereby commits itself to realizing this shared vision of the
                  future; the international community, in turn, commits itself to provide resources and support
                  to realize that vision. Annex I of this Compact sets out detailed outcomes, benchmarks and
                  timelines for delivery, consistent with the high-level goals set by the Afghanistan National
                  Development Strategy (ANDS). The Government and international community also commit



              90 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:90                                                                                               10/22/2008 4:50:24 PM
                                                                             APPENDIX I – THE AFGHANISTAN
                                                                                                EXECUTIVE SUMMARY
                                                                                                          COMPACT




                  themselves to improve the effectiveness and accountability of international assistance as set
                  forth in Annex II.

                  PRINCIPLES OF COOPERATION
                        As the Afghan Government and the international community embark on the
                  implementation of this Compact, they will:
                     1. Respect the pluralistic culture, values and history of Afghanistan, based on Islam;
                     2. Work on the basis of partnership between the Afghan Government, with its sovereign
                        responsibilities, and the international community, with a central and impartial
                        coordinating role for the United Nations;
                     3. Engage further the deep-seated traditions of participation and aspiration to ownership of
                        the Afghan people;
                     4. Pursue ¿scal, institutional and environmental sustainability;
                     5. Build lasting Afghan capacity and effective state and civil society institutions, with
                        particular emphasis on building up human capacities of men and women alike;
                     6. Ensure balanced and fair allocation of domestic and international resources in order to
                        offer all parts of the country tangible prospects of well-being;
                     7. Recognize in all policies and programs that men and women have equal rights and
                        responsibilities;
                     8. Promote regional cooperation; and
                     9. Combat corruption and ensure public transparency and accountability.

                  SECURITY
                          Genuine security remains a fundamental prerequisite for achieving stability and
                  development in Afghanistan. Security cannot be provided by military means alone. It requires
                  good governance, justice and the rule of law, reinforced by reconstruction and development.
                  With the support of the international community, the Afghan Government will consolidate
                  peace by disbanding all illegal armed groups. The Afghan Government and the international
                  community will create a secure environment by strengthening Afghan institutions to meet the
                  security needs of the country in a ¿scally sustainable manner.
                          To that end, the NATO-led International Security Assistance Force (ISAF), the US-
                  led Operation Enduring Freedom (OEF) and partner nations involved in security sector
                  reform will continue to provide strong support to the Afghan Government in establishing and
                  sustaining security and stability in Afghanistan, subject to participating states’ national approval
                  procedures. They will continue to strengthen and develop the capacity of the national security
                  forces to ensure that they become fully functional. All OEF counter-terrorism operations will
                  be conducted in close coordination with the Afghan Government and ISAF. ISAF will continue
                  to expand its presence throughout Afghanistan, including through Provincial Reconstruction
                  Teams (PRTs), and will continue to promote stability and support security sector reforms in its
                  areas of operation.




                                                          Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 91



SIGAR gpo WW.indd Sec2:91                                                                                                10/22/2008 4:50:24 PM
              EXECUTIVEISUMMARY
              APPENDIX   – THE AFGHANISTAN COMPACT




                           Full respect for Afghanistan’s sovereignty and strengthening dialogue and cooperation
                  between Afghanistan and its neighbors constitute an essential guarantee of stability in
                  Afghanistan and the region. The international community will support concrete con¿dence-
                  building measures to this end.

                  GOVERNANCE, RULE OF LAW AND HUMAN RIGHTS
                           Democratic governance and the protection of human rights constitute the cornerstone
                  of sustainable political progress in Afghanistan. The Afghan Government will rapidly expand
                  its capacity to provide basic services to the population throughout the country. It will recruit
                  competent and credible professionals to public service on the basis of merit; establish a
                  more effective, accountable and transparent administration at all levels of Government; and
                  implement measurable improvements in ¿ghting corruption, upholding justice and the rule of
                  law and promoting respect for the human rights of all Afghans.
                           The Afghan Government will give priority to the coordinated establishment in each
                  province of functional institutions – including civil administration, police, prisons and judiciary.
                  These institutions will have appropriate legal frameworks and appointment procedures; trained
                  staff; and adequate remuneration, infrastructure and auditing capacity. The Government will
                  establish a ¿scally and institutionally sustainable administration for future elections under the
                  supervision of the Afghanistan Independent Electoral Commission.
                           Reforming the justice system will be a priority for the Afghan Government and the
                  international community. The aim will be to ensure equal, fair and transparent access to justice
                  for all based upon written codes with fair trials and enforceable verdicts. Measures will include:
                  completing legislative reforms for the public as well as the private sector; building the capacity
                  of judicial institutions and personnel; promoting human rights and legal awareness; and
                  rehabilitating judicial infrastructure.
                           The Afghan Government and the international community reaf¿rm their commitment
                  to the protection and promotion of rights provided for in the Afghan constitution and under
                  applicable international law, including the international human rights covenants and other
                  instruments to which Afghanistan is party. With a view to rebuilding trust among those whose
                  lives were shattered by war, reinforcing a shared sense of citizenship and a culture of tolerance,
                  pluralism and observance of the rule of law, the Afghan Government with the support of the
                  international community will implement the Action Plan on Peace, Justice and Reconciliation.

                  ECONOMIC AND SOCIAL DEVELOPMENT
                           The Afghan Government with the support of the international community will pursue
                  high rates of sustainable economic growth with the aim of reducing hunger, poverty and
                  unemployment. It will promote the role and potential of the private sector, alongside those
                  of the public and non-pro¿t sectors; curb the narcotics industry; ensure macroeconomic
                  stability; restore and promote the development of the country’s human, social and physical
                  capital, thereby establishing a sound basis for a new generation of leaders and professionals;
                  strengthen civil society; and complete the reintegration of returnees, internally displaced
                  persons and ex-combatants.




              92 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:92                                                                                                10/22/2008 4:50:24 PM
                                                                             APPENDIX I – THE AFGHANISTAN
                                                                                                EXECUTIVE SUMMARY
                                                                                                          COMPACT




                         Public investments will be structured around the six sectors of the pillar on economic
                  and social development of the Afghanistan National Development Strategy:
                         1. Infrastructure and natural resources;
                         2. Education;
                         3. Health;
                         4. Agriculture and rural development;
                         5. Social protection; and
                         6. Economic governance and private sector development.

                          In each of these areas, the objective will be to achieve measurable results towards the
                  goal of equitable economic growth that reduces poverty, expands employment and enterprise
                  creation, enhances opportunities in the region and improves the well-being of all Afghans.

                  COUNTER-NARCOTICS – A CROSS-CUTTING PRIORITY
                          Meeting the threat that the narcotics industry poses to national, regional and
                  international security as well as the development and governance of the country and the well-
                  being of Afghans will be a priority for the Government and the international community. The
                  aim will be to achieve a sustained and signi¿cant reduction in the production and traf¿cking of
                  narcotics with a view to complete elimination. Essential elements include improved interdiction,
                  law enforcement and judicial capacity building; enhanced cooperation among Afghanistan,
                  neighboring countries and the international community on disrupting the drugs trade; wider
                  provision of economic alternatives for farmers and laborers in the context of comprehensive
                  rural development; and building national and provincial counter-narcotics institutions. It will also
                  be crucial to enforce a zero-tolerance policy towards of¿cial corruption; to pursue eradication
                  as appropriate; to reinforce the message that producing or trading opiates is both immoral and
                  a violation of Islamic law; and to reduce the demand for the illicit use of opiates.

                  COORDINATION AND MONITORING
                         The Afghan Government and the international community are establishing a Joint
                  Coordination and Monitoring Board for the implementation of the political commitments that
                  comprise this Compact. As detailed in Annex III, this Board will be co-chaired by the Afghan
                  Government and the United Nations and will be supported by a small secretariat. It will ensure
                  greater coherence of efforts by the Afghan Government and international community to
                  implement the Compact and provide regular and timely public reports on its execution.




                                                          Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 93



SIGAR gpo WW.indd Sec2:93                                                                                                10/22/2008 4:50:24 PM
              EXECUTIVEISUMMARY
              APPENDIX   – THE AFGHANISTAN COMPACT




                                                    ANNEX I
                                            BENCHMARKS AND TIMELINES
                  The Afghan Government, with the support of the international community, is committed to
                  achieving the following benchmarks in accordance with the timelines speci¿ed.

                  SECURITY
                  International Security Forces
                  Through end-2010, with the support of and in close coordination with the Afghan Government,
                  the NATO-led International Security Assistance Force (ISAF), Operation Enduring Freedom
                  (OEF) and their respective Provincial Reconstruction Teams (PRTs) will promote security and
                  stability in all regions of Afghanistan, including by strengthening Afghan capabilities.

                  Afghan National Army
                  By end-2010: A nationally respected, professional, ethnically balanced Afghan National Army
                  will be fully established that is democratically accountable, organized, trained and equipped
                  to meet the security needs of the country and increasingly funded from Government revenue,
                  commensurate with the nation’s economic capacity; the international community will continue to
                  support Afghanistan in expanding the ANA towards the ceiling of 70,000 personnel articulated
                  in the Bonn talks; and the pace of expansion is to be adjusted on the basis of periodic joint
                  quality assessments by the Afghan Government and the international community against
                  agreed criteria which take into account prevailing conditions.

                  Afghan National and Border Police
                  By end-2010, a fully constituted, professional, functional and ethnically balanced Afghan
                  National Police and Afghan Border Police with a combined force of up to 62,000 will be able to
                  meet the security needs of the country effectively and will be increasingly ¿scally sustainable.

                  Disbandment of Illegal Armed Groups
                  All illegal armed groups will be disbanded by end-2007 in all provinces.

                  Counter-Narcotics
                  By end-2010, the Government will strengthen its law enforcement capacity at both central and
                  provincial levels, resulting in a substantial annual increase in the amount of drugs seized or
                  destroyed and processing facilities dismantled, and in effective measures, including targeted
                  eradication as appropriate, that contribute to the elimination of poppy cultivation.

                  By end-2010, the Government and neighboring and regional governments will work together
                  to increase coordination and mutual sharing of intelligence, with the goal of an increase in the
                  seizure and destruction of drugs being smuggled across Afghanistan’s borders and effective
                  action against drug traf¿ckers.




              94 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:94                                                                                            10/22/2008 4:50:24 PM
                                                                       APPENDIX I – THE AFGHANISTAN
                                                                                          EXECUTIVE SUMMARY
                                                                                                    COMPACT




                  Mine Action and Ammunition
                  By end-2010, in line with Afghanistan’s Millennium Development Goals (MDGs) and
                  Afghanistan’s Ottawa Convention obligations, the land area contaminated by mines and
                  unexploded ordnance will be reduced by 70%; all stockpiled anti-personnel mines will be
                  located and destroyed by end-2007; and by end-2010, all unsafe, unserviceable and surplus
                  ammunition will be destroyed.




                                                     Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 95



SIGAR gpo WW.indd Sec2:95                                                                                      10/22/2008 4:50:24 PM
              EXECUTIVEISUMMARY
              APPENDIX   – THE AFGHANISTAN COMPACT




                                      GOVERNANCE, RULE OF LAW AND HUMAN RIGHTS

                  Public Administrative Reform
                  By end-2010: Government machinery (including the number of ministries) will be restructured
                  and rationalized to ensure a ¿scally sustainable public administration; the civil service
                  commission will be strengthened; and civil service functions will be reformed to reÀect core
                  functions and responsibilities.

                  A clear and transparent national appointments mechanism will be established within 6
                  months, applied within 12 months and fully implemented within 24 months for all senior level
                  appointments to the central government and the judiciary, as well as for provincial governors,
                  chiefs of police, district administrators and provincial heads of security.

                  By end-2006 a review of the number of administrative units and their boundaries will be
                  undertaken with the aim of contributing to ¿scal sustainability.

                  By end-2010, in furtherance of the work of the civil service commission, merit-based
                  appointments, vetting procedures and performance-based reviews will be undertaken for civil
                  service positions at all levels of government, including central government, the judiciary and
                  police, and requisite support will be provided to build the capacity of the civil service to function
                  effectively. Annual performance-based reviews will be undertaken for all senior staff (grade 2
                  and above) starting by end-2007.

                  Anti-Corruption
                  The UN Convention Against Corruption will be rati¿ed by end-2006, national legislation adapted
                  accordingly by end-2007 and a monitoring mechanism to oversee implementation will be in
                  place by end-2008.

                  The Census and Statistics
                  The census enumeration will be completed by end-2008 and the complete results published.
                  Reliable statistical baselines will be established for all quantitative benchmarks by mid-2007
                  and statistical capacity built to track progress against them.

                  National Assembly
                  The National Assembly will be provided with technical and administrative support by mid-2006
                  to ful¿ll effectively its constitutionally mandated roles.

                  Elections
                  The Afghanistan Independent Electoral Commission will have the high integrity, capacity and
                  resources to undertake elections in an increasingly ¿scally sustainable manner by end-2008,
                  with the Government of Afghanistan contributing to the extent possible to the cost of future
                  elections from its own resources. A permanent civil and voter registry with a single national
                  identity document will be established by end-2009.



              96 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:96                                                                                                 10/22/2008 4:50:24 PM
                                                                              APPENDIX I – THE AFGHANISTAN
                                                                                                 EXECUTIVE SUMMARY
                                                                                                           COMPACT




                  Gender
                  By end-2010: the National Action Plan for Women in Afghanistan will be fully implemented;
                  and, in line with Afghanistan’s MDGs, female participation in all Afghan governance institutions,
                  including elected and appointed bodies and the civil service, will be strengthened.

                  Rule of Law
                  By end-2010, the legal framework required under the constitution, including civil, criminal and
                  commercial law, will be put in place, distributed to all judicial and legislative institutions and
                  made available to the public.

                  By end-2010, functioning institutions of justice will be fully operational in each province of
                  Afghanistan, and the average time to resolve contract disputes will be reduced as much as
                  possible.

                  A review and reform of oversight procedures relating to corruption, lack of due process and
                  miscarriage of justice will be initiated by end-2006 and fully implemented by end-2010; by end-
                  2010, reforms will strengthen the professionalism, credibility and integrity of key institutions
                  of the justice system (the Ministry of Justice, the Judiciary, the Attorney-General’s of¿ce, the
                  Ministry of Interior and the National Directorate of Security).

                  By end-2010, justice infrastructure will be rehabilitated; and prisons will have separate facilities
                  for women and juveniles.

                  Land Registration
                  A process for registration of land in all administrative units and the registration of titles will be
                  started for all major urban areas by end-2006 and all other areas by end-2008. A fair system for
                  settlement of land disputes will be in place by end-2007. Registration for rural land will be under
                  way by end-2007.

                  Counter-Narcotics
                  By end-2010, the Government will increase the number of arrests and prosecutions of
                  traf¿ckers and corrupt of¿cials and will improve its information base concerning those involved
                  in the drugs trade, with a view to enhancing the selection system for national and sub-national
                  public appointments, as part of the appointments mechanism mentioned earlier in this annex.

                  Human Rights
                  By end-2010: The Government’s capacity to comply with and report on its human rights treaty
                  obligations will be strengthened; Government security and law enforcement agencies will
                  adopt corrective measures including codes of conduct and procedures aimed at preventing
                  arbitrary arrest and detention, torture, extortion and illegal expropriation of property with a
                  view to the elimination of these practices; the exercise of freedom of expression, including
                  freedom of media, will be strengthened; human rights awareness will be included in education
                  curricula and promoted among legislators, judicial personnel and other Government agencies,



                                                          Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 97



SIGAR gpo WW.indd Sec2:97                                                                                                 10/22/2008 4:50:24 PM
              EXECUTIVEISUMMARY
              APPENDIX   – THE AFGHANISTAN COMPACT




                  communities and the public; human rights monitoring will be carried out by the Government and
                  independently by the Afghan Independent Human Rights Commission (AIHRC), and the UN will
                  track the effectiveness of measures aimed at the protection of human rights; the AIHRC will be
                  supported in the ful¿llment of its objectives with regard to monitoring, investigation, protection
                  and promotion of human rights.

                  The implementation of the Action Plan on Peace, Justice and Reconciliation will be completed
                  by end-2008.




              98 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:98                                                                                              10/22/2008 4:50:24 PM
                                                                           APPENDIX I – THE AFGHANISTAN
                                                                                              EXECUTIVE SUMMARY
                                                                                                        COMPACT




                                           ECONOMIC AND SOCIAL DEVELOPMENT

                  Infrastructure And Natural Resources

                  Roads
                  Afghanistan will have a fully upgraded and maintained ring road, as well as roads connecting
                  the ring road to neighboring countries by end-2008 and a ¿scally sustainable system for road
                  maintenance by end-2007.

                  Air Transport
                  By end-2010: Kabul International Airport and Herat Airport will achieve full International Civil
                  Aviation Organization compliance; Mazar-i-Sharif, Jalalabad and Kandahar will be upgraded
                  with runway repairs, air navigation, ¿re and rescue and communications equipment; seven
                  other domestic airports will be upgraded to facilitate domestic air transportation; and air
                  transport services and costs will be increasingly competitive with international market standards
                  and rates.

                  Energy
                  By end-2010: electricity will reach at least 65% of households and 90% of non-residential
                  establishments in major urban areas and at least 25% of households in rural areas; at least
                  75% of the costs will be recovered from users connected to the national power grid. A strategy
                  for the development and the use of renewable energies will be developed by end-2007.

                  Mining and Natural Resources
                  An enabling regulatory environment for pro¿table extraction of Afghanistan’s mineral and
                  natural resources will be created by end-2006, and by end-2010 the investment environment
                  and infrastructure will be enhanced in order to attract domestic and foreign direct investment in
                  this area.

                  Water Resource Management
                  Sustainable water resource management strategies and plans covering irrigation and drinking
                  water supply will be developed by end-2006, and irrigation investments will result in at least
                  30% of water coming from large waterworks by end-2010.

                  Urban Development
                  By end-2010: Municipal governments will have strengthened capacity to manage urban
                  development and to ensure that municipal services are delivered effectively, ef¿ciently and
                  transparently; in line with Afghanistan’s MDGs, investment in water supply and sanitation will
                  ensure that 50% of households in Kabul and 30% of households in other major urban areas will
                  have access to piped water.




                                                         Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 99



SIGAR gpo WW.indd Sec2:99                                                                                             10/22/2008 4:50:24 PM
              EXECUTIVEISUMMARY
              APPENDIX   – THE AFGHANISTAN COMPACT




                  Environment
                  In line with Afghanistan’s MDGs, environmental regulatory frameworks and management
                  services will be established for the protection of air and water quality, waste management and
                  pollution control, and natural resource policies will be developed and implementation started at
                  all levels of government as well as the community level, by end-2007.

                  EDUCATION

                  Primary and Secondary Education
                  By end-2010: in line with Afghanistan’s MDGs, net enrolment in primary school for girls and
                  boys will be at least 60% and 75% respectively; a new curriculum will be operational in all
                  secondary schools; female teachers will be increased by 50%; 70% of Afghanistan’s teachers
                  will have passed a competency test; and a system for assessing learning achievement such as
                  a national testing system for students will be in place.

                  Higher Education
                  By end 2010: enrolment of students to universities will be 100,000 with at least 35% female
                  students; and the curriculum in Afghanistan’s public universities will be revised to meet the
                  development needs of the country and private sector growth.

                  Skills Development
                  A human resource study will be completed by end-2006, and 150,000 men and women will be
                  trained in marketable skills through public and private means by end-2010.
                  Afghan Cultural Heritage
                  A comprehensive inventory of Afghan cultural treasures will be compiled by end-2007.
                  Measures will be taken to revive the Afghan cultural heritage, to stop the illegal removal of
                  cultural material and to restore damaged monuments and artifacts by end-2010.

                  HEALTH

                  Health and Nutrition
                  By end-2010, in line with Afghanistan’s MDGs, the Basic Package of Health Services will be
                  extended to cover at least 90% of the population; maternal mortality will be reduced by 15%;
                  and full immunization coverage for infants under-5 for vaccine-preventable diseases will be
                  achieved and their mortality rates reduced by 20%.

                  AGRICULTURE AND RURAL DEVELOPMENT

                  Agriculture and Livestock
                  By end-2010: The necessary institutional, regulatory and incentive framework to increase
                  production and productivity will be established to create an enabling environment for legal
                  agriculture and agriculture-based rural industries, and public investment in agriculture will
                  increase by 30 percent; particular consideration will be given to perennial horticulture,



              100 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:100                                                                                           10/22/2008 4:50:24 PM
                                                                           APPENDIX I – THE AFGHANISTAN
                                                                                              EXECUTIVE SUMMARY
                                                                                                        COMPACT




                  animal health and food security by instituting specialized support agencies and ¿nancial
                  service delivery mechanisms, supporting farmers’ associations, branding national products,
                  disseminating timely price and weather-related information and statistics, providing strategic
                  research and technical assistance and securing access to irrigation and water management
                  systems.

                  Comprehensive Rural Development
                  By end-2010: Rural development will be enhanced comprehensively for the bene¿t of 19 million
                  people in over 38,000 villages; this will be achieved through the election of at least a further
                  14,000 voluntary community development councils in all remaining villages, promoting local
                  governance and community empowerment; access to safe drinking water will be extended
                  to 90% of villages and sanitation to 50%; road connectivity will reach 40% of all villages,
                  increasing access to markets, employment and social services; 47% of villages will bene¿t
                  from small-scale irrigation; 800,000 households (22% of all Afghanistan’s households) will
                  bene¿t from improved access to ¿nancial services; and livelihoods of at least 15% of the rural
                  population will be supported through the provision of 91 million labor days.

                  Counter-Narcotics
                  By end-2010, the Government will design and implement programs to achieve a sustained
                  annual reduction in the amount of land under poppy and other drug cultivation by the
                  strengthening and diversi¿cation of licit livelihoods and other counter-narcotics measures, as
                  part of the overall goal of a decrease in the absolute and relative size of the drug economy in
                  line with the Government’s MDG target.

                  SOCIAL PROTECTION

                  Poverty Reduction
                  By end-2010, in line with Afghanistan’s MDGs, the proportion of people living on less than
                  US$1 a day will decrease by 3% per year and the proportion of people who suffer from hunger
                  will decrease by 5% per year.

                  Humanitarian and Disaster Response
                  By end-2010, an effective system of disaster preparedness and response will be in place.

                  Disabled
                  By end-2010, increased assistance will be provided to meet the special needs of all disabled
                  people, including their integration in society through opportunities for education and gainful
                  employment.

                  Employment of Youth and Demobilized Soldiers
                  By end-2010, employment opportunities for youth and demobilized soldiers will be increased
                  through special programs.




                                                       Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 101



SIGAR gpo WW.indd Sec2:101                                                                                           10/22/2008 4:50:24 PM
              EXECUTIVEISUMMARY
              APPENDIX   – THE AFGHANISTAN COMPACT




                  Refugees and IDPs
                  By end-2010, all refugees opting to return and internally displaced persons will be provided
                  assistance for rehabilitation and integration in their local communities; their integration will be
                  supported by national development programs, particularly in key areas of return.

                  Vulnerable Women
                  By end-2010, the number of female-headed households that are chronically poor will be
                  reduced by 20%, and their employment rates will be increased by 20%.

                  Counter-Narcotics
                  By end-2010, the Government will implement programs to reduce the demand for narcotics and
                  provide improved treatment for drug users.

                  ECONOMIC GOVERNANCE AND PRIVATE SECTOR DEVELOPMENT

                  Financial Management
                  By end-2007, the Government will ensure improved transparent ¿nancial management at
                  the central and provincial levels through establishing and meeting benchmarks for ¿nancial
                  management agreed with and monitored by the international community, including those in
                  the anticipated Poverty Reduction Growth Facility (PRGF). In turn, and in line with improved
                  government accountability, donors will make more effort to increase the share of total external
                  assistance to Afghanistan that goes to the core budget.

                  Domestic Revenues
                  Afghanistan’s total domestic budgetary revenue – equivalent to 4.5% of estimated legal GDP in
                  1383 (2004/05) – will steadily increase and reach 8% of GDP by 1389 (2010/11). The ratio of
                  revenue to estimated total recurrent expenditures, including estimated recurrent expenditures
                  in the core and external development budgets, is projected to rise from 28% in 1383 (2004/05)
                  to an estimated 58% in 1389, resulting in a continuing need, in accord with the principles in
                  Annex II, for (1) external assistance to the core budget and (2) increasing cost-effectiveness of
                  assistance that funds recurrent expenditure though the external development budget.

                  Private Sector Development and Trade
                  All legislation, regulations and procedures related to investment will be simpli¿ed and
                  harmonized by end-2006 and implemented by end-2007. New business organization laws will
                  be tabled in the National Assembly by end-2006. The Government’s strategy for divestment of
                  state-owned enterprises will be implemented by end-2009.




              102 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:102                                                                                              10/22/2008 4:50:24 PM
                                                                           APPENDIX I – THE AFGHANISTAN
                                                                                              EXECUTIVE SUMMARY
                                                                                                        COMPACT




                  Financial Services and Markets
                  Internationally accepted prudential regulations will be developed for all core sectors of banking
                  and non-bank ¿nancial institutions by end-2007. The banking supervision function of Da
                  Afghanistan Bank will be further strengthened by end-2007. Re-structuring of state-owned
                  commercial banks will be complete by end-2007. State-owned banks that have not been re-
                  licensed will be liquidated by end-2006.

                  Regional Cooperation
                  By end-2010: Afghanistan and its neighbors will achieve lower transit times through Afghanistan
                  by means of cooperative border management and other multilateral or bilateral trade and transit
                  agreements; Afghanistan will increase the amount of electricity available through bilateral power
                  purchase; and Afghanistan, its neighbors and countries in the region will reach agreements to
                  enable Afghanistan to import skilled labor, and to enable Afghans to seek work in the region
                  and send remittances home.




                                                       Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 103



SIGAR gpo WW.indd Sec2:103                                                                                            10/22/2008 4:50:24 PM
              EXECUTIVEISUMMARY
              APPENDIX   – THE AFGHANISTAN COMPACT




                                                  ANNEX II
                             IMPROVING THE EFFECTIVENESS OF AID TO AFGHANISTAN

                  The international community has made a signi¿cant investment in the future of a democratic
                  state of Afghanistan since December 2001. This Compact is an af¿rmation of that commitment.
                  The Afghan Government and the international community are further committed to improving
                  the effectiveness of the aid being provided to Afghanistan in accordance with the Paris
                  Declaration on Aid Effectiveness (2005), recognizing the special needs of Afghanistan and their
                  implications for donor support.

                  Consistent with the Paris Declaration and the principles of cooperation of this Compact, the
                  Government and the international community providing assistance to Afghanistan agree that
                  the principles for improving the effectiveness of aid to Afghanistan under this Compact are:

                              1. Leadership of the Afghan Government in setting its development priorities and
                                 strategies and, within them, the support needs of the country and the coordination
                                 of donor assistance;
                              2. Transparency and accountability on the part of both the Government and the donors
                                 of the international assistance being provided to Afghanistan.

                               Under these principles and towards the goal of improving the effectiveness of aid to
                               Afghanistan, the Government will:
                       •      Provide a prioritized and detailed Afghanistan National Development Strategy (ANDS)
                              with indicators for monitoring results, including those for Afghanistan’s Millennium
                              Development Goals (MDGs);
                       •      Improve its abilities to generate domestic revenues through, inter alia, customs duties
                              and taxes; and to achieve cost recovery from public utilities and transportation;
                       •      Agree with donors, international ¿nancial institutions and United Nations agencies on
                              the benchmarks for aid channeled through the Government’s core budget and for the
                              utilization of such aid; and monitor performance against those benchmarks; and
                       •      Provide regular reporting on the use of donor assistance and performance against the
                              benchmarks of this compact to the National Assembly, the donor community through the
                              Afghanistan Development Forum and the public at large.

                              The donors will:

                       •      Provide assistance within the framework of the Afghanistan National Development
                              Strategy; programs and projects will be coordinated with Government in order to focus
                              on priorities, eliminate duplication and rationalize donor activities to maximize cost-
                              effectiveness;
                       •      Increasingly provide more predictable and multiyear funding commitments or indications
                              of multiyear support to Afghanistan to enable the Government to plan better the
                              implementation of its National Development Strategy and provide untied aid whenever
                              possible;


              104 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:104                                                                                              10/22/2008 4:50:25 PM
                                                                              APPENDIX I – THE AFGHANISTAN
                                                                                                 EXECUTIVE SUMMARY
                                                                                                           COMPACT




                       •     Increase the proportion of donor assistance channeled directly through the core budget,
                             as agreed bilaterally between the Government and each donor, as well as through
                             other more predictable core budget funding modalities in which the Afghan Government
                             participates, such as the Afghanistan Reconstruction Trust Fund (ARTF), the Law
                             and Order Trust Fund for Afghanistan (LOTFA) and the Counter-Narcotics Trust Fund
                             (CNTF);
                       •     Provide assistance for the development of public expenditure management systems
                             that are essential for improving transparency and accountability in the utilization of
                             donor resources and countering corruption;
                       •     Recognize that, because of the need to build Afghan capacity, donor assistance
                             provided through the external budget will be designed in such a manner as to build this
                             capacity in the Government as well as the private sector and non-pro¿t sector;
                       •     Ensure that development policies, including salary policies, strengthen national
                             institutions that are sustainable in the medium to long term for delivery of programs by
                             the Government;
                       •     For aid not channeled through the core budget, endeavor to:
                                 ʱ Harmonize the delivery of technical assistance in line with Government needs to
                                      focus on priority areas and reduce duplication and transaction costs;
                                 ʱ ҏReduce the external management and overhead costs of projects by promoting
                                      the Afghan private sector in their management and delivery;
                                 ʱ ҏIncreasingly use Afghan national implementation partners and equally quali¿ed
                                      local and expatriate Afghans;
                                 ʱ ҏIncrease procurement within Afghanistan of supplies for civilian and military
                                      activities; and
                                 ʱ Use Afghan materials in the implementation of projects, in particular for
                                      infrastructure;
                       •     Within the principles of international competitive bidding, promote the participation in
                             the bidding process of the Afghan private sector and South-South cooperation in order
                             to overcome capacity constraints and to lower costs of delivery;
                       •     Provide timely, transparent and comprehensive information on foreign aid Àows,
                             including levels of pledges, commitments and disbursements in a format that will enable
                             the Afghan Government to plan its own activities and present comprehensive budget
                             reports to the National Assembly; this covers the nature and amount of assistance being
                             provided to Afghanistan through the core and external budgets; and
                       •     For external budget assistance, also report to the Government on: the utilization of
                             funds; its ef¿ciency, quality and effectiveness; and the results achieved.

                  These mutual commitments are intended to ensure that the donor assistance being provided
                  to Afghanistan is used ef¿ciently and effectively, that there is increased transparency and
                  accountability, and that both Afghans and the taxpayers in donor countries are receiving value
                  for money.




                                                          Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 105



SIGAR gpo WW.indd Sec2:105                                                                                              10/22/2008 4:50:25 PM
              EXECUTIVEISUMMARY
              APPENDIX   – THE AFGHANISTAN COMPACT




                                                   ANNEX III
                                         COORDINATION AND MONITORING

                  The Afghan Government and the international community recognize that the success of the
                  Afghanistan Compact requires strong political, security and ¿nancial commitment to achieve
                  the benchmarks within the agreed timelines. Equally, the success of the Compact relies on an
                  effective coordination and monitoring mechanism.

                  To this end, and in addition to existing sectoral coordination mechanisms, the Afghan
                  Government and the international community are establishing a Joint Coordination and
                  Monitoring Board with the participation of senior Afghan Government of¿cials appointed
                  by the President and representatives of the international community. The Board will be co-
                  chaired by a senior Afghan Government of¿cial appointed by the President and by the Special
                  Representative of the UN Secretary-General for Afghanistan. Its purpose would be to ensure
                  overall strategic coordination of the implementation of the Compact.

                  The Board will have a small secretariat staffed by the Afghan Government and the United
                  Nations. It will be supported by technical experts, as needed. The Board will hold periodic
                  meetings and special sessions as required to review the implementation of this Compact and
                  suggest corrective action, as appropriate.

                  Afghan state institutions and sectoral coordination mechanisms involved in the implementation
                  of the Afghanistan National Development Strategy (ANDS) will provide inputs to the Board with
                  regard to the implementation of the Compact. In addition, in carrying out its assessments, the
                  Board will consider inputs from the international community, including United Nations agencies,
                  international ¿nancial institutions, donors, international security forces and relevant non-
                  governmental organizations and civil society representatives.

                  Periodic progress reports on the implementation of the Compact prepared by the Joint
                  Coordination and Monitoring Board will be made public.

                                                      ------------------------------




              106 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:106                                                                                          10/22/2008 4:50:25 PM
                                                                   APPENDIX I – THE AFGHANISTAN
                                                                                      EXECUTIVE SUMMARY
                                                                                                COMPACT




                                                    ANNEX IV
                             Participants at the London Conference on Afghanistan




                    Participating Countries     Netherlands                    Observers
                    Afghanistan (co-chair)      New Zealand                    Argentina
                    Australia                   Norway                         Chile
                    Austria                     Pakistan                       Croatia
                    Bahrain                     Poland                         Cyprus
                    Belgium                     Portugal                       Estonia
                    Brazil                      Qatar                          Ireland
                    Brunei                      Romania                        Latvia
                    Bulgaria                    Russia                         Macedonia (FYR)
                    Canada                      Saudi Arabia                   Malta
                    China                       Spain                          Oman
                    Czech Republic              Sweden                         OSCE
                    Denmark                     Switzerland                    Singapore
                    Egypt                       Tajikistan                     Slovakia
                    Finland                     Turkey                         Slovenia
                    France                      Turkmenistan
                    Germany                     United Arab Emirates
                    Greece                      United Kingdom (co-chair)
                    Hungary                     United States of America
                    Iceland                     Uzbekistan
                    India
                    Iran                        Participating Organizations
                    Italy                       Aga Khan Foundation
                    Japan                       Asian Development Bank
                    Jordan                      European Commission
                    Kazakhstan                  European Union
                    Korea (Republic of)         Islamic Development Bank
                    Kuwait                      International Monetary Fund
                    Kyrgyzstan                  NATO
                    Lithuania                   Organization of Islamic
                    Luxembourg                  Conference
                    Malaysia                    United Nations (co-chair)
                                                World Bank




                                               Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 107



SIGAR gpo WW.indd Sec2:107                                                                                10/22/2008 4:50:25 PM
              EXECUTIVEJSUMMARY
              APPENDIX   – AFGHANISTAN NATIONAL DEVELOPMENT STRATEGY




                                                  Appendix J
                                   Afghanistan National Development Strategy
                                        Executive Summary (2008-2013)


                                 In the name of Allah, the Most Merciful, the Most Compassionate

                  Vision for Afghanistan
                  By the solar year 1400 (2020), Afghanistan will be:
                      • A stable Islamic constitutional democracy at peace with itself and its neighbors, standing
                         with full dignity in the international family.
                      • A tolerant, united, and pluralist nation that honors its Islamic heritage and deep
                         aspirations toward participation, justice, and equal rights for all.
                      • A society of hope and prosperity based on a strong, private sector-led market economy,
                         social equity, and environmental sustainability.

                  ANDS Goals for 1387-1391 (2008-2013)
                  The Afghanistan National Development Strategy (ANDS) is a Millennium Development Goals
                  (MDGs)-based plan that serves as Afghanistan’s Poverty Reduction Strategy Paper (PRSP).
                  It is underpinned by the principles, pillars and benchmarks of the Afghanistan Compact. The
                  pillars and goals of the ANDS are:
                       1. Security: Achieve nationwide stabilization, strengthen law enforcement, and improve
                           personal security for every Afghan.
                       2. Governance, Rule of Law and Human Rights: Strengthen democratic practice and
                           institutions, human rights, the rule of law, delivery of public services and government
                           accountability.
                       3. Economic and Social Development: Reduce poverty, ensure sustainable development
                           through a private sector-led market economy, improve human development indicators,
                           and make signi¿cant progress towards the Millennium Development Goals.

                                 In the name of Allah, the most Merciful, the most Compassionate




              108 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:108                                                                                           10/22/2008 4:50:25 PM
                                                       APPENDIX J – AFGHANISTAN NATIONAL DEVELOPMENT
                                                                                            EXECUTIVE STRATEGY
                                                                                                      SUMMARY




                  Six and one-half years ago, the people of Afghanistan and the international community joined
                  hands to liberate Afghanistan from the grip of international terrorism and to begin the journey of
                  rebuilding a nation from a past of violence, destruction and terror. We have come a long way in
                  this shared journey.

                  In a few short years, as a result of the partnership between Afghanistan and the international
                  community, we were able to create a new, democratic Constitution, embracing the freedom of
                  speech and equal rights for women. Afghans voted in their ¿rst-ever presidential elections and
                  elected a new parliament. Today close to ¿ve million Afghan refugees have returned home, one
                  of the largest movements of people to their homeland in history.

                  Thousands of schools have been built, welcoming over six million boys and girls, the highest
                  level ever for Afghanistan. Hundreds of health clinics have been established boosting our
                  basic health coverage from a depressing 9 percent six years ago to over 85 percent today.
                  Access to diagnostic and curative services has increased from almost none in 2002 to more
                  than forty percent. We have rehabilitated 12,200 km of roads, over the past six years. Our rapid
                  economic growth, with double digit growth almost every year, has led to higher income and
                  better living conditions for our people. With a developing road network and a state-of-the-art
                  communications infrastructure, Afghanistan is better placed to serve as an economic land-
                  bridge in our region.

                  These achievements would not have been possible without the unwavering support of the
                  international community and the strong determination of the Afghan people. I hasten to point
                  out that our achievements must not distract us from the enormity of the tasks that are still
                  ahead. The threat of terrorism and the menace of narcotics are still affecting Afghanistan and
                  the broader region and hampering our development. Our progress is still undermined by the
                  betrayal of public trust by some functionaries of the state and uncoordinated and inef¿cient aid
                  delivery mechanisms. Strengthening national and sub-national governance and rebuilding our
                  judiciary are also among our most dif¿cult tasks.

                  To meet these challenges, I am pleased to present Afghanistan’s National Development
                  Strategy (ANDS). This strategy has been completed after two years of hard work and extensive
                  consultations around the country. As an Afghan-owned blueprint for the development of
                  Afghanistan in all spheres of human endeavor, the ANDS will serve as our nation’s Poverty
                  Reduction Strategy Paper. I am con¿dent that the ANDS will help us in achieving the
                  Afghanistan Compact benchmarks and Millennium Development Goals. I also consider this
                  document as our roadmap for the long-desired objective of Afghanization, as we transition
                  towards less reliance on aid and an increase in self-sustaining economic growth.

                  I thank the international community for their invaluable support. With this Afghan-owned
                  strategy, I ask all of our partners to fully support our national development efforts. I am strongly
                  encouraged to see the participation of the Afghan people and appreciate the efforts of all those
                  in the international community and Afghan society who have contributed to the development



                                                         Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 109



SIGAR gpo WW.indd Sec2:109                                                                                               10/22/2008 4:50:25 PM
              EXECUTIVEJSUMMARY
              APPENDIX   – AFGHANISTAN NATIONAL DEVELOPMENT STRATEGY




                  of this strategy. Finally, I thank the members of the Oversight Committee and the ANDS
                  Secretariat for the preparation of this document.

                  Hamid Karzai President of the Islamic Republic of Afghanistan

                  I. INTRODUCTION
                  Afghanistan emerged in late 2001 as a State and People that were devastated like few other
                  in modern history. The extent of destruction of the country’s physical, institutional, human and
                  social capital left Afghanistan and its international partners with a monumental task: to build a
                  pluralist Islamic State governed by the rule of law, in which all Afghans have the opportunity to
                  live in peace with dignity, to reach their economic potential, to access basic public services and
                  to participate fully as equal citizens.

                  Six and one-half years later, despite considerable progress and sacri¿ce, we have yet to
                  achieve this vision. Along with our international partners, we underestimated the full extent and
                  time required to overcome the obstacles to peace and prosperity. Insecurity, poverty, corruption
                  and the expanding narcotics industry signify that while the challenges facing Afghanistan have
                  changed in nature, they have not necessarily changed in magnitude. The Afghan people will
                  remain handicapped in discovering their full human potential unless a better balance is struck
                  between development, security and political strategies that are sensitive to both Afghan culture
                  and resource constraints. When empowered with appropriate tools, skills, political support, and
                  respect for human rights, the Afghan people—facilitated by their Government and international
                  partners—remain the key to comprehensive recovery and a durable peace.

                  To meet the country’s many challenges and realize the aspirations of the Afghan people,
                  the ¿ve-year Afghanistan National Development Strategy has been prepared after two
                  years of analysis and priority-setting, drawing on extensive national and sub-national
                  consultations. As an Afghan-owned blueprint for progress in all spheres of national life,
                  the ANDS is a Millennium Development Goals-based plan that will serve as the country’s
                  Poverty Reduction Strategy Paper. Fundamental to its successful implementation is the need
                  to invest in critical national capacities, such as education, energy, irrigation, and agriculture,
                  as well as to promote reconciliation, justice and alternative livelihoods. Besides providing a
                  detailed, budgeted strategy for advancing the Government of Afghanistan and international
                  community’s Afghanistan Compact goals, the ANDS is a roadmap for the long-desired objective
                  of ‘Afghanization’ and the transition towards stability, self-sustaining growth, and human
                  development. Translating the Compact’s over-arching goals of peace, inclusive and competent
                  governance, and sustainable socio-economic development into a meaningful impact in the lives
                  of ordinary Afghans requires overcoming the fear of failure; after decades of violence and untold
                  suffering—which has, at times, threatened the outside world—there can be no alternative but to
                  succeed.




              110 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:110                                                                                             10/22/2008 4:50:25 PM
                                                      APPENDIX J – AFGHANISTAN NATIONAL DEVELOPMENT
                                                                                           EXECUTIVE STRATEGY
                                                                                                     SUMMARY




                  II. OUR ACHIEVEMENTS SINCE DECEMBER 2001

                  Beginning in 1380 (December 5, 2001), the Bonn Agreement guided Afghanistan’s
                  transformation towards a new era of democratic self-governance. Shortly after the Bonn
                  meeting, an Interim Authority convened an Emergency Loya Jirga (ELJ), the ¿rst genuinely
                  representative Afghan national forum in decades, and it established a Transitional
                  Administration. In 1383 (2004) Afghanistan adopted its ¿rst Constitution in three decades,
                  laying the political and development foundations for the country. Three rounds of free and
                  fair elections followed. Afghanistan now enjoys a democratically elected President, National
                  Assembly and Provincial Councils. Women constitute 27 percent of the National Assembly, and
                  76 percent of eligible voters participated in the presidential elections.

                  Besides political progress, other signi¿cant achievements since 2001 include: enrolling 6.4
                  million children in primary and secondary education, 35 percent of whom are young girls; the
                  basic package of health services now covers 85 percent of the country with 80 percent of the
                  population immunized; the return of more than ¿ve million Afghan refugees; the rehabilitation
                  of about 12,000 km of roads, including the ring road; the disarmament, demobilization and
                  reintegration of over 63,000 former combatants; the national army and police forces are
                  close to full strength; the core state economic and social welfare institutions have been fully
                  reestablished and are providing valuable basic services; a single uni¿ed currency and national
                  accounts have been established; macro-economic stability, ¿scal discipline, prudent monetary
                  policies, low levels of inÀation, and public ¿nance management systems have been established;
                  commercial banking and telecommunication networks, led by the private sector, are fully
                  operational; and Afghanistan is far less likely to serve as a safe haven for terrorist activities.

                  After the successful completion of the Bonn Agreement, Afghanistan and the international
                  community adopted the Afghanistan Compact, agreed to at the London Conference of 1384
                  (2006). The Bonn Agreement reestablished State institutions; the Afghanistan Compact aims
                  to make them functional. To do so, the Compact sets out ambitious goals for comprehensive
                  state-building with benchmarks for security, governance, and development, including the cross-
                  cutting goals of counter-narcotics and regional cooperation. To implement its obligations under
                  the Afghanistan Compact, the Government of Afghanistan presented its Interim-Afghanistan
                  National Development Strategy, now developed into the full ANDS.

                  III. CURRENT CONDITIONS AND CHALLENGES

                  No other nation has faced, simultaneously, the range and scale of far-reaching challenges
                  with which Afghanistan must now contend. Today, the country remains devastated with a large
                  part of the human, physical and institutional infrastructure destroyed or severely damaged.
                  Afghanistan faces widespread poverty; limited ¿scal resources which impede service delivery;
                  insecurity arising from the activities of extremists, terrorists and criminals; weak governance
                  and corruption; a poor environment for private sector investment; the corrosive effects of a
                  large and growing narcotics industry; and major human capacity limitations throughout both the



                                                        Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 111



SIGAR gpo WW.indd Sec2:111                                                                                             10/22/2008 4:50:25 PM
              EXECUTIVEJSUMMARY
              APPENDIX   – AFGHANISTAN NATIONAL DEVELOPMENT STRATEGY




                  public and private sectors. Meeting the challenges of recovery and rebuilding a country that
                  can provide the basis for sustained economic development will take many years and require
                  consistent international support.

                  Social and economic development will not be achieved unless the insecurity that prevails
                  in some parts of the country is reduced markedly. Despite the efforts by Government and
                  the international community to end terrorists and extremist activity, security has steadily
                  deteriorated since late 1384 (2006). The stabilization of Afghanistan, especially in the south
                  and south-east, remains a necessary but insuf¿cient pre-condition for ANDS implementation.
                  The success and sustainability of the ANDS depends on the ability of Afghanistan to assert
                  the rule of law across the country. However, this requires the establishment of central and sub-
                  national governance structures capable of delivering basic services to all citizens.

                  The dif¿culties in maintaining security contribute signi¿cantly to two closely related issues:
                  increasing corruption in the public sector and the rapid growth of the narcotics industry. There
                  is a consensus that corruption is widespread and growing public corruption represents a
                  major disincentive for private investment, substantially increasing the costs and risks of doing
                  business. The lack of security in some parts of the country has created conditions in which
                  poppy cultivation has Àourished, feeding a growing narcotics industry. The narcotics economy
                  seriously undermines the potential for growth in the licit economy and generates large amounts
                  of illicit money to fund terrorist activities and encourage corruption in the public sector. The
                  country must also address serious shortcomings in the delivery of basic social services,
                  particularly education and healthcare. Literacy rates remain low, particularly in rural areas
                  and among women. The health standards of the Afghan people are also among the lowest in
                  the world. Spending on healthcare per person is only about one quarter of the amount spent
                  elsewhere in the region.

                  The Afghan Government is ¿rmly committed to build a strong, private sector-led market
                  economy. This will provide the foundation for sustainable economic growth and for generating
                  employment. However, several severe limitations in the economic environment must be
                  addressed if these efforts are to succeed:

                  i. The country’s ‘hard infrastructure’, including roads, reliable supplies of water and power, and
                  the entire value chain that links production to domestic and foreign markets, is inadequate to
                  support high levels of economic growth and the poverty reduction bene¿ts that such growth
                  would bring.

                  ii. The corresponding ‘soft infrastructure’, which includes the necessary human and institutional
                  capacity necessary for an economy to function, is largely lacking. Considerable emphasis is
                  being given to developing capacity in both the public and private sectors and to institutional
                  development, but meeting the growth targets of the ANDS will take time.




              112 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:112                                                                                             10/22/2008 4:50:25 PM
                                                     APPENDIX J – AFGHANISTAN NATIONAL DEVELOPMENT
                                                                                          EXECUTIVE STRATEGY
                                                                                                    SUMMARY




                  iii. Economic governance is weak. The Government is pursuing comprehensive economic
                  reform, but the establishment of the institutions and the regulatory framework needed for
                  effective implementation and enforcement will take many years to develop.

                  iv. Afghanistan’s commercial connections to regional and global economies were severely
                  disrupted during the period of political and economic isolation and must be re-established. The
                  development of a competitive private sector will be necessary if Afghanistan is once more to
                  become well integrated within the both the regional and global economies.
                  v. Key markets for land and ¿nance are largely undeveloped, limiting the ability of private
                  investors to establish and operate businesses. Afghanistan has substantial commercial
                  and natural resources that could be more productively employed and, in doing so, would
                  greatly expand opportunities for employment and lead to substantially increased government
                  revenues.

                  The current fragmented and uncoordinated approach to Afghanistan’s reconstruction and
                  development must turn into an integrated and prioritized approach, as outlined in the ANDS.
                  Given that most aid continues to Àow outside the Government’s core budget, improving
                  coordination and aid effectiveness are essential for successful ANDS implementation.

                  IV. PREPARING THE AFGHANISTAN NATIONAL DEVELOPMENT
                  STRATEGY

                  To comprehensively address the security, governance, and development needs of Afghanistan,
                  the Government= has prepared the ¿ve-year Afghanistan National Development Strategy. The
                  ANDS reÀects the Government’s vision, principles and goals for Afghanistan, building on and
                  in support of commitments to reach the Afghanistan Compact benchmarks and the Afghanistan
                  Millennium Development Goals. The Afghanistan Compact represents an international
                  commitment to improve security, governance, and development conditions and opportunities
                  for all Afghans.

                  The ANDS is the product of extensive national, provincial and local level consultations.
                  National consultations involved all major governmental and civil society institutions, including
                  non-governmental organizations (NGOs), cultural associations, religious communities, tribal
                  elders, the private sector, development experts and the international community. Sub-national
                  consultations involved discussions with provincial governors, provincial representative
                  bodies, village councils, parliamentarians from each province, local civil society= leaders,
                  representatives of Provincial Reconstruction Teams (PRTs) and prominent individuals in
                  all 34 provinces. More than 17,000 people, nearly 50 percent of who were women, directly
                  participated in the consultations.

                  The sub-national consultations represented the ¿rst signi¿cant dialogue between the central
                  Government and the provinces, designed to strengthen center-periphery relations. The outcome
                  of the consultations included the formulation of around 18,500 village based development



                                                       Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 113



SIGAR gpo WW.indd Sec2:113                                                                                           10/22/2008 4:50:25 PM
              EXECUTIVEJSUMMARY
              APPENDIX   – AFGHANISTAN NATIONAL DEVELOPMENT STRATEGY




                  plans, leading to 290 district development plans, which were ¿nally consolidated into 34
                  Provincial Development Plans (PDPs). These PDPs identi¿ed needs and key development
                  priorities for each province.

                  In preparing the ANDS, the Government has adopted evidence based policy making—through
                  detailed poverty diagnostic work—to better understand the causes and effects of poverty in
                  all its forms. Based on this analysis, the ANDS serves as a pro-poor growth strategy. By pro-
                  poor, the Government means making investments that have a preferential impact on bringing
                  the poor out of extreme poverty through the adoption of growth enabling policies and targeted
                  social protection investments. Afghanistan aims to achieve pro-poor growth, where the incomes
                  and livelihoods of the poorest rise faster than the average growth of the economy. Key ¿ndings
                  of the Government’s 1386 (2007) National Risk and Vulnerability Assessment (NRVA) indicate
                  that the poverty rate stands at 42 percent (or 12 million people), with per capita incomes of
                  about US$14 per month. Moreover, food Afghanistan National Development Strategy (ANDS)
                  poverty was estimated to affect around 45 percent of Afghans; they are unable to purchase
                  suf¿cient food to guarantee the world standard minimum food intake of 2,100 cal/day.
                  Furthermore, 20 percent were situated slightly above the poverty line indicating a high level of
                  vulnerability.

                  Both the national (top-down) and sub-national (bottom-up) consultations were integrated into
                  the sector strategies, which contributed to the formulation of Sector Wide Approaches and
                  Programmatic Budgeting. The ANDS presents the Government’s development priorities to
                  address the needs of the country within the limits of the Government’s ¿scal framework.

                  V. GOALS OF THE ANDS

                  Pillar 1: Security
                  ANDS Goal: Achieve nationwide stabilization, strengthen law enforcement, and improve
                  personal security for every Afghan.
                  Security in all parts of the country is essential for effective governance, private sector
                  development, economic growth, poverty reduction and the safeguarding of individual liberty.
                  The strategic objective under this pillar is to ensure the security of state, persons and property
                  through the implementation of an integrated and sustainable= defense, security and law and
                  order policy. The Government has developed a National Security Policy to be implemented
                  through the Security Sector Reform (SSR) program. This will strengthen and improve
                  coordination among the Afghan National Security Forces (ANSF), ISAF/NATO and CSTC-A.

                  Challenges
                  Afghanistan still faces a number of serious challenges before it can assume full responsibility
                  for its own security. Terrorism, foreign interference, instability and weak capacity in governance
                  are preventing the Government from establishing effective control in some areas, particularly in
                  the south and southeast. The large scale production of narcotics continues to provide funding
                  for terrorist groups. Land mines and unexploded ordnance remains a signi¿cant threat, with



              114 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:114                                                                                             10/22/2008 4:50:25 PM
                                                      APPENDIX J – AFGHANISTAN NATIONAL DEVELOPMENT
                                                                                           EXECUTIVE STRATEGY
                                                                                                     SUMMARY




                  some ¿ve thousand citizens either killed or wounded in mine explosions since 1380 (2001).
                  Currently only two of the country’s 34 provinces are completely clear of mines.

                  The only practical solution for Afghanistan’s long-term security needs is to enable Afghans to
                  provide for their own security. The sustainability of the Afghan National Security Forces is, in
                  the longer-term, the responsibility of Afghanistan. The Government will assume an increasing
                  share of this burden commensurate with economic growth—the ‘Afghanization’ of the country’s
                  security activities. But until Afghanistan build the economic capacity to completely meet this
                  obligation, the international community must help bridge the gap.

                  Targets

                  1. The Afghan National Army (ANA): The long-term objective for Afghanistan is to build
                  an Afghan National Army capable of maintaining the stability of the country, defending its
                  sovereignty, and contributing to regional security. The ¿nal ¿gure for ANA troop strength to
                  meet these requirements has not been determined by the Government and the international
                  community. However, the 80,000 ¿gure (plus 6,600 in training), which was approved at the
                  February 2008 Joint Coordination and Monitoring Board (JCMB) meeting, is an important
                  milestone and provides a target for the near future. By Jaddi 1389 (end-2010), the ANA will
                  achieve and surpass this milestone, and it will ensure that 75 percent of the ¿eld battalions
                  (kandaks) and brigades are capable of conducting independent operations (with the addition of
                  some external enablers and air support). The ANA will maintain its regional and ethnic balance,
                  and continue to develop its reputation as a respected, accountable and professional force,
                  prepared to meet the security needs of the nation.

                  2. The Afghan National Police (ANP): The long-term objective for the ANP is to build a
                  professional police force that operates within internationally accepted legal standards, with
                  respect for human rights, and is managed by a professional, adequately trained and paid staff
                  able to effectively plan, manage, employ and sustain a national, merit-based police force. It
                  should protect the local population from a terrorist and illegally armed anti-government threat
                  and enforce the rule of law on a country-wide basis. It should be able to transition to traditional
                  policing as conditions on the ground change. By Jaddi 1392 (end-2013) the Ministry of Interior
                  will achieve a target strength of 82,180 professional policemen (including Afghan Border
                  Police). This force will be capable of maintaining domestic order and enforcing the law, and
                  serve under the direction and control of the Ministry of Interior, while remaining responsive to
                  the needs of local communities.

                  3. Disarmament of Illegal Armed Group (DIAG): All illegal armed groups will be disbanded by
                  20 March 2011 in all provinces.

                  4. Removing Unexploded Ordnance: By Jaddi 1389 (end-2010), in line with Afghanistan’s
                  MDGs, the land area contaminated by mines and unexploded ordnance will be reduced by 70




                                                        Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 115



SIGAR gpo WW.indd Sec2:115                                                                                              10/22/2008 4:50:25 PM
              EXECUTIVEJSUMMARY
              APPENDIX   – AFGHANISTAN NATIONAL DEVELOPMENT STRATEGY




                  percent. Ninety percent of all known mine/Explosive Remnants of War (ERW) contaminated
                  areas will be cleared by 1391 (2012). All emplaced anti-personnel mines will be cleared by
                  1391 (2013) in accord with the provisions of the Ottawa Convention.

                  5. Counter-Narcotics: By 2013, the area under poppy cultivation will be reduced by half
                  compared to 007 levels.
                  Priorities

                  Afghanistan’s security sector includes a number of institutions responsible for defending the
                  country, maintaining security and enforcing laws. The ¿rst priority for this security pillar is to
                  increase the capability of the security institutions.

                  The second priority is to ensure that our efforts in the security sector are comprehensive,
                  complimentary and integrated. The Government is fully committed to successfully implementing
                  an integrated and comprehensive national policy and strategy; a robust security sector reform
                  program; strengthening synergies between civil and military operations; increasing the role
                  of security forces in counter-narcotics activities; and strengthening and reforming the civilian
                  components of security entities.

                  The third priority for this sector is the progressive transfer of responsibility for security from
                  their international partners to Afghan forces and institutions. As NATO/ISAF forces step
                  back from direct engagement in security operations, the ANA and ANP will take the lead on
                  operations, and eventually provide the security needs of Afghanistan with partners assuming
                  only support and oversight roles. Meanwhile, the ANA will depend upon ISAF for enablers and
                  force multipliers. An increasingly capable ANA will enable the gradual reduction in international
                  forces with a substantial reduction in the international community’s sacri¿ces. The pace for
                  standing up the Afghan Security Forces is linked directly to the level and speed by which the
                  international community chooses to aid Afghanistan in overcoming current gaps in capability—
                  but Afghanistan is ready to take the ¿rst steps.

                  Pillar 2: Good Governance, Rule of Law, and Human Rights:
                  ANDS Goal: Strengthen democratic practice and institutions, human rights, the rule of
                  law, delivery of public services, and government accountability
                  Improved democratic governance, rule of law, justice and human rights remain vital to
                  supporting our national vision, including poverty reduction and sustained high rates of
                  economic growth. The ANDS strategic objective for this sector is the establishment of a stable
                  Islamic constitutional democracy where the three branches of the State function effectively
                  and inclusively, are held accountable, and uphold the rule of law and basic human rights. The
                  Government aims to provide good governance and measurable improvements in the delivery
                  of services. To achieve these goals it will: (i) establish, reform and strengthen government
                  institutions at the central and sub-national levels with an emphasis on transparency and




              116 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:116                                                                                             10/22/2008 4:50:25 PM
                                                      APPENDIX J – AFGHANISTAN NATIONAL DEVELOPMENT
                                                                                           EXECUTIVE STRATEGY
                                                                                                     SUMMARY




                  competent, results-based management; and (ii) reform legislative processes, including the
                  holding of free and fair elections. The Government will act as a policy maker, regulator, enabler
                  and not a competitor, of the private sector.

                  Challenges

                  While much has been achieved in strengthening the formal and informal structures of
                  governance and the rule of law, as well as extending human rights, considerable challenges
                  still stand in the way of achieving the goals under this pillar. These include: (i) the existence
                  of multiple, parallel structures of state and non-state governance entities; (ii) confusion over
                  center/sub-national governance entities; (iii) weak public sector institutions and underdeveloped
                  governance and administration capabilities; (iv) high levels of corruption; (v) ¿scal uncertainty;
                  (vi) weak legislative development and enforcement; (vii) weak parliamentary oversight;
                  (viii) weak community and civil society institutions; (ix) ineffective and poorly de¿ned justice
                  system; (x) gender inequality; and (xi) underdeveloped human rights enforcement capacities.
                  If signi¿cant improvements in governance are not rapidly achieved it will be dif¿cult to make
                  substantial progress with respect to security, human rights and economic development.

                  Priorities

                  To remedy these weaknesses, the Government will adopt the following measures:

                  Empower the National Assembly: The capacity of the National Assembly will be enhanced so
                  as to improve legislative oversight, transparency and accountability functions.

                  Public Administration Reform (PAR): The objective of the PAR program is to encourage
                  public institutions to perform effectively with a focus on results. The capacity of the civil
                  service will be strengthened, for example through pay and grading restructuring, ensuring and
                  expanding merit based appointments, rationalizing and restructuring government institutions to
                  reÀect core functions and responsibilities, and increasing training and capacity development.

                  Anti-corruption Measures: The Government will focus on reducing administrative corruption
                  at all levels of government and the judiciary, by increasing corruption monitoring, introducing
                  additional programs to further limit potential corruption risks, and strengthening public
                  complaints mechanisms.

                  Enhanced Availability of Information: The Government will increase the amount of
                  information available to the public. The public will have greater access and rights to publicly
                  held information.

                  Enhanced Participation of Women in Government: The Government will ful¿ll its obligations
                  in regard to the implementation of the National Action Plan for Women’s Rights in Afghanistan.




                                                        Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 117



SIGAR gpo WW.indd Sec2:117                                                                                             10/22/2008 4:50:25 PM
              EXECUTIVEJSUMMARY
              APPENDIX   – AFGHANISTAN NATIONAL DEVELOPMENT STRATEGY




                  Effective System of Disaster Preparedness and Response: The Government is committed
                  to increasing its capacity to effectively implement the National Disaster Management Plan.

                  Independent Election Commission (IEC): The capacities of the IEC will be strengthened
                  so that a permanent voter’s registry, electorates and electoral rolls will be established and
                  constitutionally mandated elections at the national and sub-national levels successfully
                  delivered.

                  National Identity Document: The Government will pursue the development of a single
                  national identity document so as to enhance public accountability and transparency and reduce
                  corruption.
                  Geodesic and Cartographic Information: The Government will review village and Gozar
                  boundaries and will complete a national mapping exercise.

                  Census and Statistical Baseline: The Government will undertake the ¿rst national census
                  in 2008 and will establish national and sub-national economic and poverty baselines and will
                  publish results and analysis of data.

                  Land Administration: The Government will establish a modern land registry and management
                  system and a fair disputes settlement process.

                  Local Governance: The Government will develop sub-national governance legislation;
                  increase the people’s participation in sub-national governance structures; empower Provincial
                  Councils; establish legislation to de¿ne the roles of district councils, municipal councils
                  and village councils; promote regular elections for Municipal, District and Village Councils,
                  including mayoral elections; reform sub-national governance structures; build the capacity of
                  the sub-national civil service; institutionalize provincial planning and budgeting; and enhance
                  municipal planning and budgeting capacities. The sub-national activities will be facilitated by
                  the Independent Directorate of Local Governance (IDLG).

                  Communication with and within the Government: The Government will enhance the Àow
                  of information between all government entities related to national policy, strategy and national
                  budget procedures.

                  Religious Affairs: The Government acknowledges the signi¿cant role of Islamic religion in
                  shaping society and in creating systems of social value.

                  Human Rights: The Government will strengthen its capacity to protect the human rights of all
                  Afghans through the development, rati¿cation and enforcement of legislation that is consistent
                  with Afghanistan’s international obligations, such as: Convention against Torture and Other
                  Cruel, Inhuman or Degrading Treatment or Punishment (CAT), Convention on the Elimination
                  of All Forms of Discrimination against Women (CEDAW), and the Convention on the Rights of
                  the Child (CRC). The Government remains committed to the Action Plan on Peace, Justice and



              118 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:118                                                                                           10/22/2008 4:50:25 PM
                                                       APPENDIX J – AFGHANISTAN NATIONAL DEVELOPMENT
                                                                                            EXECUTIVE STRATEGY
                                                                                                      SUMMARY




                  Reconciliation and clarify the institutional responsibilities of all Government entities responsible
                  for improving human rights.

                  The Main Priorities for the Justice Sector are:

                  Improved Institutional Capacity to Deliver Sustainable Justice Services: The Government
                  will reform and restructure judicial institutions; strengthen legal education; develop a judicial
                  records system; enhance administrative capacity; reduce corruption; promulgate codes of
                  ethics; develop a public complaints system; expand judicial services through infrastructure
                  development and procure necessary transportation and equipment.
                  Improved Coordination and Integration within the Justice System and Other State Institutions:
                  The Government will increase coordination and integration with other government institutions
                  and civil society; improve legislation through enhancing capacities of the Taqnin and the
                  National Assembly; establish a National Legal Training Centre; increase opportunities for
                  external stakeholders and civil society to contribute to legal policy development, analysis
                  and legislative drafting; and improve the delivery of justice services in the provinces by
                  strengthening the Provincial Justice Coordination Mechanism (PJCM). The PJCM will assist
                  the Government to systematically expand rule of law beyond Kabul through coordinated and
                  targeted donor programs for technical assistance, training, capacity building, infrastructure and
                  provision of equipment and transportation.

                  Improved Quality Of Justice: The justice sector’s strategic objective is to create an Islamic
                  society in which an impartial and independent judiciary protects the safety and security, religion,
                  property, human rights and Islamic values of its citizens, while respecting liberty, equality before
                  the law and access to justice for all. The Government will: (i) establish an investigation system
                  to reduce delays in the criminal justice processes caused, in part, by the lack of representation
                  and poor case management; (ii) develop sentencing policies; (iii) implement the Juvenile
                  Justice Policy; (iv) develop specialized policy units to address cross-cutting and emerging
                  criminal justice issues; (v) enhance and improve civil court case administration and jurisdiction
                  structures in major litigation categories; (vi) improve links between the formal and informal
                  justice sectors; and (vii) provide oversight to the informal justice sector.

                  Targets

                  1. The Public Administration Reform program will be completed by 2013;
                  2. A substantial reduction in corruption will be achieved by 2013;
                  3. By 2009, the new criminal procedure code will be enacted and published, and for its
                  implementation training with written commentary will be provided to all legal professionals, as
                  well as community legal education for citizens;
                  4. By 2010, all laws, regulations, and other legal instruments will be compiled, indexed,
                  uploaded and maintained on government websites, will be published and distributed to state
                  institutions at all levels, and will be made available to the people nationwide




                                                         Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 119



SIGAR gpo WW.indd Sec2:119                                                                                               10/22/2008 4:50:25 PM
              EXECUTIVEJSUMMARY
              APPENDIX   – AFGHANISTAN NATIONAL DEVELOPMENT STRATEGY




                  5. By 2013, all government agencies and ministries will have improved technical capacity to
                  draft and propose nondiscriminatory legislative and regulatory instruments.

                  Pillar 3: Economic and Social Development:
                  ANDS Goal: Reduce poverty, ensure sustainable development through a private sector-
                  led market economy, improve human development indicators, and make signi¿cant
                  progress toward achieving the MDGs.

                  The Government is committed to policies conducive to a private sector-led market economy
                  that delivers high, sustainable economic growth. Within the ANDS, the Government’s key
                  poverty reduction initiative will be to support the private sector as the most ef¿cient vehicle for
                  increasing employment and incomes. At the same time, the Government recognizes the need
                  to target resources at the poorest and most vulnerable groups, to be achieved through ¿scally
                  sustainable and transparent income transfer policies. Since 2002, the Government has also
                  placed a high priority on attempting to provide health and education services to all Afghans.
                  These policies will continue to be strengthened, in order to improve human development
                  indicators signi¿cantly across Afghanistan
                  .
                  Challenges

                  Although the economy is experiencing high growth rates, Afghanistan faces a number of
                  constraints that must be addressed to ensure long-term economic expansion and poverty
                  reduction. Among the most severe are continuing instability, the poor state of infrastructure,
                  low levels of human capital development and institutional capacity, and the lack of a proper
                  enabling economic environment. At the same time, growth alone is not enough to reduce
                  poverty and improve human development indicators. A major challenge in this pillar is to
                  create an environment where the economy performs to its full potential, while at the same time
                  ensuring that the most vulnerable members of society are not left behind.


                  Targets

                  1. The proportion of people living on less than $1 a day will decrease by 3 percent per year;
                  2. The proportion of people who suffer from hunger will decrease by 5 percent per year;
                  3. The net enrolment in primary school for girls and boys will be at least 60 percent and 75
                  percent respectively by 2010;
                  4. Female teachers will be increased by 50 percent by 2010;
                  5. Seventy percent of Afghanistan’s teachers will have passed a competency test by 2010;
                  6. The under-5 mortality rate will be reduced by 50 percent between 2003 and 2013;
                  7. The maternal mortality ratio will be reduced by 50 percent between 2002 and 2013;
                  8. The Basic Package of Health Services will be extended to cover at least 90 percent of the
                  population by 2010;
                  9. The proportion of people without sustainable access to safe drinking water and sanitation will



              120 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:120                                                                                              10/22/2008 4:50:25 PM
                                                      APPENDIX J – AFGHANISTAN NATIONAL DEVELOPMENT
                                                                                           EXECUTIVE STRATEGY
                                                                                                     SUMMARY




                  be halved by 2020: by 2013, 50 percent of households in Kabul and 30 percent of households
                  in other urban areas will have access to piped water; 90 percent of villages will have access to
                  drinking water and 50 percent of villages will have access to sanitation.

                  Priorities

                  Policies for Enabling a Private Sector-Led Market Economy
                  Three key Government priorities are: (i) to develop the legal framework for the private sector,
                  including the passage and enactment of key commercial laws (Corporations, Partnership,
                  Commercial Arbitration, Commercial Mediation, Contracts, Agency, Standards, Copyrights,
                  Trademarks, and Patents); (ii) to create a regulatory framework to support their implementation;
                  and (iii) to improve enforcement of the legal and regulatory frameworks. The Government will
                  also ensure that the laws appropriately reÀect the Afghan societal context and are implemented
                  fairly and consistently to provide greater predictability to investors.

                  The Government will strengthen economic governance within the framework of the Policy for
                  Private Sector Growth and Development1, including: (i) clarifying institutional responsibilities
                  and mechanisms for reforming the business environment; (ii) strengthening the Ministry of
                  Commerce and Industry, the Afghanistan Investment Support Agency, and the legal system to
                  effectively regulate and resolve disputes; and (iii) improving access to land, including measures
                  to clarify property rights, to simplify procedures for the transfer of titles, and to ensure the
                  availability of longer-term leases. Major procedures for business operations (registration,
                  licensing, permissions, border operations, custom clearance and payments) will continue to be
                  streamlined to reduce transaction costs.

                  The Government attaches a high priority to the privatization and corporatization of key state-
                  owned enterprises. This will include the corporatization and increasing the ef¿ciency of the
                  national electricity authority Da Afghanistan Brishna Mowasesa (DABM). The Ministry of
                  Finance has prepared a list of all state-owned enterprises that will be privatized or liquidated
                  over the course of next three years. Fair access to markets for new private sector competitors
                  will be encouraged by all relevant government bodies.

                  The Government is committed to pro-trade policies maintaining low trade barriers for imports
                  and exports that take into account domestic revenues and the need to support increased
                  domestic production by the private sector. It is important to strengthen certain competitive
                  industries where Afghanistan possesses a comparative advantage. The Ministry of Finance
                  will be responsible for setting the tariff regime, in consultation with relevant stakeholders.
                  The Government’s top priority will be to improve trade and commercial relations with regional
                  countries, taking advantage of Afghanistan’s strategic location in the region by adopting policies
                  and procedures that facilitate and promote transit and trade. In the short-term, the Government
                  will focus on ensuring that custom regulations are consistently applied and that the average
                  time required for the import and export of goods continues to decline and eventually reaches




                                                        Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 121



SIGAR gpo WW.indd Sec2:121                                                                                             10/22/2008 4:50:25 PM
              EXECUTIVEJSUMMARY
              APPENDIX   – AFGHANISTAN NATIONAL DEVELOPMENT STRATEGY




                  the regional average. The Government remains committed to gaining accession to the World
                  Trade Organization.

                  The ¿nancial system, including banking and micro¿nance, has been growing rapidly; however,
                  ¿nancial intermediation remains low. Only a small segment of the population has access to
                  formal ¿nancial services. Building a strong and responsive ¿nancial sector will remove one
                  of the key bottlenecks to efforts within the private sector to increase productive capacity and
                  enhance domestic production.

                  The Government’s top priorities for the ¿nancial sector will be to strengthen the legal framework
                  by passing and implementing four pending ¿nancial sector laws (Secured Transactions,
                  Mortgages, Leasing, and Negotiable Instruments) and to strengthen the enforcement of prudent
                  regulations in the banking sector. The next priority will be to increase the offering of ¿nancial
                  services in rural areas and to small and medium enterprises (SMEs). The Government will
                  implement the restructuring and eventual privatization strategies of Bank Millie and Pashtany
                  Bank. Over the medium-term, the Government will seek to establish both a credit information
                  bureau and a ¿nancial dispute resolution tribunal; it will further seek to implement an adequate
                  insurance law to encourage the development of these key ¿nancial sector components.

                  Infrastructure and Natural Resources
                  Despite the rapid development of this sector over the past few years, Afghanistan’s
                  infrastructure still lags substantially behind that of its neighbors. The poor state of the roads
                  and lack of reliable power, in particular, are major bottlenecks preventing the growth of private
                  industry and trade. The Government’s public expenditure policy will target infrastructure
                  investments as a key priority in order to stimulate private investment and domestic production,
                  increase employment and incomes, and reduce poverty.

                  Energy
                  The development of the energy sector is a key precondition for reducing poverty and
                  strengthening private sector and rural development. The ANDS strategic objective for the
                  energy sector strategy is the provision of reliable, affordable energy based on market-based
                  private sector investment and public sector oversight by investing in Afghanistan’s own sources
                  of energy. Core targets over the medium-term for national development include: (i) electricity
                  will reach at least 65 percent of households and 90 percent of non-residential establishments in
                  major urban areas and at least 25 percent of households in rural areas; (ii) at least 75 percent
                  of the costs will be recovered from users connected to the national power grid; and (iii) a
                  strategy for the development and use of renewable energies.

                  Currently, Afghanistan is severely de¿cient in electricity generating capacity; it relies on power
                  purchase agreement with neighboring countries. Today it is estimated that less than 20 percent
                  of the population have access to public power (grid-supplied), but only on certain days and for
                  limited number hours. Successfully implementing major infrastructure projects, such as Kokcha,
                  Kunar, Baghdara, Gulbahar, Sorubi II and Sherberghan gas and oil ¿elds, are essential to



              122 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:122                                                                                             10/22/2008 4:50:25 PM
                                                       APPENDIX J – AFGHANISTAN NATIONAL DEVELOPMENT
                                                                                            EXECUTIVE STRATEGY
                                                                                                      SUMMARY




                  securing Afghanistan’s energy future. Other key elements of the strategy include: (i) expansion
                  of the public power grid through the rehabilitation and upgrading of Kabul and other key
                  infrastructure areas (i.e., distribution – lines, substations, meters); the development of the North
                  East Power System (NEPS) to be followed by the South East Power System (SEPS), Western
                  and Eastern Power Systems; (ii) increasing access to rural energy services through the
                  promotion of micro-hydro, solar, waste and small diesel power and energy generating sources.
                  Commercial operation of these services will be encouraged and technical standards will be
                  established to ensure cost-recovery, sustainability and safety. (iii) Improving the ef¿ciency and
                  cost recovery of existing operations through the corporatization of DABM; and (iv) improve
                  sector governance by consolidating planning and coordinating actions among all stake-holders
                  through the Interministerial Commission for Energy.

                  The expected outcome of the strategy is greater access and reliability in electricity supplies
                  throughout the country, based on increased utilization of domestic energy resources and
                  imports. The Government seeks to create a strong enabling environment for private sector
                  investment in energy production and in the distribution and sale of electricity. Reducing poverty
                  and expanding employment and entrepreneurial opportunities in rural areas hinge on the
                  extension of electricity through both the private sector and public investment in various off-grid
                  projects.

                  Agriculture and Rural Development
                  The ANDS strategic objective for agriculture and rural development strategy is to attract private
                  sector investment to transform agriculture to a high-value commercial agriculture sector as
                  a source of growth and expansive means of livelihood. The Government will implement a
                  coordinated agricultural and rural development program targeting two broad goals: (i) poverty
                  reduction and (ii) the provision of alternative livelihoods. The Comprehensive Agriculture and
                  Rural Development (CARD) Sector Strategy articulates a road map for the way forward in which
                  poverty reduction through economic regeneration is the central objective. The overall focus is
                  to support the poorest and most vulnerable segments of rural society. Of great importance, with
                  increasing efforts towards poppy eradication, the rapid expansion of largely agricultural based
                  activities will be more essential than ever to limit the numbers of marginal small holders falling
                  below the poverty line. Investments to generate alternative livelihoods will be key in this regard.

                  Most farmers are engaged in subsistence or near-subsistence agriculture, and many farming
                  families remain food insecure and therefore face risky livelihoods often combined with
                  chronic debt. As a result, the country’s vulnerability to natural disasters and food shortages
                  has increased. The Agriculture and Rural Development Strategy sets out a series of programs
                  designed to achieve improved quality of life for rural citizens – one in which food security is
                  assured, basic services are provided, incomes increase with households actively engaged in
                  legal activities, employment opportunities expand and where people live in a safe and secure
                  environment. Activities are usefully grouped into two main components: a Comprehensive
                  Agriculture and Rural Development and the Agricultural and Rural Development Zone (ARDZ)
                  initiatives.



                                                         Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 123



SIGAR gpo WW.indd Sec2:123                                                                                               10/22/2008 4:50:25 PM
              EXECUTIVEJSUMMARY
              APPENDIX   – AFGHANISTAN NATIONAL DEVELOPMENT STRATEGY




                   The ¿fteen programs that will provide the vehicles for reaching the objectives of the CARD
                  strategy are as follows: National Solidarity Program, National Food Security Program, National
                  Area Based Development Program, CARD horticulture program, CARD livestock program,
                  National Rural Access Program , Rural Water Supply and Sanitation Program, CARD
                  Irrigation Program, CARD National Resource program, National Surveillance System, Rural
                  Electri¿cation program, rural Enterprise program, research and Extension System, the Card
                  Emergency Response System, and the CARD Capacity Building program.

                  Transportation
                  The ANDS strategic goal for the transport sector strategy is to achieve a safe, integrated
                  transportation network that ensures connectivity and that enables low-cost and reliable
                  movement of people and goods within Afghanistan as well as to and from foreign destinations.
                  With the upcoming completion of the Regional Highway System, high priority will be given to
                  improving 5,334km of secondary (national and provincial) roads and improving or building
                  6,290km of rural access roads as a key to raising rural livelihoods and reducing poverty
                  and vulnerability in rural areas. Municipal transportation management will be strengthened
                  to improve urban road quality, road network maintenance, road network planning, and
                  transportation facilities and services. The Government will implement a comprehensive
                  Operations and Maintenance (O&M) system, ensuring sustainability of O&M costs.

                  In addition, other major transportation priority initiatives to be undertaken include: (i) the
                  New Kabul Airport; (ii) the Rehabilitation of Kandahar, Mazar-i-Sharif and Herat Airports; (iii)
                  the building of new regional airports; (iv) the development of the railroad project; and (v) the
                  entering into of new Transit Agreements with neighboring countries: these agreements will
                  help to reduce the transit time for moving goods across borders. By end-2010, Afghanistan
                  and its neighbors will also achieve lower transit times by means of more cooperative border
                  management. Programs are now underway to ensure that Afghanistan’s international airport,
                  its other
                  principal airports and the civil aviation authorities conform to the requirements of the ICAO
                  and IATA, including establishing a new Civil Aviation Authority to promote air transport in a
                  competitive environment.

                  Mining
                  The extraction of natural resources is expected to make a major contribution to GDP and export
                  growth, as well as to the government revenues. The ANDS strategic objectives for the mining
                  sector are (i) to attract increased private investment; (ii) to promote and regulate sustainable
                  development of mineral resources; and (iii) to ensure that the nation’s geological resources are
                  properly surveyed and documented. This will be done through the establishment of a legal and
                  regulatory environment that will encourage and assist private sector development of mining
                  resources. A notable early success in the mining sector is the recently signed agreement for the
                  largest foreign direct investment in the country to date—the leasing of the Aynak copper mine,
                  for an estimated $2.8 billion investment.




              124 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:124                                                                                           10/22/2008 4:50:26 PM
                                                        APPENDIX J – AFGHANISTAN NATIONAL DEVELOPMENT
                                                                                             EXECUTIVE STRATEGY
                                                                                                       SUMMARY




                  As key priorities in the mining sector, the Government will: (i) work to maximize the ¿scal
                  returns and economic linkages of natural resource extraction; (ii) establish a transparent
                  and capable management system for the sector; (iii) provide a supportive environment for
                  investment in the sector by ¿nalizing and implementing various laws and regulations; and (iv)
                  determine the extent of mineral resources in the country, with the objective of developing a
                  long-term sustainable and environmentally-sound strategy. Success in attracting investment in
                  mining operations will give investors con¿dence in the country’s legal and regulatory system,
                  opening the door to investments in other sectors.
                  Water Resources Management
                  The Government will implement the integrated Water Resources Management and river basin
                  management approaches to planning and developing water resources in the short and medium-
                  term. The ANDS strategic goal is to manage and develop the water resources in the country, so
                  as to reduce poverty, increase sustainable economic and social development, and improve the
                  quality of life for all Afghans and ensure an adequate supply of water for future generations.

                  Agriculture accounts for 95 percent of water consumption. In the 1970s, some 3.6 million
                  hectares were cultivated using various irrigation methods, at present only about 1.3 million
                  hectares of land are being irrigated. Of this, only 10 percent is being irrigated using properly
                  engineered systems with the remainder dependent on traditional irrigation methods, some of
                  these based on run-offs from or use of aquifers that are being degraded by deep water wells
                  and insuf¿cient investment in recharge basins. Irrigated land has three times the productivity
                  of rain-fed land. Out of 8.3 million hectares of arable land in Afghanistan, 5.8 million hectares
                  is potentially irrigable. Irrigation water management is one of the highest priorities of the
                  Government. Signi¿cant investment has gone into rehabilitating damaged or degraded irrigation
                  systems, but little has been done in terms of making new investments needed to increase
                  ef¿ciency in water use and new water supply. One of the highest priorities of the Government is
                  developing irrigations dams, such as the Kokcha, Gambiri, and Kama dams.

                  The rehabilitation of traditional and existing irrigation structures will remain an important priority
                  and will deliver much-needed quick returns in terms of increasing agricultural production
                  and reducing poverty rates among rural households. To address the large gap in access to
                  drinking water and sanitation services, the Government will give high priority to the provision of
                  rural water supply and sanitation projects. In the medium to longer-term, the Government will
                  complete hydrological surveys and build new dams with the aim of reclaiming agricultural land.

                  Information and Communications Technology (ICT)
                  The ANDS strategic goal for this sector is to provide equitable access for 80 percent of the
                  country and for most populated areas to be covered by 1389 (2010). The priorities of the ICT
                  sector will be to ¿nalize the Fiber Optic Cable and Copper Cable Network projects, expanding
                  access to high-speed data services throughout the country, and extending mobile phone
                  coverage. The implementation of national ICT legislation, to create an enabling environment for
                  the development of the sector, will be necessary to stimulate further private-sector investment.
                  The ICT Council, through the Ministry of Communication and Information Technology (MCIT),



                                                         Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 125



SIGAR gpo WW.indd Sec2:125                                                                                                 10/22/2008 4:50:26 PM
              EXECUTIVEJSUMMARY
              APPENDIX   – AFGHANISTAN NATIONAL DEVELOPMENT STRATEGY




                  will work to expand government capacity, improve governance, and reduce corruption, by
                  pursuing moves toward e-government. The private-sector is expected to make additional large
                  investments in the telecommunication sector.

                  Urban Development
                  Effective management of the rapid urbanization process will make a signi¿cant contribution to
                  the recovery of the country. Through the ANDS PDP process, eight major City Development
                  Plans were developed. The ANDS strategic objective is to ensure increased access to improved
                  services and affordable shelter, while promoting sustainable economic growth through the
                  implementation of the National Urban Program, which includes the National Land Policy
                  and the City Development Plans. Outcomes will include: (i) strengthened municipal capacity
                  to manage urban development and deliver services; (ii) improved institutional coordination
                  and monitoring of key urban indicators; (iii) increased access to basic services for urban
                  households; (iv) phased regularization of tenure for 50 percent of households living in informal
                  settlements; (v) upgrading public services and facilities, including new urban area development
                  including the development of a new city on the Deh-Sabz north of the existing city of Kabul;
                  (vi) increased availability of affordable shelter, including a 50 percent increase in numbers of
                  housing units and 30 percent increase in area of serviced land on the market, coupled with
                  access to affordable ¿nance; and (vii) improved urban environment with green areas and open
                  spaces.

                  A major challenge facing rapid urban development will be to adopt systems where urban taxes
                  and cost recovery funds the provision of ef¿cient government services. This will expand the
                  scope for increased private sector provision of urban services, with funding still partially coming
                  from the public sector to cover costs for those living in poverty. To alleviate urban sprawl,
                  zoning and new city planning management capacities will be strengthened.

                  Education
                  The Government aims at having a well-educated nation. Since 2002, the Government has
                  invested heavily in the education sector and has attained progress toward the ultimate goals
                  of educating all of Afghanistan’s children, reducing illiteracy, and creating a skilled labor force.
                  The Government is committed to meeting the Millennium Development Goals, and the primary
                  education objective for the ANDS is to keep Afghanistan on track for their timely attainment.

                  The Government aims to increase literacy, improve quality of education, expand the capacity
                  of the education system to absorb more students, increase equal access to education for all,
                  improve opportunities for and quality of higher education, and expand the capacity and improve
                  the quality of vocational education and skills building.

                  The provision of basic education and reducing illiteracy rates will remain the top priority
                  for the Government throughout the life of the ANDS. The Government is committed to
                  implement the priority programs endorsed in the National Education Strategic Plan, including:
                  (i) general education (targeting a 60 percent and 75 percent enrolment rate for girls and



              126 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:126                                                                                               10/22/2008 4:50:26 PM
                                                        APPENDIX J – AFGHANISTAN NATIONAL DEVELOPMENT
                                                                                             EXECUTIVE STRATEGY
                                                                                                       SUMMARY




                  boys, respectively); (ii) improved teacher education and working conditions; (iii) education
                  infrastructure rehabilitation and development; (iv) curriculum development and learning
                  materials; (v) Islamic education; (vi) technical and vocational education and training; (vii) literacy
                  and non-formal education; and (viii) reform and development of education administration.

                  The next priority is to improve the quality and management of education through devolving
                  responsibility for the delivery of education services to local authorities while strengthening
                  the monitoring and strategic planning capacity of the Ministry of Education, Ministry of Higher
                  Education, and Ministry of Labor and Social Services. The key priority in the vocational training
                  subsector is to align vocational training and skills development programs with the needs of
                  the economy through improved coordination and implementation capacity at the National
                  Vocational Education and Training Board (NVETB).

                  Culture and Media
                  The culture and media sector vision is (i) to foster the continued expansion of a free and lively
                  media that is independent and accessible to women and men throughout the country; (ii) to
                  preserve and protect the cultural heritage of Afghanistan; and (iii) to foster cultural creativity.

                  Major goals for this sector include the documentation of unregistered historical monuments and
                  archaeological sites and the restoration and protection of vulnerable locations; the adoption
                  of new media legislation to support independent and open media; the expansion of media
                  throughout the country; and the continuation of efforts to recover stolen artifacts through
                  international and bilateral relations.

                  Health and Nutrition
                  By all measures, the people of Afghanistan suffer from poor health. Afghanistan’s health
                  indicators are near the bottom of international indices, and fare far worse, in terms of their
                  health, than any other country in the region. Life expectancy is very low, infant, under-¿ve
                  and maternal mortality is very high, and there is an extremely high prevalence of chronic
                  malnutrition and widespread occurrence of micronutrient de¿ciency diseases.

                  The overarching priority of the health sector is to address priority health issues through a
                  universal coverage of a Basic Package of Health Services (BPHS). The Government will
                  continue to implement the BPHS and will strengthen the referral network that links patients into
                  the hospitals that provide the Essential Package of Hospital Services (EPHS). Speci¿cally, the
                  Government will focus on strengthening reproductive health services, particularly in the areas of
                  safe motherhood and family planning; improving the nutritional status of mothers and children;
                  and controlling communicable diseases, recognizing their adverse impact on the health of
                  all Afghans. To support these speci¿c health interventions, the Government has developed a
                  comprehensive program of institutional development for health services, designed to organize,
                  manage and monitor the national health system to reduce inequity and improve ef¿ciency,
                  effectiveness, quality of care and accountability at all levels.




                                                         Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 127



SIGAR gpo WW.indd Sec2:127                                                                                                 10/22/2008 4:50:26 PM
              EXECUTIVEJSUMMARY
              APPENDIX   – AFGHANISTAN NATIONAL DEVELOPMENT STRATEGY




                  The ANDS strategic objectives include achieving the following Afghanistan Compact and the
                  Millennium Development Goals: by end-1389 (2010), in line with Afghanistan's MDGs, (i) the
                  Basic Package of Health Services (BPHS) will be extended to cover at least 90 percent of
                  the population; (ii) maternal mortality will be reduced by 15 percent; and (iii) full immunization
                  coverage for infants under-5 for vaccine-preventable diseases will be achieved and their
                  mortality rates reduced by 20 percent; (iv) to reduce by 50 percent, between 1382 (2003) and
                  1394 (2015), the under-¿ve mortality rate, and further reduce it to one third of the 1382 (2003)
                  level by 1400 (2020); (v) to reduce the maternal mortality rate by 50 percent, between 1381
                  (2002) and 1394 (2015), and further reduce by an additional 25 percent of the 1381 (2002)
                  level by 1400 (2020); (vi) and reverse the spread of HIV/AIDS by 1400 (2020); and (vii) to halt
                  and begin to reverse the incidence of malaria and other major diseases by 1400 (2020).

                  Social Protection
                  The household survey data reÀects Afghanistan’s high rate of poverty and vulnerability to
                  consumption shocks, particularly sudden food price increases. While strong economic growth is
                  a necessary precondition for poverty reduction, it is not suf¿cient to ensure an improvement in
                  the poverty pro¿le. To ensure quality growth, the Government will pursue income and transfer
                  policies that are ¿scally sustainable and target assistance at the poorest and most vulnerable
                  society groups, in line with Afghanistan’s Islamic traditions and values.

                  Fiscally sound and well-targeted social protection interventions are of critical importance
                  for improving poverty outcomes. The Government is committed to pursuing sustainable
                  income and transfer policies through pension reform and programs focused on the extreme
                  poor; allocating adequate resources to the poorest areas through nationwide programs and
                  productive safety net programs; phasing out non-targeted subsidies, such as energy subsidies;
                  and building the planning and administrative capacity of the Ministry of Labor and Social Affairs
                  to deliver coordinated programs in employment generation and social protection.

                  The Government will provide humanitarian support for Afghans affected by natural disasters,
                  insecurity, and the return from refugee status in neighboring countries. Up to 2.5 million
                  additional Afghan refugees could return during the life of the ANDS. The capacity to absorb
                  such an inÀux is uncertain and may require substantial international intervention in order to
                  prevent the diversion of limited assets and resources. The Ministry for Refugees and Returnees
                  will coordinate the provision of support programs for refugees and returnees implemented
                  through other ministries. The Afghan National Disaster Management Authority will coordinate
                  the Government’s preparedness for natural disasters and humanitarian situations.

                  Cross Cutting Issues
                  The ANDS is underpinned by ¿ve vital cross-cutting issues where coordinated action is needed
                  across pillars and sectors. They are inter-related and together pose a serious challenge to the
                  successful implementation of the ANDS and the achievement of Afghanistan’s MDGs. The
                  Government is committed to decisive action in tackling these challenges, in cooperation with its
                  international partners.



              128 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:128                                                                                             10/22/2008 4:50:26 PM
                                                       APPENDIX J – AFGHANISTAN NATIONAL DEVELOPMENT
                                                                                            EXECUTIVE STRATEGY
                                                                                                      SUMMARY




                  Counter-narcotics
                  One of the major objectives of the ANDS is to lay out a strategy for the elimination of the
                  narcotics industry, which represents a formidable threat to the country, the region, and beyond.
                  The Government is committed to halving the total area under poppy cultivation by 2013, as
                  measured against 2007. The Government’s plan for 1387 (2008) includes the eradication of
                  50,000 hectares of poppy ¿elds.

                  Those who are engaged in the narcotics industry are opposed to any gain in the Government’s
                  legitimacy or stability for the country. They provide funding for terrorist activities and fuel
                  corruption. The National Drugs Control Strategy (NDCS) is the Government’s main response
                  to the ¿ght against narcotics. It outlines eight interlinked pillars that lead efforts to reduce drug
                  production, traf¿cking, and consumption. The eight pillars address: (i) alternative livelihoods, (ii)
                  building institutions, (iii) information campaign, (iv) drug law enforcement, (v) criminal justice,
                  (vi) eradication, (vii) drug demand reduction and treatment of drug addicts, and (viii) regional
                  cooperation. The NDCS will continue to be reviewed and updated during the lifetime of the
                  ANDS.

                  A key element of the NDCS is moving towards a provincial based approach to counter-narcotics
                  activities. While the Ministry of Counter-Narcotics will assume the leadership role, the IDLG,
                  MRRD, Provincial Development Council and Provincial Governors will be increasingly involved
                  in both the planning and implementation of counter-narcotics activities. One of the main points
                  of the provincial based approach is that the governors will be given the appropriate incentives
                  to deliver on counter-narcotics and their performance will be judged by how well they succeed.

                  Other priorities include measures to increase the effectiveness of alternative livelihood
                  programs by targeting their funding, administration, and delivery channels, as well as reform of
                  the Counter-Narcotics Trust Fund (CNTF), with the aim of increasing Afghan management and
                  improving its ef¿ciency and effectiveness.

                  Anti-corruption
                  The perceived high level of corruption is a major roadblock to development and better
                  governance. The ultimate objective of the Government’s anti-corruption strategy is a
                  public administration that operates with integrity and accountability to provide an enabling
                  environment for economic and social development, based upon the rule of law, impartiality in
                  political decision making, the proper management of public resources, the provision of ef¿cient
                  services and the active engagement of civil society and the private sector.

                  The Government’s anti-corruption strategy and roadmap are focused on achieving clear
                  progress in reforming public administration and judicial systems as well as implementing
                  measures in the counter narcotics strategy. Speci¿cally, the Government strives to: (i) amend
                  and adapt legislation and procedures to prevent opportunities for corruption; (ii) reform complex
                  organizational structures which lead to opportunities for corruption; (iii) simplify and streamline
                  government functions and procedures; (iv) remove corrupt of¿cials and implement merit based



                                                         Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 129



SIGAR gpo WW.indd Sec2:129                                                                                                10/22/2008 4:50:26 PM
              EXECUTIVEJSUMMARY
              APPENDIX   – AFGHANISTAN NATIONAL DEVELOPMENT STRATEGY




                  recruitments; (v) reform and strengthen audit procedures and increase control of ¿nancial and
                  administrative transactions; and (vi) ensure adequate salaries and incentives for civil servants.

                  The Government recognizes that a balanced and sequenced approach to ¿ghting corruption,
                  making use of different instruments, strengthening their enforcement and evaluating their
                  effectiveness is essential. Prevention, detection, prosecution, and sanctions, as well as
                  awareness-raising are all components of this strategy. The Government will focus particularly
                  on ensuring that the institutions, systems, and processes, including in public service delivery,
                  are working well enough to minimize vulnerabilities to corruption. Measures to increase the
                  transparency and accountability of government operations to external bodies such as the
                  National Assembly, media and civil society will also be designed.

                  Capacity Development
                  Capacity – human and institutional - is a major constraint facing all aspects of the
                  implementation of the ANDS. Low capacity leads to wastage, underutilization of resources,
                  inef¿cient and ineffective interventions, and suboptimal outcomes. The Government will build
                  the institutional mechanisms to support capacity development, mainly in the public sector,
                  but where appropriate, supporting institutions and initiatives will also enable the private
                  sector to participate and bene¿t from these mechanisms, such as National Vocational and
                  Education Training Board (NVETB). The institutional responsibility will be with Inter-ministerial
                  Commission for Capacity Development (ICCD) that will serve as a single reporting point for
                  both government and donors. The ICCD will provide a coordinated approach to support the
                  effective management of funds and aid Àows, cutting down on duplication and ensuring that
                  capacity development needs are met in time and in an incremental but sustainable manner.

                  The Government is working on a comprehensive program to increase the capacity of public
                  sector institutions and employees, in the context of the Public Administration Reform process.
                  ANDS capacity development priorities include a comprehensive training and skills development
                  scheme for civil servants; the establishment of the National Civil Service Training Centre;
                  the management of international technical assistance to ensure accelerated and sustainable
                  transfer of skills and expertise; the injection of short-term capacity through the Management
                  Capacity Program (MCP).

                  Gender Equity
                  An important precondition for the success of Afghanistan’s development goals is the reversal of
                  women’s historical disadvantage in Afghan society. The Government’s vision is a peaceful and
                  progressive nation where women and men enjoy security, equal rights, and opportunities in all
                  spheres of life. The Government is committed to ful¿lling its obligation to women’s development
                  as embodied in the Constitution, the MDGs, the Afghanistan Compact, and international
                  treaties. The ANDS provides a framework for mainstreaming gender interventions across
                  sectors so as to address women’s position in the society, their socio-economic condition, and
                  access to development opportunities. The implementation of the strategy for gender equity is
                  a shared responsibility among government entities at the national and sub-national levels. The



              130 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:130                                                                                            10/22/2008 4:50:26 PM
                                                        APPENDIX J – AFGHANISTAN NATIONAL DEVELOPMENT
                                                                                             EXECUTIVE STRATEGY
                                                                                                       SUMMARY




                  Ministry of Women’s Affairs, as the lead agency for women’s advancement, will be strengthened
                  to enable it to take on the role of coordinating and monitoring the outcomes of Government
                  interventions.

                  Environment
                  The environment is a cross-cutting issue that underpins the entire social and economic
                  development framework for the country. The Government’s chief goal regarding the environment
                  is to improve the quality of life for the people of Afghanistan through conservation, protection,
                  and improvement of the country’s environment, as well as to ensure the sustainability of
                  development efforts for future generations. As a top priority, the Government will strengthen
                  the capacity of the National Environmental Protection Agency (NEPA) to perform its regulatory,
                  coordination, and oversight functions, and the capacity of line ministries to actively address
                  environmental considerations in their program designs. Another short-term priority is to make
                  operational and fully deploy the Environmental Impact Assessment (EIA) system, jointly by
                  NEPA and line ministries, which will allow for the adequate monitoring of the environmental
                  impacts of development projects.

                  Regional Cooperation
                  Afghanistan occupies a key strategic location linking Central Asia with South Asia, providing
                  China and the Far East with a direct trade route with the Middle East and Europe. At the
                  moment, Afghanistan also faces a security threat that has region-wide implications and that can
                  only be addressed effectively by region-wide cooperation.

                  Developing the opportunities arising from this strategic location as a ‘land bridge’ between
                  Central and South Asia, and the Middle East and the Far East will contribute to regional stability
                  and prosperity, as well as increased investment and trade. The Government’s key priorities are:
                  (i) to increase and deepen Afghanistan’s participation and leadership in bilateral and region-
                  wide initiatives and agreements that facilitate transit, transport, and investment in the region; (ii)
                  to promote cross-border initiatives for the equitable exploitation of shared resources of hydro
                  power; (iii) to facilitate the voluntary return of refugees; and (iv) extend regional cooperation
                  on border management to better align efforts against organized cross-border crimes, such as
                  traf¿cking in drugs and weapons. The Government recognizes that it cannot achieve its goals
                  with regards to improving security without close cooperation from regional partners, particularly
                  Pakistan.

                  VI. MACROECONOMIC FRAMEWORK

                  High, sustainable and quality economic growth is the major driving force for poverty reduction
                  and employment creation. Recent high growth performance has been supported by the
                  government’s prudent ¿scal and monetary policies and a stable exchange rate. However,
                  Afghanistan’s high growth rate has thus far not contributed suf¿ciently to poverty reduction and
                  employment creation, and it has been driven to a large degree by the inÀux of foreign aid—a
                  situation which carries its own macroeconomic risks.



                                                         Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 131



SIGAR gpo WW.indd Sec2:131                                                                                                 10/22/2008 4:50:26 PM
              EXECUTIVEJSUMMARY
              APPENDIX   – AFGHANISTAN NATIONAL DEVELOPMENT STRATEGY




                  The ANDS has been developed to articulate the Government’s policies for reducing poverty
                  and improving development outcomes—which will rely heavily on maintaining macroeconomic
                  stability and cultivating sources of growth, particularly in the private sector. The ANDS will
                  also contribute to ¿scal sustainability through its importance in the successful completion
                  of the HIPC debt relief process and raising domestic revenue. To support the successful
                  implementation of the ANDS, the Government will rely on the Medium-Term Fiscal Framework
                  to de¿ne a sustainable ¿scal trajectory for Afghanistan. Da Afghanistan Bank (DAB) will
                  continue to target low inÀation and maintain the current stable exchange rate regime.
                  The Government is committed to the creation of a strong private sector-led economy, despite
                  current constraints. Although this means that there is still substantial scope for public/donor
                  investment in the short-term, in the medium to longer term, private investment is expected
                  to contribute signi¿cantly to growth. In turn, increased economic growth will lead to higher
                  government revenues that will bene¿t the poor by addressing inequality, enabling the
                  Government to increase social services and creating jobs in the growing private sector. Given
                  that this will take time, the Government will continue to engage in social protection programs
                  for the most vulnerable segments of the population.

                  The Government is determined to assist the private sector to develop its competitiveness and to
                  substantially increase the volume of domestic production. At present, Afghanistan’s exports are
                  very low by regional standards, dominated by dried fruit and carpets. However, in recent years
                  a number of new manufacturing industries have begun to emerge, some with demonstrated
                  export potential, such as production dairy products, honey, cement, sunÀower products, glass,
                  sugar beet, olive oil, cashmere, and Àowers and Àoral essences. The Government will seek
                  ¿rm-level technical assistance to increase the ability of ¿rms in these and other new industries
                  to compete more effectively in potential export markets.

                  Anticipated large scale development of copper, natural gas, petroleum, and precious minerals
                  will contribute substantially to export growth, which is projected to grow at 16-18 percent per
                  year during the lifetime of the ANDS. Private sector growth will also support export expansion.
                  The Government is committed to increasing export volumes and moving toward higher value-
                  added exports. The improvement of the enabling environment for the business sector – a key
                  government priority—will contribute to improving competitiveness and support export growth.
                  Expansion in the mining sector and the resulting growth of mining-related exports are expected
                  to be a signi¿cant source of economic growth, alongside increasingly high-value agricultural
                  activities—both of which will increase employment.

                  Prudent ¿scal policy will remain the central policy tool for macroeconomic stability and public
                  resource allocation. The medium-term ¿scal sustainability objective of the Government is to
                  cover recurrent expenditure with domestic revenue sources. The operating budget balance
                  (excluding grants) is projected to improve from a de¿cit of 4.0 percent of GDP in 1386
                  (2007/08) to a balanced budget in 1391 (2012/13). Prudent debt management will continue
                  to be essential as Afghanistan moves towards ¿scal sustainability. The Government will utilize
                  limited amounts of concessional debt to ¿nance speci¿c project and program requirements.



              132 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:132                                                                                           10/22/2008 4:50:26 PM
                                                      APPENDIX J – AFGHANISTAN NATIONAL DEVELOPMENT
                                                                                           EXECUTIVE STRATEGY
                                                                                                     SUMMARY




                  In the short to medium-term, the top priority for public expenditure will be investments to
                  improve national security and infrastructure necessary to stimulate private enterprise and
                  greater productivity. Although improved national security is the highest priority of the ANDS,
                  it is expected that the majority of expenditure in this sector will be ¿nanced by external
                  assistance over the duration of the ANDS. Public expenditure policy will facilitate private sector
                  growth, increase production capacity and enhance productivity, thereby contributing to poverty
                  reduction. The Government plans to continue to improve its spending capacity at all levels.

                  Over the past ¿ve years, foreign aid has averaged approximately 60 percent of GDP.
                  Roughly one third of foreign assistance is channeled through the core budget, with the rest
                  spent outside the government budget. Aligning donors’ expenditure that is spent outside the
                  national budget with ANDS priorities will remain a major ¿scal challenge. Of greater concern
                  for the Government are the potentially negative effects of aid volatility. The Government will
                  maintain ¿nancial reserves with DAB and over the medium-term will pursue policies to develop
                  contingent ¿nancing arrangements.

                  Increasing revenues by improving revenue administration and enforcement, and broadening
                  the tax base, is essential for ¿scal sustainability and a reduction in aid dependency. The
                  Government is committed to cover 100 percent of recurrent expenditures through domestic
                  revenues by 2012. Progress has been made in mobilizing domestic revenue, with an increase
                  from 12.8 billion Afghani in 1383 (2004/05) to 28.8 billion Afghani in 1385 (2006/07). The ratio
                  of revenue-to-GDP is expected to improve to 10 to 11 percent of GDP in 1391 (2012/13), albeit
                  even then one of the lowest ratios in the world. The immediate priority for revenue generation
                  is to strengthen enforcement efforts and to persuade the National Assembly to enact the
                  amendments to the income tax law that the Government has submitted. In the short-term, other
                  important government policies for increasing revenue will include measures to broaden the tax
                  base and improve tax administration. In the medium term, a broad-based consumption tax will
                  play an important role in domestic revenue mobilization.

                  VII. PARTNERSHIPS FOR FINANCING THE ANDS

                  The Cabinet has approved a ceiling and budget prioritization for ANDS sectors, as shown
                  in Table 1 below. These sectoral ceilings are based on moving to a budget that is based on
                  delivering development needs, available ¿nancing information from previous years, and
                  projections for domestic revenues.

                  These ceilings and the budget prioritization exercise have played a central role in the
                  preparation of the Medium-Term Fiscal Framework (MTFF), and they are directly linked to the
                  national budget. Starting in 1387 (2008/09), the MTFF will embody the prioritization established
                  in the ANDS and will provide the mechanism for implementing the ANDS through the national
                  budget process. Security will remain the top priority sector for Afghanistan in terms of
                  expenditure. Over the lifetime of the ANDS, security spending is expected to total $14.2 billion.
                  The funding for this sector is expected to come primarily through international assistance. The



                                                        Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 133



SIGAR gpo WW.indd Sec2:133                                                                                             10/22/2008 4:50:26 PM
              EXECUTIVEJSUMMARY
              APPENDIX   – AFGHANISTAN NATIONAL DEVELOPMENT STRATEGY




                  Government estimates that in the future, the need for security assistance will decrease as
                  the threat declines. However, given the uncertain nature of the instability facing Afghanistan,
                  the Government envisions the possibility of potentially signi¿cant revisions to the ¿nancing
                  envelope for the security sector.

                  In the short-term, the Government will focus its public expenditure programs on investments
                  in infrastructure and agriculture and rural development in recognition of the high importance of
                  these sectors for the development of the private sector and for employment growth. Over the
                  lifetime of the ANDS, the Government will focus progressively more resources on education,
                  governance, health, and social protection. The Government is committed to allocating suf¿cient
                  amount of resources to the key priorities of strengthening economic governance and improving
                  the enabling environment for private sector development.

                  Costing and Prioritization of the ANDS Sectors
                  The full costing of the projects and programs included in the ANDS is not yet complete. In
                  the process of preparation of the ANDS, it became clear that in many sectors neither cost
                  information nor detailed investment plans were available. Further, full costing was not possible
                  until the prioritized sectoral objectives were identi¿ed as a basis for costing of key sectoral
                  outputs. Therefore, it was decided that three sectors with relatively higher institutional capacity
                  would be costed in the initial phase. The sectors chosen for the pilot costing exercise were
                  health, education, and roads—a sub-sector in the Transport sector. The Ministry of Finance is
                  leading the costing process, working directly with line ministries and incorporating Provincial
                  Development Plans. The work on costing of the next group of priority sectors—security,
                  social protection and the remaining components of the infrastructure sectors—has already
                  commenced. These sectors are expected to be fully costed by the summer of 2008.

                  Expected Assistance for ANDS Implementation

                  The total estimated cost of the ANDS over its ¿ve-year time span is approximately US$50.1
                  billion. Of this amount, the Afghan government will contribute US$6.8 billion and external
                  assistance is expected to be US$43.2 billion. The US$50.1 assumes a signi¿cant incremental
                  increase in funds being channeled through the Government Core Budget. However, if funds
                  continue to be channeled externally this will result in much higher overhead costs, thereby
                  increasing by a sizeable amount the total aid requirements for successful ANDS implementation
                  over the next ¿ve years.

                  Over the lifetime of the ANDS Afghanistan will continue to rely on external ¿nancing. The
                  Government’s medium-term objective is to reduce aid dependency and improve sustainability
                  by increasing domestic revenues. To that end, the Government is pursuing policies that will
                  strengthen the performance of the economy and improve revenue collection. Meanwhile, the
                  Government encourages its international partners to make multiyear commitments to support
                  the goals and the priorities of the ANDS. This will improve the predictability of aid Àows and




              134 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:134                                                                                              10/22/2008 4:50:26 PM
                                                         APPENDIX J – AFGHANISTAN NATIONAL DEVELOPMENT
                                                                                              EXECUTIVE STRATEGY
                                                                                                        SUMMARY




                  permit the Government to better plan sustainable expenditures and manage priorities more
                  effectively over the medium-term.

                  VIII.AID EFFECTIVENESS

                  Without signi¿cant improvements in the effectiveness of aid, Afghanistan will be unable
                  to achieve the ambitious goals set out in the ANDS, even with large increases in aid. The
                  Government is committed to ensuring that maximum bene¿t is gained from international
                  development assistance. The ANDS, with its implementation, monitoring and evaluation
                  framework, will facilitate greater aid effectiveness. The Government has developed an aid
                  effectiveness strategy, in line with the Paris Declaration for Aid Effectiveness and Afghanistan’s
                  international obligations.

                  A key priority of the Government’s aid effectiveness strategy is to encourage donors to channel
                  a greater proportion of their contributions through the core budget. There is strong evidence
                  that aid channeled through the national budget achieves greater impact at lower cost. In turn,
                  the Government commits to further strengthen public ¿nancial management, procurement, and
                  ¿duciary responsibilities and improve the absorptive capacity of state institutions.

                  The Government’s aid effectiveness strategy is based on the following principles and priority
                  policies:

                       •     Afghan ownership: Through the establishment of the ANDS itself, the Government is
                             articulating the priorities necessary to achieve Afghanistan’s development goals.

                       •     Alignment of international assistance with Afghan priorities as enunciated in the ANDS:
                             Afghanistan’s international partners can contribute to improved aid effectiveness
                             through increased discipline in respecting de¿ned sector ceilings and priority programs,
                             while improving coordination through more extensive information sharing and policy
                             dialogue—both horizontally (across donors and government institutions) and vertically
                             (with PRTs andlocal governments).

                       •     Harmonization: Aid effectiveness will bene¿t from improved information on aid Àows and
                             greater predictability; reducing high transaction costs and parallel funding mechanisms;
                             improving intergovernmental coordination; and strengthening the management of
                             technical assistance.

                       •     Managing for results: The Government is committed to pursuing policies aimed at:
                             increasing the transparency and aid absorption capacity of the government; improving
                             public ¿nancial management; reducing corruption; and ensuring sustainability of
                             maintenance and operation costs.




                                                          Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 135



SIGAR gpo WW.indd Sec2:135                                                                                              10/22/2008 4:50:26 PM
              EXECUTIVEJSUMMARY
              APPENDIX   – AFGHANISTAN NATIONAL DEVELOPMENT STRATEGY




                       •     Mutual accountability and partnership: In achieving the shared vision and goals, the
                             Government will continue to participate in the Paris Declaration Monitoring Survey and
                             the Public Financial Management Performance Assessment as a means to ensuring
                             mutual accountability towards progress in aid effectiveness.

                  IX. IMPLEMENTATION FRAMEWORK

                  The National Budget is the central tool for implementing the ANDS, and all line ministries will
                  develop and align their programs and projects in accordance with the ANDS sector strategies.
                  Sector programs and projects will then be costed, sequenced and re-prioritized to reÀect the
                  medium-term budget ceilings. The implementation framework for the ANDS is an integrated
                  approach to national budgetary execution, the legislative agenda and program delivery.
                  This approach will also require the international community to align their support with ANDS
                  priorities. Based on this, the ANDS Public Investment Programs (PIPs) will be prepared to
                  enable the full integration of the ANDS into the MTFF and the budget.

                  The role of the Control and Audit Of¿ce (CAO) will be strengthened to provide oversight of
                  the expenditure functions of core spending ministries. However, given CAO’s current capacity,
                  the Ministry of Finance will assume this responsibility in the short term. The Cabinet, through
                  the ANDS Oversight Committee (OSC), will oversee and coordinate the overall ANDS
                  implementation process. However, line ministries and other government agencies will be mainly
                  responsible for implementation. The Ministry of Finance will have the responsibility to ensure
                  that the programs and projects of the line ministries are costed, sequenced, and integrated
                  into the Medium-Term Fiscal Framework and the National Budget. The Joint Coordination and
                  Monitoring Board (JCMB) is the highest Government-international community mechanism
                  in charge of coordinating and monitoring both the ANDS and the Afghanistan Compact. The
                  joint Government and donor entities, such as the Consultative Groups (CGs) and Working
                  Groups (WG), will continue to serve as forums for improving aid coordination, policy and
                  implementation dialogue, ensuring the alignment of donor programs with the ANDS priorities.

                  X. MONITORING, EVALUATION AND REPORTING

                  The monitoring, evaluation and reporting process of the ANDS will be an integral part of the
                  implementation framework. The ANDS has developed clearly de¿ned goals, inputs, outputs,
                  outcomes, and impact indicators. However, due to weak statistical capacity, the baselines
                  for a number of key development and poverty indicators are yet to be established. It will be
                  important to distinguish between two levels of monitoring and oversight: detailed input/output or
                  program monitoring of the implementation of the ANDS; and wider results/outcomes and impact
                  monitoring for the high level Government institutions (OSC, Cabinet) and JCMB to ensure that
                  the strategic priorities of the ANDS are on track.

                  The JCMB secretariat will provide policy and strategy analysis and assessment, monitoring and
                  evaluation reports to JCMB on the overall implementation of ANDS and Afghanistan Compact



              136 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:136                                                                                            10/22/2008 4:50:26 PM
                                                      APPENDIX J – AFGHANISTAN NATIONAL DEVELOPMENT
                                                                                           EXECUTIVE STRATEGY
                                                                                                     SUMMARY




                  Benchmarks. The Annual ANDS Progress Report will be presented to the World Bank and IMF
                  boards in the context of Afghanistan’s work to reach the “completion point” under the Highly
                  Indebted Poor Counties (HIPC) program. Based on annual progress and evaluation reports,
                  every two years a full update of the ANDS/PRSP, developed with broad participation, will
                  be constituted as an impact evaluation. This update will be publicly disseminated and will
                  provide an opportunity for the government to adjust policies to achieve desired results. Public
                  expenditure reviews will be carried out, and in line with the budget cycle, ad hoc and quarterly
                  sectoral monitoring and reports will be conducted.

                  The Central Monitoring and Reporting System (CMRS) will be developed jointly by the Ministry
                  of Economy and the JCMB secretariat. The CMRS and the Central Statistics Of¿ce (CSO) will
                  be part of an integrated information collection and monitoring system. The CSO will collect
                  data through various means including surveys. The CMRS will then collect the processed
                  data produced by the CSO; undertake budget monitoring and line ministry reporting; facilitate
                  various monitoring processes; and disseminate information. The CSO will remain the main
                  provider of primary and secondary national statistics, as an input to the CMRS. Its capacity
                  will be strengthened so that an effective statistical system is in place for capturing data on
                  macro-level indicators as well as micro-level impacts. One of the most important tools for this
                  framework is the NRVA household survey, from which the current poverty line estimates have
                  been calculated. The role of the NRVA will be further expanded so that it can more fully capture
                  the impact of ANDS implementation.

                  Line ministries will continue to collect sectoral information to monitor the outputs and outcomes
                  of national spending through the ANDS. The line ministries will strengthen their provincial
                  of¿ces to collect disaggregated data on indicators to monitor progress at the sub-national level.
                  The budget monitoring system, the Afghanistan Financial Management Information System
                  (AFMIS), managed by the Ministry of Finance, will provide information on input and output
                  expenditures in line with the MTFF.

                  Independent monitoring will be a vital part of the overall monitoring and reporting system. Civil
                  society, nongovernmental organizations, and the media will play important roles in the external
                  monitoring of the ANDS. ANDS implementation, monitoring, and evaluation will be carried out
                  in consultation with these stakeholders, sub-national representatives, and the international
                  community.

                  The role of the International Financial Institutions, the international community and UN
                  agencies will continue to be vital for (i) developing analyses and assessments; (ii) coverage
                  and timeliness of key data; (iii) documenting the current resource envelope; and (iv) providing
                  information on the present levels of external assistance and prospects for aid levels over the
                  medium-term.




                                                       Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 137



SIGAR gpo WW.indd Sec2:137                                                                                            10/22/2008 4:50:26 PM
              EXECUTIVEJSUMMARY
              APPENDIX   – AFGHANISTAN NATIONAL DEVELOPMENT STRATEGY




                  XI. CONCLUSION

                  Although signi¿cant gains have been made over the past six years, Afghanistan and the
                  international community underestimated the magnitude of devastation, and the time and costs
                  required to redress it. Progress to date has struggled to keep pace with the rapid growth of new
                  problems and the rising democratic aspirations of the Afghan people.

                  Sustaining the nascent Afghan democracy will require nothing less than a prosperous
                  Afghanistan in which poverty reduction and growth occur simultaneously. Success depends on
                  a vibrant private sector with public sector resources focused primarily on providing physical,
                  commercial and legal infrastructure and distributing the bene¿ts of growth to all citizens. At the
                  same time, economic growth and poverty reduction will not be delivered without peace and
                  security. Stabilizing the nation, provinces and communities across Afghanistan, coupled with
                  rebuilding core government capacities, are prerequisites for realizing our national vision.

                  Through the Afghanistan National Development Strategy, the Government is ¿rmly committed
                  to achieve the ambitious targets speci¿ed in the Afghanistan Compact benchmarks and
                  Afghanistan Millennium Development Goals. This includes: (i) the achievement of nationwide
                  stabilization; (ii) the strengthening of the rule of law, democratic practice and human rights;
                  and (iii) the improvement of public service delivery and government accountability. This also
                  involves efforts to reduce poverty, to ensure sustainable development through private sector-
                  led economic growth, and to improve human development indicators. In addition, to accelerate
                  progress in all spheres of development, further investments are required in the key sectors of
                  agriculture, energy, irrigation, and education.

                  Following extensive consultations involving thousands of Afghans and international partners,
                  the ANDS is formulated to ensure that the scope and priorities identi¿ed in the strategy are
                  commensurate with the enormity of the challenges facing the country. Our success in this
                  endeavor will require the sustained, enhanced, and coherent support of Afghanistan’s
                  international partners. In this regard, increasing aid effectiveness is essential to effective
                  Afghan-led implementation of the ANDS agenda, especially through the alignment of aid
                  towards ANDS priorities and the channeling of resources through the core Government budget.

                  The ANDS, as a national strategy, has adopted an integrated approach to guarantee successful
                  implementation towards realizing the shared goals of stabilization, prosperity, good governance
                  and peace. As we move from ‘Compact to Impact’ to make a meaningful change in the lives
                  of ordinary Afghans, a stronger and sustained ¿nancial and political commitment by the
                  international community is needed. Most importantly, this integrated effort will require the full
                  involvement and collaboration of Government, the private sector, civil society, the international
                  community, and all Afghan citizens.

                  Together we will make our vision a reality for the people of Afghanistan.




              138 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:138                                                                                             10/22/2008 4:50:26 PM
                                                     APPENDIX J – AFGHANISTAN NATIONAL DEVELOPMENT
                                                                                          EXECUTIVE STRATEGY
                                                                                                    SUMMARY




                             Participating Countries and Organizations in the International
                                 Afghanistan Support Conference (ANDS Conference)


                     Participating countries   Japan                   United Arab Emirates
                     Afghanistan (co-chair)    Jordan                  United Kingdom
                     Albania                   Kazakhstan              United States of America
                     Australia                 Korea (Republic of)     Uzbekistan
                     Austria                   Kuwait
                     Bahrain                   Kyrgyzstan              Participating organizations
                     Bangladesh                Latvia                  Aga Khan Foundation
                     Belgium                   Libya                   Asian Development Bank
                     Brazil                    Lithuania               European Commission
                     Brunei                    Luxembourg              International Monetary Fund
                     Bulgaria                  Malaysia                Islamic Development Bank
                     Canada                    Malta                   NATO
                     Chile                     Netherlands             Organization of Islamic Conference
                     China                     New Zealand             Secretary-General, High Representative
                     Croatia                   Norway                    of the EU
                     Cyprus                    Oman                    United Nations (co-Chair)
                     Czech Republic            Pakistan                World Bank
                     Denmark                   Poland
                     Egypt                     Portugal                Observers
                     Estonia                   Qatar                   Agency Coordinating Body for Afghan
                     Finland                   Romania                  Relief
                     France (co-chair)         Russia                  Economic Cooperation Organization
                     Macedonia (FYR)           Saudi Arabia            European Parliament
                     Germany                   Singapore               International Committee of the Red Cross
                     Greece                    Slovakia                Organization for Economic Cooperation
                     Hungary                   Slovenia                 and Development
                     Iceland                   Spain                   Organization for Security and Cooperation
                     India                     Sweden                    in Europe
                     Indonesia                 Switzerland             South Asian Association for Regional
                     Iran                      Tajikistan                Cooperation
                     Ireland                   Turkey
                     Italy                     Turkmenistan




                  Full text of the executive summary available at http://www.embassyofafghanistan.org/
                  documents/resume_ANDS.pdf
                  Full text of the ANDS available at http://www.embassyofafghanistan.org/documents/
                  Afghanistan_National_Development_Strategy_eng.pdf



                                                       Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 139



SIGAR gpo WW.indd Sec2:139                                                                                         10/22/2008 4:50:26 PM
              EXECUTIVEKSUMMARY
              APPENDIX   – AFGHANISTAN INTERNATIONAL COMMUNITY DONORS LIST




                                                 Appendix K
                              Afghanistan International Community Donors List
                                                (in $Millions)




              140 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:140                                                      10/22/2008 4:50:26 PM
                                                                                               EXECUTIVE
                                                                                                      REFERENCES
                                                                                                         SUMMARY




                                                        REFERENCES

                  “The Afghanistan Compact.” The London Conference on Afghanistan. January 31- February 1
                         2006.

                  Afghanistan Ministry of Rehabilitation and Development and the Central Statistics Of¿ce.
                        (2005). National Risk and Vulnerability Assessment 2005: Afghanistan.

                  “The Afghanistan National Development Strategy.” The International Conference in Support of
                         Afghanistan. June 12, 2008. from http://www.embassyofafghanistan.org/documents/
                         Afghanistan_National_Development_Strategy_eng.pdf

                  Anderson, John Ward. (2008, June 13). International Donors Pledge Additional $21 Billion for
                        Afghanistan. The Washington Post. Retrieved from http://www.washingtonpost.com/wp-
                        dyn/content/article/2008/06/12/AR2008061200269_pf.html

                  Center for the Study of the Presidency. (January 30, 2008). Afghanistan Study Group Report.

                  Central Intelligence Agency. (October 2, 2008). CIA World Factbook – Afghanistan. Retrieved
                         October 7, 2008, from
                         https://www.cia.gov/library/publications/the-world-factbook/geos/af.html

                  “Declaration of the International Conference in Support of Afghanistan.” The International
                         Conference in Support of Afghanistan. June 12, 2008. from
                         http://unama-afg.org/_latestnews/2008/Paris-con-Declaration-june12.pdf

                  Department of State, Bureau of Democracy, Human Rights, and Labor. (March 11, 2008).
                        Country Reports on Human Rights Practices – 2007: Afghanistan. from
                        http://www.state.gov/g/drl/rls/hrrpt/2007/100611.htm

                  Government Accountability Of¿ce. (July 2005). Afghanistan Reconstruction: Despite
                        Some Progress, Deteriorating Security and Other Obstacles Continue to Threaten
                        Achievement of U.S. Goals. (GAO-05-742). Washington, DC: U.S.

                  Government Accountability Of¿ce. (May 2007). Securing, Stabilizing, and Reconstructing
                        Afghanistan. (GAO-07-801SP). Washington, DC: U.S.

                  Government Accountability Of¿ce. (June 13, 2008). Global War on Terrorism: Reported
                        Obligations for the Department of Defense (GAO-08-853R). Washington, DC: U.S.

                  Katzman, Kenneth. Congressional Research Service. (April 8, 2005). Afghanistan: Presidential
                        and Parliamentary Election (CRS RS21922). Washington, DC: U.S. The Library of
                        Congress.



                                                       Of¿ce of the SIGAR | October 30, 2008 Report To Congress I 141



SIGAR gpo WW.indd Sec2:141                                                                                        10/22/2008 4:50:27 PM
              EXECUTIVE SUMMARY
              REFERENCES




                  Katzman, Kenneth. Congressional Research Service. (June 6, 2008). Afghanistan: Post-War
                        Governance, Security, and U.S. Policy. (CRS RL30588). Washington, DC: U.S. The
                        Library of Congress.

                  Negroponte, John, & Spanta, Rangin Dadfar. (September 25, 2008.) “United States-
                        Afghanistan Strategic Partnership Joint Statement.” from
                        http://www.state.gov/r/pa/prs/ps/2008/sept/110323.htm

                  Of¿ce of the Secretary of Defense (2008). Report on Progress toward Security and Stability in
                         Afghanistan. (1230).

                  Sarwari, Mohammad Ishaque. (n.d.). Asian Development Outlook 2008 – South Asia: Islamic
                        Republic of Afghanistan. from
                        http://www.adb.org/Documents/Books/ADO/2008/AFG.asp




              142 | Of¿ce of the SIGAR | October 30, 2008 Report To Congress



SIGAR gpo WW.indd Sec2:142                                                                                        10/22/2008 4:50:27 PM
